<html>
<title> - EMPOWERING WORKERS TO REBUILD AMERICA'S ECONOMY AND LONGER-TERM COMPETITIVENESS: GREEN SKILLS TRAINING FOR WORKERS</title>
<body><pre>[Senate Hearing 111-813]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-813
 
    EMPOWERING WORKERS TO REBUILD AMERICA'S ECONOMY AND LONGER-TERM 
           COMPETITIVENESS: GREEN SKILLS TRAINING FOR WORKERS

=======================================================================

                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                                   ON

 EXAMINING EMPOWERING WORKERS TO REBUILD AMERICA'S ECONOMY AND LONGER-
  TERM COMPETITIVENESS, FOCUSING ON GREEN SKILLS TRAINING FOR WORKERS

                               __________

                             APRIL 21, 2009

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


      Available via the World Wide Web: http://www.gpo.gov/fdsys/



                  U.S. GOVERNMENT PRINTING OFFICE
49-360                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4b2c3b240b283e383f232e273b6528242665">[email&#160;protected]</a>  


          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

               EDWARD M. KENNEDY, Massachusetts, Chairman

CHRISTOPHER J. DODD, Connecticut     MICHAEL B. ENZI, Wyoming
TOM HARKIN, Iowa                     JUDD GREGG, New Hampshire
BARBARA A. MIKULSKI, Maryland        LAMAR ALEXANDER, Tennessee
JEFF BINGAMAN, New Mexico            RICHARD BURR, North Carolina
PATTY MURRAY, Washington             JOHNNY ISAKSON, Georgia
JACK REED, Rhode Island              JOHN McCAIN, Arizona
BERNARD SANDERS (I), Vermont         ORRIN G. HATCH, Utah
SHERROD BROWN, Ohio                  LISA MURKOWSKI, Alaska
ROBERT P. CASEY, JR., Pennsylvania   TOM COBURN, M.D., Oklahoma
KAY R. HAGAN, North Carolina         PAT ROBERTS, Kansas          
JEFF MERKLEY, Oregon                 
  

           J. Michael Myers, Staff Director and Chief Counsel

     Frank Macchiarola, Republican Staff Director and Chief Counsel

                                  (ii)

  




                            C O N T E N T S

                               __________

                               STATEMENTS

                        TUESDAY, APRIL 21, 2009

                                                                   Page
Murray, Hon. Patty, a U.S. Senator from the State of Washington, 
  opening statement..............................................     1
Enzi, Hon. Michael B., Ranking Member, a U.S. Senator from the 
  State of Wyoming...............................................     3
Brown, Hon. Sherrod, a U.S. Senator from the State of Ohio.......     5
    Prepared statement...........................................     6
Casey, Hon. Robert P., Jr., a U.S. Senator from the State of 
  Pennsylvania...................................................     8
Hagan, Hon. Kay R., a U.S. Senator from the State of North 
  Carolina.......................................................     8
Merkley, Hon. Jeff, a U.S. Senator from the State of Oregon......     9
Solis, Hon. Hilda, Secretary of Labor, Washington, DC............    10
    Prepared statement...........................................    13
Lambert, Lee D., President, Shoreline Community College, 
  Shoreline, WA..................................................    31
    Prepared statement...........................................    32
Lou, Phillip, C.L., former student in the Shoreline Community 
  College Solar Design and Installation Program, Vashon, WA......    38
    Prepared statement...........................................    39
Allen, Dean, CEO, McKinstry Company, Seattle, WA.................    40
    Prepared statement...........................................    42
Ayers, Mark, President, Building and Construction Trades 
  Department, AFL-CIO, Washington, DC............................    47
    Prepared statement...........................................    48
Evans, Joan, Director, Wyoming Department of Workforce Services, 
  Cheyenne, WY...................................................    53
    Prepared statement...........................................    55

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Senator Kennedy..............................................    64
    Associated Builders and Contractors (ABC)....................    65
    Independent Electrical Contractors (IEC).....................    68
    Associated General Contractors of America (AGC), letter......    69
    Dave Freudenthal, Governor, Cheyenne, WY, letter.............    73
    Response by Secretary Solis to questions of:
        Senator Kennedy..........................................    75
        Senator Murray...........................................    76
        Senator Enzi.............................................    78
        Senator Isakson..........................................    79
    Response by Lee Lambert to questions of:
        Senator Murray...........................................    85
        Senator Enzi.............................................    88
    Response by Phillip Lou to questions of:
        Senator Murray...........................................    90
        Senator Enzi.............................................    91
    Response by Joan Evans to questions of:
        Senator Murray...........................................    91
        Senator Enzi.............................................    94

                                 (iii)

  


    EMPOWERING WORKERS TO REBUILD AMERICA'S ECONOMY AND LONGER-TERM 
           COMPETITIVENESS: GREEN SKILLS TRAINING FOR WORKERS

                              ----------                              


                        TUESDAY, APRIL 21, 2009

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:33 a.m., in 
room SD-430, Dirksen Senate Office Building, Hon. Patty Murray 
presiding.
    Present: Senators Murray, Sanders, Brown, Casey, Hagan, 
Merkley, and Enzi.

                  Opening Statement of Senator Murray

    Senator Murray. This hearing of the Health, Education, 
Labor, and Pensions Committee will come to order. I am pleased 
to be chairing a hearing on this topic, so important to our 
Nation's competitiveness and long-term economic strength, to 
ensure that our American workers have the skills to succeed in 
this new, green economy.
    First of all, I want to send our warmest wishes to our 
Chairman, Senator Kennedy, who continues to be a great champion 
for America's workers.
    I also want to thank Senator Enzi, our Ranking Member, and 
Senator Isakson, who I believe will be here and serves as our 
subcommittee. Both of them have been very strong partners in 
making sure that our workers have the skills to compete in a 
global workforce.
    I also want to welcome our newly confirmed Labor Secretary, 
Secretary Solis, to the Hill today. I believe this is your 
first hearing, welcome.
    While it is your first hearing, we have had a lot of 
conversations already about the challenges facing our workforce 
as we work to pull ourselves out of this economic recession, so 
I look forward to hearing from you and working with you to help 
ensure a strong workforce for America.
    I also look forward to hearing our second panel of 
witnesses, who are here with us today. We have several experts 
from the State of Washington. Dean Allen, who is the CEO of 
McKinstry Company, a company which has been on the cutting edge 
of the green building industry.
    Lee Lambert, who is the President of Shoreline Community 
College, and Mr. Phil Lou, whose green training at Shoreline 
has opened up a new career of opportunities for him.
    I am, I must tell you, thrilled to have so many Shoreline 
Community College folks represented here. I worked there in my 
earlier career, I know it's a great school, and I know they're 
committed to preparing students to succeed in the work world.
    I want to thank all of you for traveling so far to be here 
as witnesses for our committee today.
    As we look forward to Earth Day, it's appropriate that 
we're here today to talk about how we can re-tool our workforce 
for the green economy. It's going to take a skilled, green 
workforce to free our Nation from dependence on foreign oil, 
and build a stronger and more sustainable economic future.
    From solar panel installation, to green building to 
retrofitting our homes and offices, the jobs of tomorrow start 
with increased training efforts today. Not only will it help us 
all to be more energy efficient, it can help our communities 
and our working families rebuild for a stronger and more 
sustainable economic future.
    The debate about what, exactly, constitutes green energy is 
complex. We'll look to our colleagues on the committees on 
Energy and Natural Resources and Environment and Public Works 
as well as the Obama administration to help inform us about the 
future of America's energy and environmental policies.
    Leaders like Senator Sanders, who will be with us shortly, 
who is the chairman of the new Subcommittee on Green Jobs in 
the New Economy, can help all of us better understand how 
Federal policy can move our Nation toward a sustainable energy 
future that will create new green-collar jobs.
    America's working families deserve nothing less than a 
strong and effective partnership among their elected 
representatives to achieve this goal. Together with today's 
efforts to examine how we can best provide workers the skills 
to thrive in green industries, we can begin to build a stronger 
and more sustainable economic future.
    What exactly is a green job? Well, there isn't a hard and 
fast definition. These jobs tend to provide products and 
services that promote renewable energy resources, reduce 
pollution, and conserve energy and natural resources in any 
industry.
    We also know that they are not confined to skilled trades 
or professional occupations. Like any in-demand sector they're 
cross-
cutting and able to reach workers of all ages and skill levels.
    For some, going green at work means applying the skills 
they already have to a new, more sustainable context--like the 
construction workers who lend their talent to building energy 
efficient structures.
    For others, it means retraining for a new career, or 
upgrading their existing skills, and that's where we can be 
most helpful.
    When Congress passed the Workforce Investment Act in 1998, 
we intended for it to support the needs of workers, job 
seekers, and the businesses that grow our economy. Since the 
authorization expired almost 6 years ago, those of us who 
believe in this legislation's goals have called for both its 
modernization and renewal.
    Many of us on this committee have kept up the drumbeat for 
reauthorization. Senator Enzi, as we well know, takes every 
opportunity to voice his support for reauthorization--I'm 
pretty sure he'll do that again today--and I appreciate all of 
his efforts.
    We have let Secretary Solis and others in the 
Administration know of our commitment to moving a bill forward 
this year. Together with Senator Kennedy and Senator Isakson we 
began the process by hosting a number of listening sessions 
with everyone from educators and business leaders, to workforce 
and economic development experts, organized labor, and many 
others.
    We've heard from organizations like ``Green For All'' about 
how those opportunities can help lift Americans out of poverty. 
The Vice President's Middle Class Task Force has focused on how 
green jobs can help strengthen and expand the middle class, and 
provide opportunities for those who may not know that it was in 
their reach.
    We have great opportunities for improving the system to 
make it work for both businesses and workers, and ensuring our 
ability to adapt to a changing and greening economy.
    Going green will require us to get serious about worker 
training, and with record investments in creating green jobs in 
the Economic Recovery Act, now is the time to ramp up our 
efforts.
    That law invested billions of dollars in job creation with 
a focus on energy efficiency and sustainability, greener 
infrastructure development, and environmentally sound public 
works.
    At the same time, we also invested in America's workers in 
their ability to secure those jobs and move up a career ladder. 
We provided $4.2 billion for job training and placement 
services, and, consistent with the Green Jobs Act, we directed 
$500 million of those funds to the task of preparing workers 
for green economy jobs.
    We requested that Job Corps participants learn about green 
construction practices by directing funding to teach students 
to retrofit the very centers they live and learn in. We know 
that manufacturing and construction sectors have taken some of 
the hardest hits in this economic downturn, so we directed the 
Department of Labor to emphasize green skills development and 
dislocated worker programs under WEA.
    I look forward to hearing from Secretary Solis about how 
those funds are being distributed, and about a vision for 
incorporating green skills into a long-term plan for economic 
growth and strength.
    With that, I will turn it over to our ranking Republican, 
Senator Enzi, and thank you so much for your help in putting 
this committee together today.

                       Statement of Senator Enzi

    Senator Enzi. Well, thank you, Madam Chairman, I thank you 
for holding this hearing to discuss the issue of green skills 
training for workers. I also want to welcome the Secretary for 
her first appearance before the HELP Committee since her 
confirmation.
    I'm pleased that we'll be joined on the second panel by 
Joan Evans, Director of the Wyoming Department of Workforce 
Services. Because Wyoming has substantial energy production, I 
believe that Director Evans will bring an important perspective 
to this discussion, and I look forward to introducing her at 
the appropriate time.
    I am also pleased that we have the representation of 
community colleges here. Wyoming thrives on community colleges, 
and I've noticed that they are able to turn on a dime to meet 
new needs and do new training.
    President Obama has made green jobs a central part of his 
plan to rebuild the Nation's economy. He's stated on a number 
of occasions about the need to transition to a clean energy 
economy. I support the President's goal of increasing our clean 
energy production, and I hope the President understands that we 
need an inclusive strategy when it comes to addressing our 
serious energy challenges.
    My home State of Wyoming is at the forefront of our 
Nation's energy efforts, as we have an abundance of energy 
resources. We provide the Nation with the coal that generates 
the electricity for more than half of our Nation's homes and 
businesses. For this reason, we must recognize the critical 
role that coal plays--and will continue to play--in our 
Nation's economic stability and energy stability.
    Southeast Wyoming is one of the best places in the Nation 
for wind energy development, and Wyoming has some of the best 
potential for solar energy development, as well.
    However, today we're not focusing on energy policy, instead 
we're talking about the importance of having a skilled 
workforce, and making sure that we have the education and 
training programs necessary to meet the skill demands of the 
21st Century jobs, including green jobs.
    The strength of our current workforce system is that it is 
demand-driven. We need to consider whether we are creating a 
demand for green jobs, or if we are responding to a true market 
demand for more workers to fill green jobs.
    The education and skills training for green jobs must be 
connected to the larger workforce system, so that we are not 
duplicating the efforts of the current Workforce Investment Act 
system. I had to get that in.
    [Laughter.]
    We can not afford to create a parallel system of job 
training, and put additional silos to our Workforce system.
    The Stimulus bill included $500 million for jobs training 
projects that prepare workers for careers in energy efficiency 
and renewable energy. I encourage the Department of Labor to 
coordinate with the other Federal agencies targeted for 
stimulus funding, to address green jobs.
    Coordination is particularly critical when other agencies--
such as the Department of Energy, the Department of 
Transportation, Department of the Interior and the 
Environmental Protection Agency--have little connection to the 
workforce system in States and communities across the country.
    As we discuss green jobs, it's also important to examine 
whether green jobs are new occupations, or whether green jobs 
are existing jobs that require a new layering of green skills. 
For many occupations, training workers for green jobs can be as 
straightforward as training them for the jobs in the existing 
career sector, without any adjustment, or with slight 
modification to incorporate specific knowledge and skills for 
the green aspects of the job.
    While it may be appropriate to do the extra work to help 
bring these additional skills needed to the work in a green-
related field, we should focus on making sure that we're 
providing workers with the core knowledge and skills they need 
to be successful in the 21st Century workplace, and the global 
economy.
    While I believe it's important to understand the skills 
needed for workers to be successful in green industries, I 
think we should be addressing the workforce development system 
overall, by reauthorizing the Workforce Investment Act.
    I look forward to working with Secretary Solis and my 
Senate colleagues this year to renew and improve this important 
act. We've come close before, we need to get it done.
    I look forward to hearing what the witnesses have to say 
today. Thank you, again, for taking the time to share your 
views about green jobs and skills needed as we address these 
emerging issues.
    Thank you, Madam Chairman.
    Senator Murray. Thank you very much, Senator Enzi.
    We have several members who would like to make opening 
statements. We will turn to each one of them.
    Senator Brown.

                       Statement of Senator Brown

    Senator Brown. Thank you, Madam Chair.
    Thank you to Secretary Solis, nice to see you again. When 
we worked together in the House, clean energy jobs was a policy 
idea, now it's a reality. Your vision and leadership have 
contributed in no small measure to that. Thank you for that.
    I'm particularly interested in the thoughts of the 
Secretary, and the panel, on the specific industries in which 
you all envision creating these clean energy jobs, and what 
regions of the country you see these jobs programs having the 
greatest impact.
    I've held about 140 roundtables in going to each of Ohio's 
88 counties--listening to people talk about how we get our 
economy, an economy that's been in recession longer than the 
national recession, back on track.
    One of the central messages I hear from dislocated 
manufacturing workers, is the need to update their skills, to 
get jobs in emerging clean energy technology and those sectors 
of the economy. They rightly perceive these sectors as a major 
force in economic recovery, both in their communities, and 
across our country.
    Two weeks ago, I hosted a conference in Washington for 
Ohio's college presidents, about 50 of them attended. Senator 
Murray, in fact, was our keynote speaker, and she talked--very 
persuasively--about workforce policy.
    One of the major topics that's surfaced and resurfaced 
throughout this conference was actually a question--how do we 
better coordinate between and among institutions of higher 
education, and sectors of our economy where there is unmet 
demand for workers? Clean Energy Jobs Initiative is key to that 
effort.
    Community colleges across the country are reporting a surge 
of unemployed workers as we are now enrolling in courses that 
offer training for clean energy jobs. At the Upper Valley Joint 
Vocational School in Piqua, OH, in southwestern Ohio, students 
are learning how to install solar panels, repair and 
manufacture wind turbines, produce biofuels, do other work 
related to renewable energy. With recovery bill funds, they 
could support even more students and manufacturers in Ohio and 
Pennsylvania, and North Carolina and all of our States.
    Clean energy jobs also include core manufacturing and 
services like electricians and welders and pipe fitters--
workers who can transfer their skills from other industries to 
new, greener technology. There's no doubt that these clean 
energy jobs--along with jobs in other emerging industries--can 
transform our economy. Aligning our educational system to the 
need for new skills training will go a long way toward turning 
the promise of green and other new manufacturing jobs into the 
reality of a more robust U.S. economy.
    We can't rely on educational strategies alone to get there. 
We should make the R&D tax credit permanent, and pursue trade 
policies that are actually aligned with our trade goals. Making 
the tax credit permanent is a straightforward task, modifying 
our trade policy in which Secretary Solis was a leader when she 
was in the House of Representatives, should also be a 
straightforward task, but is encumbered by ideological battles, 
too often wrapped in misleading rhetoric of accusations of 
protectionism. Both tasks are essential.
    And last, Madam Chair, Oberlin College--15 miles, or so, 
from my home--has the largest building on any college campus in 
America fully powered by solar energy. That's the good news. 
The bad news is Oberlin--some 4 or 5 years ago--bought all of 
its solar panels in Germany and Japan, simply because we didn't 
make enough in this country.
    In Germany, employment in clean energy reached a quarter 
million in 2006. It's estimated to reach a half million by 
2020. There's no worries in that the workers in Ohio, 
Washington, Oregon, Pennsylvania, and North Carolina can't do 
these jobs, and do them as well, or better, than German workers 
have.
    We're starting to see that already in Toledo. Known for 
decades as a glass city, Toledo is one of the major glass 
manufacturers in the country for solar, and produces more thin-
film solar panels than any other facility in the country.
    Another company, Xunlight, started by a Chinese immigrant, 
has gone from 30 employees to 80 employees, and will soon 
expand to double that number as they put another production 
line on their plant in northwest Ohio.
    We know we can do this, it's a question of government 
working with workforce investment groups, working with 
community colleges, working with labor, to do this right.
    Thank you, Madam Chair.
    [The prepared statement of Senator Brown follows:]

                  Prepared Statement of Senator Brown

    Thank you, Madam Chair.
    Thank you to Secretary Solis. When we worked together in 
the House, green jobs was a policy idea.
    Now it's a reality--and your vision and leadership have 
contributed in no small measure to where we are today.
    Green jobs are playing a significant role in our country's 
economic recovery and in the revitalization of our Nation's 
middle class.
    I am looking forward to your testimony, and that of our 
second panel, and to discussing strategies for implementing the 
green jobs program in the American Recovery and Reinvestment 
Act.
    In particular, I am interested in your thoughts on the 
specific industries in which you envision creating these green 
jobs, and in what regions of the country you see a green jobs 
program having the biggest impact.
    I've been holding roundtables throughout Ohio. I held more 
than 140 roundtables since taking office to hear Ohioans' 
thoughts on how to get our State economy and our national 
economy back on track.
    One of the central messages I hear from dislocated 
manufacturing workers is that they need to update their skills 
to get jobs in emerging green energy and tech sectors of the 
economy. They rightly perceive these sectors as a major force 
in economic recovery--locally and nationally.
    About 2 weeks ago, I hosted a conference in Washington for 
Ohio's college presidents. Senator Murray, in fact, was our 
keynote speaker and showed why she is such a leader on 
workforce policy.
    One of the major topics that surfaced and resurfaced 
throughout the conference was actually a question: How do we 
better coordinate between institutions of higher education and 
sectors of our economy where there is unmet demand for workers?
    The green jobs initiative is key to that effort.
    Community colleges across the country are reporting a surge 
of unemployed workers enrolling in courses that offer training 
for green jobs.
    For example, at the Upper Valley Joint Vocational School in 
Piqua, students are learning how to install solar panels, 
repair and manufacture wind turbines, produce biofuels and do 
other work related to renewable energy. With ARRA funds, they 
could support even more students and manufacturers in Ohio.
    Green jobs also include core manufacturing and services, 
like electricians, welders, and pipe fitters, who can transfer 
their skills from other industries to new green technologies.
    There is no doubt that green jobs, along with jobs in other 
emerging industries can transform our economy. Aligning our 
educational system to the need for new skills training will go 
a long way toward turning the promise of green and other new 
manufacturing jobs into the reality of robust, U.S. economic 
growth. We can't rely on educational strategies alone to get 
there.
    We should also make the R&D tax credit permanent and pursue 
trade policies that are actually aligned with our trade goals.
    Making the tax credit permanent is a straightforward task. 
Modifying our trade policy should be a straightforward task, 
but is encumbered by ideological battles wrapped in misleading 
rhetoric.
    Nonetheless, both tasks are essential.
    Oberlin College, near Cleveland, has the largest building 
on any university campus in the United States fully powered by 
solar energy. However, Oberlin College had to buy the parts for 
its system from Germany and Japan because we do not make them 
in the United States.
    In Germany, employment in clean energy reached 260,000 in 
2006 and is estimated to reach 500,000 by 2020.
    There is no reason that workers in Ohio, or Washington, or 
California can't be building the solar panels, the fuel cells, 
and the wind turbines that go into the production of 
alternative energy.
    In fact, we are starting to already. Outside of Toledo, 
known for decades as ``Glass City,'' First Solar produces more 
thin-film solar panels than any other facility in the country.
    Rising international demand has led the company to double 
the size of staff in the last 2 years.
    We have a base of manufacturers and expertise in Ohio that, 
if supported, can lead the State and the Nation.
    At roundtables and other forums, I often ask people to tell 
me what American manufacturing will look like in 10 or 20 
years.
    I'll end by posing that question to you and the second 
panel, and look forward to your thoughts.
    Thank you, Madam Chair.

    Senator Murray. Thank you.
    Senator Casey.

                       Statement of Senator Casey

    Senator Casey. Thank you so much. I want to commend Senator 
Murray for bringing us together today, and for her work in this 
whole area of inquiry that we're examining today.
    I want to thank the Secretary for being here. We want to 
welcome you back to Capitol Hill, you've been here as a member 
of Congress, but also now in your new capacity as Secretary of 
Labor. We're grateful for your presence, here, and the 
testimony you'll bring, but also for, in a larger sense, for 
your service--your continuing public service.
    There are a few issues that we could be examining that are 
more important than this. The potential in my home State of 
Pennsylvania to create--and to sustain the creation, over 
time--of green jobs is enormous.
    I would reiterate what Senator Brown said--tremendous 
potential here for so many places in the country. It's 
important that we get the strategy right, so we can take full 
advantage of that capacity and that potential. Again, we're 
grateful for your service, and we look forward to talking to 
you about these issues today.
    Thank you.
    Senator Murray. Thank you.
    Senator Hagan.

                       Statement of Senator Hagan

    Senator Hagan. Thank you, Madam Chairman.
    And Secretary Solis, I also want to welcome you.
    North Carolina is about the fifth-largest State in 
unemployment right now, we're approaching over--close to 
500,000 people unemployed. I know that we have a wonderful 
number of people who could work in the green industry. What's 
so good about those jobs, is those jobs will not be outsourced. 
We do need to--as Senator Brown said--be making those solar 
panels and batteries and wind turbines in our country.
    During this past recess, I was at Appalachian State 
University in Boone, NC, and the students are so excited. 
They're doing a number of things using wind power. They've got 
a car where they're testing the emissions of the fuel, whether 
it's canola oil, poultry renderings, all sorts of different 
types of fuels, and they are actually studying the emissions 
from that.
    I think the capacity is huge, and we also have a large 
biotechnology sector in North Carolina focused on biofuels. 
Anything that we can do to promote green industry jobs, jobs, 
jobs, is what we need to be doing at this point in time.
    I look forward to your testimony, and to helping move this 
country forward in green jobs.
    Thank you.
    Senator Murray. Thank you.
    Senator Merkley.

                      Statement of Senator Merkley

    Senator Merkley. Thank you very much, Madam Chair.
    Welcome, Secretary, it's a delight to have you with us, and 
to have your emphasis on creating jobs for working families.
    Oregon's unemployment is now 12.1 percent, has been 
exceeded only once, in 1982. We are focused, absolutely, on how 
we can create a partnership between working on environmental 
issues, and creating jobs for our working families.
    There's many exciting things going on in Oregon, as there 
are in the other States. Solar World has opened a plant that 
will be one of the largest producers of solar panels in the 
Nation, sequential biofuels has opened up a new plant, ramping 
up from a million gallons to five million gallons. We have 
traditional manufacturers working on producing devices to help 
create wave energy, which is a real potential yet to be 
exploited, so on and so forth.
    We have enormous opportunity. Just an hour ago, I was 
meeting with a Danish member of Parliament, Sven Dokken, who is 
really a driver in ending Danish energy dependence, and their 
susceptibility to oil shocks, and creating a surplus and 
turning those oil shocks to Denmark's advantage. They profit 
when the price of oil goes up. He wanted to emphasize the point 
that as they created a surplus of energy, they de-linked energy 
from the economy--that is, their economy grew enormously while 
consuming less energy, and in the course, created millions of 
jobs within their Nation. So, we can certainly do the same.
    Thank you for coming.
    Senator Murray. Thank you very much.
    Senator Enzi asked to give you his apologies. He's going 
back and forth between a Finance Committee, but he will return 
shortly, and we do have your written statement.
    Secretary Solis, again, welcome to the committee, and we 
look forward to your testimony.

            STATEMENT OF THE HONORABLE HILDA SOLIS, 
               SECRETARY OF LABOR, WASHINGTON, DC

    Secretary Solis. Thank you, Madam Chair, and to Ranking 
Member Enzi, and to the members of the committee, I'm very 
pleased to be here, this is my first official hearing as, you 
know, the last time I was here was during the confirmation.
    I'm pleased to be the 25th Labor Secretary, and proud 
author--along with my other colleagues--of the Green Jobs Act. 
As a Member of Congress, we worked for many years on passing 
that legislation, so as you can tell, I'm very delighted to be 
here, to be able to talk about this particular topic, something 
that we hold very close to our hearts, those of us that worked 
on this. I know Senator Sanders was a part of that initiative, 
as well, on the Senate side, so I want to thank him publicly.
    I appreciate the opportunity to discuss the role of green 
jobs skills training for workers in the larger context of 
rebuilding America's economy, and promoting long-term 
competitiveness.
    It's no secret that our economy is in dire straits, and 
Americans are struggling. Earlier this month, the Bureau of 
Labor Statistics reported that the national unemployment rate 
reached 8.5 percent, the highest in 26 years.
    In many States, the situation is even more severe. In 
March, the unemployment rate was 9.2 percent in Washington 
State, 11.2 percent in California, and 12.1 percent as Senator 
Merkley mentioned.
    In my own home town in California, the city of Almonte, the 
unemployment rate is 13.9 percent. Meanwhile, the rates of 
joblessness among minorities is even higher. Latinos are 
unemployed at a rate of 11.4 percent, and African-Americans are 
unemployed at a rate of 13.3 percent.
    When you talk about our young people, our youth, teens are 
also experiencing high levels of unemployment--21.7 percent.
    Our Nation has lost 5 million jobs since the recession 
began 2 years ago, December 2007. The number of long-term 
unemployed rose to 3.2 million over the month of March, and has 
increased by 1.9 million since the start of this recession.
    Investing in our Nation's workforce and creating a positive 
environment for new jobs has to be a critical component of our 
efforts to restart, and re-jump our economy.
    You have my full written statement before you, so I won't 
read it all, but I'll just hit some high points that I think I 
would like to stress.
    First, green jobs, as you know, will play an important role 
in our economic recovery. The promise of green jobs is not only 
to help restart the economy and put Americans back to work, but 
it will also help America become more energy independent. 
Investing in our Nation's clean energy future will secure 
America's energy supply, and at the same time, promote economic 
stability and an advancement for all of our communities.
    Many green jobs are in the construction and trades, and 
these jobs will tend to pay more than above-average salaries. 
The occupational employment and wage estimates indicate that 
construction and extraction operations pay a medium hourly rate 
of $17.57, as compared to $15.10. We can expect that many of 
these green jobs will pay 10 to 20 percent better than other 
jobs, and many will be union jobs that provide economic 
security for the middle-class families, while at the same time 
reducing our Nation's energy dependence.
    Furthermore, these are also jobs that traditionally can not 
be outsourced, as was stated by some of the members on the 
panel.
    This brings me to a second point. We're already making 
investments toward greening our economy and preparing our 
workforce for the 21st Century. The American Recovery and 
Reinvestment Act of 2009, signed by President Obama on February 
17, 2009 is the most significant single investment our Nation 
has ever made to ensure our future economic success.
    For its part, the Department of Labor's Employment and 
Training Administration Program, ETA, has already made 
available $3.47 billion in Recovery Act funds to support 
workforce investment activities, such as retraining dislocated 
workers, summer employment for youth, community service 
employment for low-income seniors.
    We're also developing grant solicitations for $500 million 
for high-growth job training projects, including green jobs. 
These projects will train workers for careers in energy 
efficiency, and renewable energy industries, so that a 
qualified American workforce is ready to meet the needs of our 
country's expanding green industries.
    Unemployment data show that young people, people with 
disabilities, African-Americans and Hispanics are facing 
unemployment rates in double digits. Green jobs, in my opinion, 
can provide an opportunity to rebuild our communities in a more 
equitable and fair manner, inclusive of all Americans, 
regardless of their socio-economic background.
    In order to realize this opportunity, however, we are 
prioritizing access and inclusion in these programs; for low-
income workers, for unemployed youth and adults, for high 
school dropouts, or for other underserved sectors of the 
workforce within high-poverty areas. Included in this is a 
component to help provide more support for women, because as 
you know, women are also faced with a hardship at this 
particular time.
    These are some of the communities that are hardest hit by 
the recession, and they too will have an opportunity to benefit 
from the growth in the green jobs in our economic recovery.
    The Department of Labor is also promoting green jobs across 
all of the workforce investment programs. We have issued 
guidance to States to help implement the Recovery Act-funded 
job training provisions, noting that the energy efficiency and 
renewable energy industries offers workers new opportunities 
that may require additional training and certification.
    The Department of Labor has encouraged States to expand 
existing training programs, such as registered apprenticeships 
that have the potential to prepare workers for careers in 
renewable energy, and in other green jobs.
    Other examples of how we're working to leverage our 
resources responsibly within the DOL programs to promote green 
jobs include the following: the Department of Labor Veterans 
Employment and Training Service Program, the VETS Program, will 
soon release a solicitation for grant application to promote 
green jobs trainings for veterans.
    The Bureau of Labor Standards is currently developing 
approaches to measure what green jobs are, and where that 
growth will occur, so there will be surveys that will be taken 
in different workplace industries where green activity is 
expected to occur.
    Future construction and repair of Job Corps facilities will 
also be incorporated in green technologies. Job Corps will also 
develop and implement green job training in their curricula, 
for youth to also be able to learn from these new employment 
opportunities.
    Furthermore, I'm very interested in greening the Nation's 
workforce system, that's the entire WIA system. To ensure that 
the system and its partners are fully connected, and committed 
to sustaining the green economy, both in current jobs and 
emerging occupations.
    Then finally, I'd like to highlight how our green jobs 
workforce training efforts will be even more effective in 
aiding our global economic recovery if we work together with 
our partners, the U.S. Government and around the world.
    Two weeks ago, I had the privilege of attending my first 
meeting of the G8 summit with labor ministers. At that meeting, 
we focused on the human dimension of this economic global 
crisis. In each plenary session and bilateral meeting, my 
fellow labor ministers raised the issue of green jobs. There 
were three points that were very clear to me in their 
conversations: we must first work globally to address the 
economic crisis, green jobs are an important component of this 
global economic recovery, and the world is definitely looking 
to the United States for its leadership.
    My colleagues in the Cabinet and I recognize that our 
investments can not be done in a vacuum. The Department of 
Labor and other Federal agencies have already begun to 
coordinate our work to strategically implement programs that 
ensure the connection between investments and infrastructure, 
research and development, to job training and worker placement.
    For example, the Department of Energy, specifically, the 
Department of Labor is working with them to ensure that workers 
who are hired in new jobs, in particular, weatherization, 
receive prior training. It's imperative that these be good-
paying jobs, and there be some form of standardization for 
certificates.
    HUD, another agency that my staff has been working with 
lately regarding greening of public housing, to promote 
training and hiring of unemployed residents who are actually in 
those facilities.
    I believe there is still many more linkages to be made 
between green jobs and the recovery of communities hit the 
hardest by this economic downturn.
    For example, the Department of Labor is also playing a 
vital role in supporting the economic recovery of communities 
that depend on car manufacturers and related industries. Many 
of these communities are passionate about green jobs--being a 
part of their future economic success, and the Department will 
work hard to ensure that they not only survive, but that those 
communities also thrive in this recovery.
    I'm proud to be a member of Vice President Biden's Middle 
Class Task Force. At a recent meeting in Philadelphia, and I 
quote, he said, ``We'll measure our success, whether it's 4 
years or 8 years, by one thing--if we can raise the standard of 
living for middle class people.'' I couldn't agree more.
    While we deal in facts and figures and charts, we must also 
remember the numbers behind the economic downturn, and the 
economic recovery, and that is the faces of our community, our 
constituents, the people that we represent.
    I believe that green jobs, if implemented correctly, can 
create an opportunity to lift all Americans' boats, to regain 
economic security, and can help us green our economy, and can 
help us assert our leadership in the global economy.
    Madam Chair and members, I thank you for the opportunity to 
come forward and talk to you about this very important 
discussion. Thank you.
    [The prepared statement of Secretary Solis follows:]

   Prepared Statement of Hon. Hilda L. Solis, U.S. Secretary of Labor

    Chairman Kennedy, Ranking Member Enzi and members of the committee, 
thank you for the invitation to testify today. As the 25th Labor 
Secretary and the author of the Green Jobs Act (Title X of P.L. 110-
140), I appreciate this opportunity to discuss the role of green jobs 
skills training for workers in the larger context of empowering our 
workforce to rebuild America's economy and promoting long-term 
competitiveness.
    It is no secret that our economy is struggling. Real GDP declined 
at a 6.3 percent annual rate in the fourth quarter of 2008 and 
corporate profits fell at a 51 percent annual rate, the largest decline 
since 1953. Manufacturing employment is at an over 50-year low and 
businesses are having difficulty borrowing and meeting their payrolls.
    Earlier this month, the Bureau of Labor Statistics (BLS) reported 
that the national unemployment rate reached 8.5 percent--the highest in 
26 years. In many areas the situation is even more severe. In March, 
the unemployment rate was 11.2 percent in California, 11.4 percent in 
South Carolina, and 12.6 percent in Michigan. The rates of joblessness 
among minorities are even higher. Latinos are unemployed at a rate of 
11.4 percent and African-Americans are unemployed at a rate of 13.3 
percent. Teens are unemployed at a rate of 21.7 percent. People with 
disabilities also are facing considerable challenges to securing 
employment. According to the BLS Current Population Survey's new 
monthly data series on the employment status of people with 
disabilities, the unemployment rate for this population is 13.1 percent 
(not seasonably adjusted) and their labor participation rate is 22.8 
percent compared with 70.9 percent for persons without disabilities.
    Our Nation has lost 5.1 million jobs since the recession began in 
December 2007. The number of long-term unemployed (those jobless for 27 
weeks or more) rose to 3.2 million over the month of March and has 
increased by about 1.9 million since the start of the recession. 
Investing in our Nation's workforce and creating a positive environment 
for new jobs is a critical component of our efforts to restart our 
economy.
    Green jobs play an important role in our economic recovery. The 
promise of green jobs is not only to help re-start the economy and put 
Americans back to work, but also to help make America more energy 
independent. Investment in our Nation's clean energy future will not 
only secure America's energy supply, but will do so in ways that 
promote economic stability and the advancement of all our communities.
    For instance, many green jobs are in the construction trades, and 
these jobs tend to pay above average wages. The May 2007 Occupational 
Employment and Wage Estimates published by BLS indicate that 
construction and extraction occupations pay a median hourly rate of 
$17.57 as opposed to $15.10 for all occupations. Therefore, we can 
expect that many green jobs will pay 10 percent to 20 percent better 
than other jobs. In addition, data from the Current Population Survey 
published by BLS indicate that 21 percent of construction and 
extraction workers were represented by a union in 2008, which suggests 
that many green jobs will be unionized. These are jobs that will 
provide economic security for our middle-class families while reducing 
our Nation's dependence on imported energy. These are also jobs that 
traditionally cannot be outsourced. Small businesses will play an 
important role in hiring skilled workers to grow the green economy.
    The American Recovery and Reinvestment Act of 2009 (Recovery Act), 
signed by President Obama on February 17, 2009, is the most significant 
single investment our Nation has ever made to ensure our future 
economic success. The Recovery Act will enable the repair and 
improvement of the country's infrastructure, fund innovative research 
and development initiatives, create job opportunities for Americans, 
and propel the growth of green jobs. The Recovery Act also contains 
funding for training, a significant portion of which will be used for 
training in sectors and industries identified as high growth, including 
green jobs. This training will improve workers' employment 
opportunities in occupations that pay good wages.
    Across the Federal Government, billions of dollars have already 
been distributed to the States for investments in infrastructure and 
research and development that will create opportunities for green job 
growth. For its part, the Department of Labor's Employment and Training 
Administration (ETA) has already made available $3.47 billion in 
Recovery Act funds to support workforce investment activities. Such 
activities include retraining dislocated workers, summer employment for 
youth, and community service employment for low-income seniors.
    The Department of Labor is developing plans for use of the $500 
million provided in the Recovery Act for research, labor exchange and 
job training projects that prepare workers for careers in energy 
efficiency and renewable energy industries, and will soon issue 
solicitations for grant applications to be administered by ETA. These 
grants will provide an infusion of workforce training funding that will 
help ensure there is a qualified American workforce ready to meet the 
needs of our country's expanding green industries. Department of Labor 
personnel are developing guidance for solicitations, which will include 
requirements for community engagement, the formation of strong local 
and regional partnerships, as well as the identified leveraging of 
additional funds. The Departmental review criteria will ensure that the 
grants are awarded to those applicants who are most responsive to these 
requirements for collaboration, with the objective of effectively 
targeting the communities most in need through our ``green training'' 
investments.
    The unemployment data show that particular segments of the 
population--young people, people with disabilities, African-Americans, 
and Hispanics--are facing unemployment rates in the double digits. 
Green jobs provide an opportunity to rebuild our communities in a more 
equitable manner which is inclusive of all Americans regardless of 
socio-economic background. In order to realize this opportunity, the 
Department will include features to prioritize access and inclusion in 
these training programs for low-income workers, unemployed youth and 
adults, high school dropouts, or other underserved sectors of the 
workforce within areas of high poverty. These represent some of the 
communities hardest hit by this recession, and they too will have an 
opportunity to benefit from green jobs in our economic recovery. We 
hope to have the first round of solicitations available in June 2009.
    We can also promote green jobs across all workforce investment 
programs. The Department of Labor has already begun some of these 
efforts. The Department recently issued guidance to States to help 
implement the formula-funded job training provisions of the Recovery 
Act, noting that the energy efficiency and renewable energy industries 
offer workers new opportunities that may require additional training 
and certification. Through the Recovery Act, a number of other Federal 
programs will receive large investments in programs and projects that 
could create green jobs. These initiatives include investments in 
renewable energy infrastructure, energy-efficiency home retrofitting, 
biofuel development, and advanced drive train/vehicle development and 
manufacturing. As States receive Recovery Act funding and implement 
training and reemployment strategies, the Department encourages States 
to recognize opportunities to prepare workers for green jobs related to 
these other sources of Federal funding.
    The Department has also encouraged States to expand existing 
training programs, such as registered apprenticeship programs that have 
the potential to prepare workers for careers in the renewable energy 
sectors and for other green jobs. The Department's guidance has 
encouraged States to identify regional and local environmental 
resources, businesses, and pre-apprenticeship programs promoting green 
jobs and projects to provide youth summer work experiences that prepare 
them to compete in a ``green'' economy. With green jobs workforce 
training, we will ensure that America's workers have the needed 
experience and expertise to succeed in the green economy.
    We are working throughout the Department of Labor to leverage 
resources responsibly within existing government programs to promote 
green jobs. Some examples of action include:

    <bullet> The Office of Apprenticeship within the Employment and 
Training Administration announced funding on February 17, 2009, to 
support 10-20 grants to fund the development and/or adaptation of 
national guideline standards for apprenticeships. I am pleased that 
this SGA also highlighted green jobs as an eligible activity.
    <bullet> The Veterans' Employment and Training Service (VETS), 
whose mission it is to provide veterans and transitioning service 
members with the resources and services needed to maximize their 
employment opportunities, will soon release an SGA, which will 
highlight green jobs for the purposes of training and employment.
    <bullet> BLS is currently developing approaches to measure green 
jobs, including surveying workplaces in industries where green activity 
is expected to occur to identify both the extent to which they are 
performing green activities and the occupations of the employees who 
are doing such work. Occupational research specialists within ETA have 
also begun to define green jobs, review current green investments, and 
understand how new green technology materials will affect occupational 
requirements.
    <bullet> Future construction and repair of Job Corps facilities 
will incorporate green technologies. Job Corps will also develop and 
implement green jobs training into the curricula at all Centers, 
beginning with automotive maintenance, construction, and manufacturing.

    Furthermore, I am very interested in ``greening'' the Department of 
Labor's workforce system to ensure that the system and its partners are 
fully connected and fully committed to sustaining the green economy in 
both current jobs and emerging occupations. Some of our initial ideas 
include promoting green jobs through technical assistance, greening the 
State and local workforce investment system, registered apprenticeship, 
YouthBuild, Job Corps, opportunities for veterans and people with 
disabilities, and more. Community organizations, both secular and 
faith-based, can be important partners in our efforts, as well as 
labor-management partnerships, employers, community colleges, and post-
secondary education institutions. Activities coordinated with these 
partners could include approaches such as on-the-job and classroom 
skill training, alternative delivery methods (such as evening and 
weekend programs as well as computer-based training), and customized 
industry training which leads to recognized vocational and industry 
certificates or credentials.
    Our green jobs workforce training efforts will be even more 
effective in aiding our global economic recovery if we work together 
with our partners within the U.S. Government and around the world. Two 
weeks ago, I participated in the meeting of the G8 Labor Ministers, 
which focused on the human perspective of the economic crisis. In each 
plenary session I attended and in each of my bilateral meetings, my 
fellow labor ministers raised the topic of green jobs. Some of them are 
further ahead in terms of their economic transitions, others are not. 
Two things became clear from these conversations. First, we must work 
globally to address this economic crisis. Second, green jobs are an 
important component of our global economic recovery and the world is 
looking to the United States for leadership. The message I delivered 
was well received--as a newly confirmed Secretary of Labor I was there 
to listen, learn, and help lead to bring about the change we need. This 
includes working locally and globally to advance a green economy.
    My colleagues in the Cabinet and I recognize that our investments 
cannot be made in a vacuum. The Department of Labor and other Federal 
agencies have already begun to coordinate our work to strategically 
implement programs that ensure cooperative interactions between 
investments in infrastructure and research and development on one side 
and job training and worker placement on the other. My staff, along 
with others throughout the Federal Government, is meeting regularly to 
discuss green jobs issues and identify ways in which we can partner to 
leverage resources and avoid duplication. I am pleased to provide you 
with a few examples of such discussions and partnerships:

    <bullet> In February, Vice President Biden's Middle Class Task 
Force, of which I am a proud member, traveled to Philadelphia to focus 
on green jobs as a central part of our economic recovery. This event 
and the work of the task force have helped facilitate ongoing 
discussions between DOL and other Federal agencies, which are detailed 
below.
    <bullet> In March, I traveled to the Community College of Allegheny 
County in Pennsylvania with Secretary of Energy Chu for the 
announcement of a major new investment to create green jobs. Secretary 
Chu's staff and mine are speaking regularly to leverage investments in 
weatherization and ensure that workers hired for new jobs in 
weatherization receive proper training--it is imperative that these 
jobs be good jobs.
    <bullet> My staff is meeting regularly with staff of Secretary of 
Housing and Urban Development Donovan with the goal of creating a 
memorandum of understanding that will allow our Departments to 
encourage and more easily facilitate partnerships between public 
housing administrators and Workforce Investment Boards. It is our hope 
that such a partnership could not only encourage the greening of public 
housing but also promote the training and hiring of unemployed 
residents of such housing.
    <bullet> During a visit to job training sites for youth and 
veterans in Sacramento and San Francisco, I visited the San Francisco 
regional office, which is located in the greenest Federal building in 
the Nation. I know it will be important for us to lead by example and 
have begun initial communication with GSA to help green our Federal 
buildings.

    I am interested in working closely with Secretary of Veterans 
Affairs Shinseki to facilitate the entrance of veterans into green jobs 
as part of their transition into the civilian workforce. Secretary 
Shinseki and his staff can be helpful in identifying the Department of 
Labor as an important resource for employment services for veterans and 
transitioning service members. Secretary Shinseki can also focus the 
VA's Vocational Rehabilitation and Employment Service on training 
opportunities for disabled veterans pursuing a program of 
rehabilitation. In addition, I will work closely with Secretary of 
Education Duncan to discuss the role that adult education system and 
community colleges can play in vocational rehabilitation and the 
training of our workforce.
    I am eager to begin partnering outside of the Federal Government to 
ensure that communities suffering in the recession benefit from green 
jobs training. Just last week, the Institute for Women's Policy 
Research and Wider Opportunities for Women met with the staff of the 
Women's Bureau to discuss opportunities for women in green jobs. I am 
pleased to be holding a round table on the issue of women in green jobs 
on Earth Day and am excited to work closely with those in both the 
public and private sector to ensure that our efforts complement the 
productive work that I know many in both sectors are advancing.
    There could be future linkages between green jobs and the recovery 
of communities hit hard by layoffs. Workers can be retrained and re-
equipped to contribute to the growing of the green economy. One example 
is in the U.S. automotive industry. The Department of Labor is playing 
a vital role in supporting the economic recovery of communities that 
depend on car manufacturers and related industries. Many of these 
communities are passionate about green jobs being a part of their 
future economic success, and the Department of Labor will work with 
these communities to ensure they not only survive but thrive in our 
country's recovery.
    I am also eager for staff to meet with key apprenticeship 
stakeholders and other business leaders to discuss the impact of an 
emerging green economy on registered apprenticeship. I appreciate that 
employers and manufacturers in these sectors have much to offer as do 
members of this committee in this regard.
    At our recent Middle Class Task Force meeting in Philadelphia, Vice 
President Biden stated that ``we'll measure our success, whether it's 4 
years or 8 years, by one thing: If we can raise the standard of living 
for middle-class people.'' We cannot ignore the disconnect that 
persisted between economic growth and middle-class incomes even when 
the economy was strong. I am committed to ensuring that both diversity 
and inclusion are reflected in the Federal funding of green jobs 
workforce training.
    While we deal in facts, figures, and charts, we must remember that 
behind the ``numbers'' of the economic downturn and the economic 
recovery are human faces, people, facing challenges unlike what many 
have faced in our lifetime. I believe that green jobs, if implemented 
correctly, can be an opportunity for the Nation to regain economic 
security. I thank you for your time and look forward to our dialogue on 
this matter.

    Senator Murray. Thank you very much, Secretary Solis. We 
appreciate all of your comments.
    The concept of green jobs is really popular, we hear it all 
of the time, but many of our workforce practitioners find it 
really confusing, and they're not exactly sure what a green job 
really is.
    While they understand how to help individuals get the 
training they need, they may not understand the science or the 
signs, or the politics or the policy behind the green movement. 
I wanted to ask you what kind of technical assistance is the 
Department of Labor going to provide to the staff of our 
workforce boards and our one-stop centers and training 
providers, to help them better serve workers in this green 
economy with their WIA formula funding?
    Secretary Solis. Madam Chair, that's a great question. What 
we have already begun to do, as I said in my testimony, is that 
while we were providing Recovery Act money, formula funding to 
the different States, we had already provided outlines and 
guidance to the different States that are recipients of these 
funds, to look at how they can integrate green jobs, and that 
is, partnering with different organizations that maybe, 
perhaps, were not included in the past. That is, something that 
we're going to have to work on, making sure that, for example, 
we have business at the table, that we have apprenticeship 
programs at the table, that we have different industries--small 
businesses that might be interested in beginning a whole new 
capital outlay program to begin to manufacture solar panels, or 
to work and partner with vocational education schools.
    I just want to give you, if I could, a brief example of 
what I have already seen happening, that is taking place across 
the country. In one school district, L.A. Unified, they have an 
adult program--most of their money comes through the Federal 
Government and the State government, but they have partnered 
with the IBEW, an apprenticeship program, but also partnered 
with an outside business organization.
    There's a need for people to be trained, to provide for the 
installation, but also the manufacturing of solar panels. These 
two partners came together, they were able to leverage school 
district money, private funding and also the assistance and 
technical help from the IBEW, who has a curriculum in place 
already. The instructor was paid, through, however, the small 
business.
    In fact, this compilation of coming together in that manner 
and being able to train and help motivate people who--maybe for 
the first time--may be exposed to a new career opportunity, I 
think, is really, really important to underscore.
    It isn't just people that are safe, for example, in the 
electrical industry, or plumbers, or construction folks, but it 
can also be individuals who will have--for the first time--be 
exposed to a different career path that may provide them more 
sustainability in years out.
    That's the beauty of being able to work within the system 
of WIA, to make sure that we not only support the workers--the 
workers are very important to make sure their skills training 
is available--but that businesses also have an opportunity to 
expand.
    One of the points I'd like to make is that in the WIA 
program itself--and as we talk about reauthorizing the 
legislation, I think it's very important to make sure that we 
include in the WIA the one-stop efforts--all opportunities that 
we can through Department of Commerce, or the Small Business 
Administration to help couple those dollars that are going to 
need to be drawn down and leveraged, so these small businesses 
and medium-sized businesses can have the capital, thus being 
able to then hire individuals and begin the production of 
whatever it might be--wind power, solar power, biofuels, or 
what have you.
    That's kind of my thought process and how we're going to go 
about determining how we begin this process.
    Senator Murray. All right, and that's WIA. What about the 
grant recipients of the competitive grant program under the 
Economic Recovery Act?
    Secretary Solis. I am making it very clear to our regional 
offices across the country that we will be in a position to 
provide technical assistance to different organizations that 
want to come into contact with our office.
    I think we're taking a very proactive approach, and also 
touching base with those existing programs that are already 
partners of the WIA program, but in fact having to actually go 
even farther.
    Because as I said earlier, there are a lot of other 
stakeholders that haven't been at the table, and we want to do 
a good due diligence to make sure that we attract as many of 
those groups--whether they're veterans, whether they're 
disabled, whether they are individuals who have been dislocated 
for 2 years or more, we want to make sure that our outreach is 
as inclusive and as comprehensive as possible. There will be 
times and opportunities to have conferences, partnering with 
other private sector groups to make sure that the WIA and the 
one-stops are all giving the same information out--and in 
different languages.
    Senator Murray. OK, now are you reaching out specifically 
to businesses, to help them understand the green jobs and help 
them with the skilled workforce there?
    Secretary Solis. We do have funding available to provide 
technical assistance, so I plan on making that a big part of 
our agenda.
    Senator Murray. OK, thank you.
    Senator Casey.
    Senator Casey. Thank you, Senator Murray.
    Madam Secretary, I want to thank you, again, for your 
leadership on these issues.
    One of the things that Senator Murray started with was the 
definitions. No. 1, I think there's a lot of language that 
we're using in the discourse in Washington, and across the 
country.
    I was provided with one basic definition of green jobs, and 
I want to make sure that we're on the same page. Here's what 
this definition says: Green jobs provide, ``products and 
services that promote renewable energy sources,'' that's one, 
``reduce pollution, conserve energy and natural resources in 
any industry.'' Is that kind of a generally good definition of 
what we're talking about?
    Secretary Solis. Senator, yes it is. It's very broad, and 
it was done deliberately, because we are, in fact, going to be 
researching the different components that can be a part of 
this, so you could conceivably have a job retrofitting a house, 
a construction worker, but because now they're using not just 
equipment, but they're placing products that are going to save 
energy costs, in the electricity bill, or any kind of power 
that is used in that household, those jobs will require a 
different set of training skills, and obviously would be as 
part of the check-off list in terms of the box that says, 
``Yes, this is an applicable field that could be considered 
green.''
    Senator Casey. I was glad that, in your testimony, you 
cited, as we've seen before, but it bears repeating, that the 
hourly rate differential is that green jobs pay 10 to 20 
percent higher--very important. I think, unless people have a 
sense of the economic benefit of this, it might not sound as 
compelling. I'm glad you have pointed that out.
    One thing I wanted to do from a very broad perspective, is 
the Recovery Bill, and the enormous benefits across the board, 
especially with regard to this topic, green jobs.
    As you look at the next year or two of the Administration, 
obviously the Recovery Bill is a major part of the strategy of 
not just getting the economy to recover, but also to put in 
place strategies for the longer term--when you review, or when 
you highlight the Recovery Bill, the budget and any other 
strategy--how do you see that playing out as a strategy? In 
other words, what are the basic building blocks for a green 
jobs strategy in terms of what the Administration hopes to do?
    Secretary Solis. Well, Senator, I can talk about my Agency, 
and what our intention will be, and Senator Murray knows this 
very well, that we haven't reauthorized the WIA program----
    Senator Casey. Right.
    Secretary Solis [continuing]. In several years. That will 
be one of our most important structural changes that can be 
made to help sustain this growth in the job economy and green 
jobs.
    I definitely see our working with this committee in helping 
to make those structural changes so that they're permanent, and 
that people from the get-go know that these are the things that 
we're going to be looking at, in terms of providing assistance 
from the Federal Government.
    We don't want jobs that don't go anywhere. We want jobs to 
have a career path. I think that's very important. At any one 
point in time, someone could come in from, maybe just a GED 
background, but you never know, may eventually go up to a 
community college and, who knows, may become their own small 
business owner, and may require additional assistance.
    We want to have a seamless system that allows people to 
come in and out, as necessary. Not everyone is going to want to 
spend, maybe, 4 years in a program. Some may not have that 
luxury, and I think we need to be responsive and flexible to 
that.
    I intend on working as best I can, with our formula 
funding, and the WIA money, as well, to help provide the 
structural incentives and guidance to the States, so that they 
know that next time around, after this money is gone from the 
recovery package, that we're still going to continue on with 
this agenda.
    Senator Casey. Well, we look forward to working with you on 
the changes that we need to make to the Workforce Investment 
Act and it's going to have a tremendous impact on our State.
    I may leave this for the second round, but I wanted to ask 
you about weatherization, and the strategy that the Recovery 
Act, as well as other programs, are putting in place for that, 
but maybe I'll--I've got about 10 seconds left, we'll wait 
until the next round. If we can highlight that a little later, 
that would be helpful for the perspective in our State of 
Pennsylvania.
    Thank you.
    Secretary Solis. Thank you.
    Senator Murray. Thank you. We'll make sure we have a chance 
to get back to you on that, Senator Casey.
    Senator Hagan.
    Senator Hagan. Thank you, Madam Chairman.
    This question might address some of those issues, too, but 
Secretary Solis, I want to talk about how we can make sure that 
community colleges are playing a key role in preparing workers 
for these new green jobs. In my State, North Carolina, we have 
58 community colleges across the State and they're all 
integrated in their communities. These institutions have been 
so beneficial for so many people, who are getting retrained for 
different jobs within the workforce. I think you'd agree that 
we want to continue to bolster these existing institutions.
    My concern is that new technologies and new jobs are being 
created at such a fast pace that we might end up facing a 
shortage of instructors who are qualified to teach these 
skills. I'd like to ensure that all of our community colleges 
are equipped to teach the new skills in electricity and 
manufacturing, heating and cooling, automotive, agriculture, 
construction, and the other green industry jobs that will be 
tied to this area. My questions are, how can we best ensure 
that we're offering the training for such a diverse group of 
industries and that training for these programs is available in 
as many areas as possible, and that the skills taught are the 
most applicable, and then the most up-to-date skills.
    The other part of that is, what other obstacles do you 
think community colleges might face, and how can we overcome 
those obstacles?
    Secretary Solis. Thank you, Senator Hagan. Very good 
question.
    Community colleges play a very, very significant role in 
the WIA program now, and they will continue to have, I believe, 
a major role as we roll out the green jobs programs and the 
funding for that. We've had several conversations already with 
many providers, some of whom are from the community colleges, 
and many, I think, are in a better position than most of the 
other educational institutions to be able to rapidly respond to 
changes in curriculum that might be needed.
    There also is, I think, an effort to try to get individuals 
from business organizations who can actually come on campus and 
provide the instruction that's needed--that will also cause 
some reforms that community colleges will have to make, because 
typically some classes aren't always offered late evening, or 
Saturdays and Sundays. Keep in mind, there are different 
dynamics that are going on and we have to have our educational 
systems that want to be a part of this to be as flexible as 
possible.
    That might be something down the road that has to be looked 
at. I truly believe that there will be opportunities for 
community colleges along with other partners in the community 
to be able to really reach out and bring, not just exclusively 
to dislocated workers, but people who have traditionally not 
even thought about, maybe, upgrading their skills.
    I'm thinking, also, about our returning young vets that, 
for the most part, could really benefit from a community 
college experience. It might require them to get into, say, a 
green job program that might be short term, but in the end, 
they may be exposed to some other subject matter there, and 
they end up taking on more course work.
    I could see so many advantages occurring for the community 
colleges. I know they're overwhelmed right now, there have been 
a lot of layoffs throughout our different States, in the State 
of California, we're faced with the same problem, but I think 
it's going to require the community colleges to really figure 
out that maybe they have to also prioritize where it is they 
want to be most effective.
    I know their goal, overall, as a former trustee for a 
college, you try to meet all of the community needs. Well, in 
this day and age when we have limited dollars, they're going to 
have to work very closely in partnership with other 
stakeholders to really focus and maybe share what group can do 
a better job in training, what group might do a better job in 
casework, case management, so to speak.
    There may even be a need to collaborate with local 
HeadStart programs, to allow for women, for example, to take 
the courses, and have a place to send their children during the 
time that they're being instructed, or are getting their 
education.
    It's going to create a synergy, a collaboration, and we are 
trying our best, through the Department of Labor to make sure 
that we get that information out, that those are the kinds of 
things that we want to look for that I, certainly, would want 
to rate very high. When it comes to regional programs, we know 
that your State and others in Oregon are faced with just 
tremendous hardships right now.
    We're also thinking about, maybe, changing the way we deal 
with, for example, trade adjustment assistance moneys, and 
that's a discussion we can have later on, but how we can expand 
that to provide assistance for people who have been dislocated, 
and it's now affecting an entire region.
    Senator Hagan. Thank you, I think the key is to be sure we 
have the qualified people doing the training and the 
instructing of these new jobs, and be sure that there are funds 
available to hire these instructors and to train them, too.
    Thank you, Madam Chairman.
    Secretary Solis. Thank you.
    Senator Murray. Thank you.
    Senator Merkley.
    Senator Merkley. Thank you, Madam Chair, and thank you, 
Secretary, for your testimony.
    The framework for these jobs, as you noted, is to produce 
clean energy, to change the energy formula in terms of our 
dependence on foreign oil. Do you have any sense of what kind 
of impact we make on our energy dependence over the next 10 
years, if we continue this level of effort?
    Secretary Solis. I don't have any accurate data to share 
with you, I mean, that's--what I will tell you is that, in 
terms of the Department of Labor, what we see happening in our 
priorities is to put people to work. I do believe there will be 
an opportunity to do that.
    In doing that, in these particular occupations, there will 
be an end result. Hopefully our end result will be that we will 
lower our carbon footprint, that we will create opportunities 
to have electric vehicles or different types of fuels that will 
provide the necessary input so that we can have more efficient 
automobiles or transportation modes, that I think all of us in 
the long run will benefit from. That's anecdotal, but that's 
the direction, I think, that we are going to be moving in.
    We're really also looking at having our communities take 
more ownership in their households. If we retrofit homes--
whether it's public housing, or whether it's just average Joe 
or Mary, I believe in the long run they will also reduce their 
carbon dependence, and we'll bring down the cost of 
electricity, we'll be able to show that there are conservation 
methods and techniques that can be taught and learned that will 
help our households, that will help our schools, that will 
help, I think, our entire--possibly even Federal Government--
but that's down the line.
    Senator Merkley. Well, one of the things that I'm very 
interested in over the course of this year and the years to 
come, is an intense discussion over creating a framework. A 
framework into which our effort in green jobs exists, so that 
we have a vision of energy independence, we have a vision of 
the type of reductions in our footprint that you referred, and, 
that we have a goal for our production of renewable energy. I'm 
certainly hopeful we can reach the 25 percent by 2025, but that 
we can incorporate these into a national plan, a national 
framework, so we'll kind of have a path that we can judge our 
success by, and sustain citizen support for our investment in 
green jobs.
    I know it's a broad discussion that involves many 
departments of the Government, and certainly in dialogue with 
the Hill, here, but I certainly look forward to that 
conversation between this committee, the Energy Committee, the 
Environment Committee, and the various departments.
    You have noted the role of community colleges, and the fact 
that many of these jobs are construction jobs that will produce 
higher wages. I also appreciated your reference to the fact 
that the Department will include features, prioritize access 
inclusion for low-income workers, unemployed youth and adults, 
high school dropouts, and underserved sectors of the workforce.
    I know I have gotten some feedback from some of the more 
challenged communities in my State, of saying, is this movement 
going to bypass them. Would you like to expand on some of those 
features, and how you hope to address and connect them?
    Secretary Solis. Yes, thank you, Senator.
    As I mentioned earlier, our attempt now, even in putting 
our solicitation letters out for grants is including language 
where, for example, in the Youth Build Programs, we're asking 
for those individuals who would like to compete for those 
grants to include components of green job training. That is, in 
my opinion, a must.
    Also, with the Job Corp Programs where, as you know, those 
are residential programs and you have typically at-risk 
students that participate in those programs, we're also looking 
to provide guidance so that any reconstruction of those 
facilities--because that's ongoing, all the time--is that there 
is a component available to allow for training of those Job 
Corps recipients, but also curricula, because they're also a 
provision for Job Corps, where they have to get some type of 
instruction--that is something that we also want to make clear, 
that that has to be a part of the initial grant.
    We're doing what we can. I'm very excited that the summer 
youth program, in fact, also has received some guidance that--
we are not mincing words, here, we want to be very clear that 
we want to have partnerships established right now, ready to 
go--and I think some of them are ready. Certainly in parts of 
Los Angeles that I'm familiar with, to see that these young 
people in summer youth employment programs also have an 
opportunity to be exposed, and get some skills in the green 
industry.
    Senator Merkley. Thank you very much.
    Senator Murray. Senator Sanders.
    Senator Sanders. Thank you, Madam Chairman.
    Madam Secretary, thank you for being here, and it sounds 
like you're hitting the ground running, which is what we need. 
I think you and I agree that we are on the cusp of a revolution 
in energy in this country, that we have the potential to create 
millions of good-paying jobs in energy efficiency, making our 
homes, our offices, our factories more energy efficient, and 
also moving forward in sustainable energy.
    Let me just ask you a couple of questions, if I can, with 
the $500 million made available through the Economic Recovery 
package for green jobs training, will you and your staff at the 
Department of Labor use the Green Jobs Act criteria as guidance 
for distribution of those funds, including the requirements 
that grantees include equal participation from industry and 
labor organizations?
    Secretary Solis. Senator Sanders, I think you and I can 
agree that we spent numerous hours, numerous time and months on 
getting legislation for green jobs finally enacted, now we have 
an opportunity to see it implemented, and yes--most of what 
you've asked--we are trying to make sure that all of that is 
included in our implementation through the Department of Labor.
    Senator Sanders. OK, we think that labor organizations who 
have a lot of skill at this--I know the IBEW, many other 
organizations have hands-on--have a history of working with 
young people in teaching them the skills that they will 
require, and we just like to see them involved in the process. 
Does that make sense to you?
    Secretary Solis. Absolutely. I spoke earlier about an 
experience that I shared with the panel, here, regarding the 
East L.A. Skill Center in California, that has partnered with 
IBEW, with the school district, and with the private 
entrepreneur. They, collectively, have come together and agreed 
to train, provide the curricula, the skills, and the jobs----
    Senator Sanders. Good.
    Secretary Solis [continuing]. That are going to----
    Senator Sanders. That's exactly the kind of cooperation I 
think makes sense.
    My other question is, will the recovery funds also provide 
for the pathways out of poverty program, or a similar effort to 
fund community partnerships, as authorized under the Green Jobs 
Act?
    Secretary Solis. I am currently working with my staff, the 
employment training staff, and keep in mind, I don't have all 
of my assistant secretaries in place, so we're having to really 
push hard, our career staff and others, and bring in other 
technicians to help us put together the guidelines, so that we 
are as inclusive as possible.
    From the get-go, we do everything we can to make sure that 
all of our stakeholders have a fair chance at getting involved, 
and that is almost--I want to say--almost a must on my part, 
because I truly believe that that's what our President 
envisioned in green jobs--that everyone could partake and be a 
stakeholder, and yes, have access at any point to enter in for 
these jobs.
    Senator Sanders. It seems to me that the Department of 
Labor has an enormously important role to play in this energy 
transformation. Because what I can see in Vermont, and I 
suspect all over this country, is that right now if you wanted 
to get your house refurbished to make it more energy 
efficient--you know what--you will have a hard time finding 
skilled workers that you need. If you want to install solar 
panels, if you want to have a wind turbine maintained, if you 
want to do geothermal--we don't have the workers there. Are you 
working closely with other agencies to make sure that we are 
training the personnel--you can have all of the great 
technology out there, if we don't have people that know how to 
install it or maintain it, we're not going to make much 
progress--are you working with other agencies on this?
    Secretary Solis. Yes, and Senator, I would be remiss if I 
didn't mention that the Department of Education will also play 
a tremendous role in training our instructors, but also 
providing the support that's going to be necessary to provide 
incentive, so that educational institutions understand that we 
want them to be active participants--whether it's the community 
college system, or even the vocational and adult education 
programs, as well. Because everyone has a stake in this.
    I heard yesterday from a group of the California School 
Board's Association that were very interested in even having, 
what they call, the ROP programs involved in these aspects, as 
well, because they can provide delivery right away.
    We want to make sure, though, that certification and 
standards are high----
    Senator Sanders. Right.
    Secretary Solis [continuing]. That there is a good degree--
and we can account for that--of training that's provided.
    We want to be able to go back and audit and make sure that 
we are on target, and that we also make sure that we are 
looking at long-term occupations that will be available.
    As we speak now, I may not have all of that at my hand, but 
we certainly are having my staff instructor to help us get 
there.
    Senator Sanders. Well, as chair of the Green Jobs Committee 
in EPW, we look forward to working with you. There's just 
unbelievable potential out there for the creation of green 
jobs, for protecting our planet, and you're going to be playing 
a very important role in that. We look forward to working with 
you.
    Thank you very much.
    Secretary Solis. Thank you, congratulations.
    Senator Sanders. Thank you, Madam Chair.
    Senator Murray. Thank you very much.
    We will now have a second round of questions for anybody 
who would like to do that before we turn to our second panel.
    I just have a few questions, Madam Secretary. I wanted to 
ask you about the competitive grants under the Economic 
Recovery Plan, and how the Department is going to measure the 
effectiveness of those grant projects, so that we know that 
they're really working.
    Secretary Solis. Madam Chair, I know that this is of great 
concern to many members of the Senate and the House, because in 
the previous Administration, there may not have been enough 
accountability. What I intend to do is to make sure that we 
have measurement tools available so that we can monitor, but 
also provide, if necessary, any technical assistance and make 
sure that we are on focus with any of these Recovery Program 
moneys that are going out there now.
    So, yes, we will be very open to a more robust auditing, 
and also a monitoring of these various funds, and that----
    Senator Murray. Are you writing measurements now, so that 
everybody knows what they have to achieve with these?
    Secretary Solis. Those guidelines are being worked on as we 
speak, and will be issued, for the most part, for green jobs, 
by June.
    Senator Murray. By June? OK. How is the Department going to 
share information about what does work and what doesn't, once 
you get that information back?
    Secretary Solis. Everything will be posted through the 
Department of Labor on dol.gov.recovery. That information will 
be transparent, in addition--as you know, President Barack 
Obama also has a Web site available to show where all Federal 
stimulus moneys are going.
    Senator Murray. OK, and you are going to be working with 
other Secretaries, I assume. You mentioned HUD, you were 
working with HUD and the Department of Education and other 
agencies, because this does cross a lot of----
    Secretary Solis. Department of Energy, yes, in fact, 
Secretary Chu and I visited Allegheny College not too long ago, 
and we're touring the community college there to look at 
potential opportunities where we could provide incentives for 
funding. I know he will have a big role, here, he has a larger 
pot of money than I do, in terms of providing the kind of 
research funding, startup money, to get these businesses going, 
and get that expertise in the field.
    Senator Murray. OK, thank you very much.
    Senator Casey.
    Senator Casey. Thank you, Senator Murray, and thank you, 
Madam Secretary.
    Two questions, first--getting back to the question of 
weatherization--we have, in Pennsylvania, basically the second-
oldest State by population, a little more than 15.5 percent of 
our population over 65. A lot of those individuals who happen 
to be older citizens are living in very old homes, in many 
cases. Many of them deceived into hiring people who were 
corrupt--because they wanted to hire them to do home repairs, 
for example, they would enter into agreements which would be 
bad for them, and which are based upon false and misleading 
assertions by those people.
    I know the Recovery Bill provides funding for 
weatherization which, as you know, does so much on efficiency, 
it does create jobs. Can you talk to us a little bit about how 
that's being deployed and implemented? I guess it's not only--
it involves a couple of agencies other than yours----
    Secretary Solis. Right.
    Senator Casey [continuing]. HUD, as well. Can you talk to 
us a little bit about how that's going, and the benefits of it?
    Secretary Solis. There's been a lot of discussion and a 
very ambitious plan to provide weatherization for, I believe, a 
million--that's the goal--a million homes. It is, I think, 
primarily based out of the Department of Housing and Urban 
Development.
    Senator Casey. Right.
    Secretary Solis. We are working with the Secretary on that, 
to think about how we can improve the job training aspects, so 
that we really do set up some standards, so that isn't just a 
short-term job, after the funds run out, that somehow these 
people will not have a job after that.
    We do want to create bridges, so we can expose them to 
other types of occupations, as well, that would call upon those 
same skill sets. That's something that I envision doing.
    With respect to individuals that have been abused by 
unscrupulous small businesses, we are looking at, also, through 
the Department of Labor--really looking at, because of our 
Office of Contract Compliance--overseeing who those grants go 
to, what kinds of entities that are attached to that, and also 
trying to make sure that our wage and hour, for example, 
programs have more assistance, so that they can go out and 
actually look at these sites, to see that our labor laws and 
that people are being treated fairly, that they're being paid 
their wages, and that nobody is, hopefully, being taking 
advantage of.
    Senator Casey. Second, with regard to part of your 
testimony, we have a significant problem with returning service 
members, the veterans who were working in a particular job when 
they left to serve their country and they're coming back and 
not getting those jobs. In many cases, because of an action 
that's illegal, and unfortunately, some of the illegal actors 
are governments, at various levels. That's a discussion for 
another day.
    I'm glad that on page 3 of your testimony, you talk about 
the Veterans Employment and Training Service, the so-called 
VETS. VETS mission is to provide veterans and transitioning 
service members resources and services needed to maximize their 
employment opportunities. Can you talk to us a little bit about 
your efforts there?
    Secretary Solis. Part of our jurisdiction requires that we 
also go after employers that we find have refused to take back 
the employment of, say, a returning service man or woman. Keep 
in mind that we have a very scaled-down program, as a result of 
the last 8 years. We're hoping to increase that and become a 
more vigorous proponent for veterans, whether it's helping to 
provide them with training, hooking them up, so to speak, with 
small businesses for opportunities--even those that are 
disabled. That is going to be a big vision that I, personally, 
have interest in because of the area that I come from in Los 
Angeles, we have such a high rate of veterans.
    We're going to see many coming back with disabilities, so 
we're going to also have to reach out to our employer community 
to see how we can make sure that there is a bridge, so that 
there is job placement opportunities, but also within Federal 
Government--we also have an obligation to hire these returning 
veterans--men and women.
    There are good programs that have started, I know, across 
the country--Helmets to Hard Hats, where some of the union 
apprenticeship programs have gone out of their way to really 
integrate and bring our veterans into these programs--young 
veterans--that might be interested in the construction trades, 
or electrician, or carpentry or whatever it might be. Those are 
opportunities that we want to continue to support. And then 
hopefully, have a component--an education component--that will 
help provide them an additional set of skills, then they might 
be able to move up the ladder, because so many of these 
veterans are so young that are coming back.
    Senator Casey. Thank you, Madam Secretary.
    Secretary Solis. Thank you.
    Senator Murray. Senator Hagan.
    Senator Hagan. Thank you, Madam Chairman.
    Secretary Solis, North Carolina has a rich tradition in 
agriculture and forestry, and in fact, agricultural production 
accounts for about 52 percent of our Gross Domestic Product in 
North Carolina. And as, I'm sure, you're aware, this industry 
creates massive amounts of biowaste when cultivating crops and 
livestock.
    Some of the companies in my State have worked with 
landowners, and farmers, to use the biowaste and the biomass to 
create green energy. These companies are now capitalizing on an 
idea that farmers can play a significant role in helping to 
create more renewable energy. And I certainly agree. I've 
toured some of these farms, and it's remarkable what they're 
doing.
    How can we continue to cultivate this tradition, and work 
with farmers, foresters, and other landowners, and will the 
money appropriated by the stimulus package be used to provide 
job training to workers and the agricultural and forestry 
industries?
    Secretary Solis. Thank you for that question.
    Yesterday, I had the opportunity to attend my first Cabinet 
meeting with the President and other members of the cabinet, 
and this very discussion came up, about how we can kind of work 
inter-agency, because there's a need in agriculture, and also 
in the Department of Interior, in forestry, where there is that 
skill component--education and skill training that needs to be 
coordinated better.
    There's talk of possibly even creating a position where we 
can look at how we can better coordinate all of these 
opportunities.
    There is a need to do this, and I know that the other 
Cabinet members are very interested, so I think we will be 
working out, through our discussions, and through, also, the 
Middle Class Task Force, quite frankly, as to how we can kind 
of integrate--not overlap, not duplicate--but to make sure that 
each agency has that opportunity. Because we do need people in 
forestry, we do need people in agriculture and small farmers to 
be a part of this--there has to be loan programs made 
available, some R&D, as well, that can help those farmers 
become a mainstay in the green job economy.
    Senator Hagan. Do you think that the Department of Labor 
budget requests will include green training programs for 
agricultural workers, and is there any idea what those programs 
might look like?
    Secretary Solis. I couldn't tell you, off-hand. I think 
that's a discussion you may want to have with the Cabinet 
Secretary, Department of Ag, and also of the Interior.
    Senator Hagan. OK.
    Secretary Solis. Yes.
    Senator Hagan. Alright.
    I have another question concerning the diverse workforce. 
In North Carolina, we have a rapidly growing and diversifying 
workforce. The Census Bureau estimated that we will increase 
our workforce by more than 50 percent over the next 20 years.
    In your written testimony, you mentioned that unemployment 
rates for minorities are higher than average. Once again, in 
North Carolina in 2008, the employment rate among African-
Americans was about 50 percent higher than Caucasian 
unemployment rate. You also discussed efforts to ensure that 
investments in green jobs will benefit women and minorities. 
Can you provide any further detail on how you think we can 
improve the opportunities for women and minorities in the green 
job sector?
    Secretary Solis. I think, from the get-go, when we put out 
our grant solicitation we have to be very clear, what it is 
we're looking for. Of course, as a component through the green 
jobs, there is a pathway out of poverty. That, I believe, will 
help capture at least a good segment of the population that we 
know has been, traditionally, left out.
    We also want to make sure that there are opportunities, and 
this is where I think the Senate and the Congress can be 
helpful, through your own networks, to make sure that folks 
that you know that would like to get involved in these 
proposals, or in the grants programs, contact our regional 
offices. I think that can also be helpful.
    I think there's so much that we can all do together, and 
then making sure that our one-stops have, at every point, an 
opportunity--information that's available--that they are going 
out into the community, not just waiting for people to come in, 
because typically you will miss a lot of folks, unless you're 
out in the community.
    We're looking at this arrangement in a very proactive 
manner.
    Senator Hagan. Do you have any idea on how much you can--
you think you can actually reduce the unemployment in the 
country with this green energy jobs?
    Secretary Solis. We're hoping that there may be, 
potentially, 3.5 million jobs either created or that are kept. 
As you know, right now, as I said earlier, we have lost, 
already, 5 million--we have 5 million unemployed people.
    We have a ways to go, and I think that it's going to be a 
bit of time to be taken to make sure that we have these 
programs in place for the retraining. We do have a shortage 
of--not enough skilled individuals to go into these jobs where 
I think if we had done more of that homework before, we 
wouldn't be in such a bad position that we are now, where we 
have to work really hard to get people trained, and in a rapid 
manner.
    Senator Hagan. Thank you.
    Senator Murray. Thank you.
    Senator Merkley.
    Senator Merkley. Thank you, Madam Chair.
    In the Pacific Northwest, we have a significant challenge 
with forests burning at increasing rates. This is partly a 
change in the amount of rain, but it's also because we have 
millions of acres of overgrown, second-growth forests that 
create an easy pathway for fires to go from lower level into 
the upper stories of the forest.
    I was very pleased that there was funding for forest health 
in the Recovery Act, it has multiple environmental 
consequences. One is that the forests don't burn, you don't put 
carbon dioxide in vast quantities into the atmosphere. By 
thinning these forests, you create forests that are much better 
for timber stands, in some cases, and certainly forests that 
are better for ecosystems in others.
    Does the issue of thinning forests and addressing forest 
health fit within the green jobs definition, and can we 
anticipate your support for continuing to have these sort of 
jobs included?
    Secretary Solis. I would think so. It's a broad definition, 
if we're looking at reducing additional contaminants in the air 
because of fires, obviously, that would qualify. I know that 
there is a great interest on the part of the Department of the 
Interior, the Secretary, who has indicated that they really do 
want to see more individuals going into the forestry--
protecting our forests--but also providing the training that's 
necessary.
    I believe that our Department and the Department of the 
Interior as well as Agriculture will be working at identifying 
those areas that are our most need. And I would agree with you 
that forest fires also plague States like California.
    Senator Merkley. Yes, I'm certainly aware of that. You have 
experienced many of the same challenges, and while I appreciate 
your support in that area, it's very important to the 
ecosystems and certainly to the economy of my State.
    Another area in our State--we're putting up a lot of wind 
turbines in Oregon. We are delighted to have some very good 
areas for wind energy, but we would also like to see America 
creating and building these turbines, exporting them to the 
world. Part of this puzzle isn't just to create immediate 
short-term jobs and installation, if you will, or forest 
health, but also to rebuild the manufacturing infrastructure. 
Would you like to expand, a little bit, on how our investment 
in green jobs can help restore manufacturing, and help America 
supply products to the world?
    Secretary Solis. Well, I think that's kind of a two-pronged 
area, because we also need to have businesses that are ready to 
make the investments, capital investment, and I know that the 
Obama administration looks very favorably on providing research 
and development funding and tax assistance--tax credit 
assistance--for those industries that are willing to get into 
these kinds of industries.
    I do see that kind of folding itself out in the next year 
or two, quickly, and I do know that there is a strong effort to 
try to secure where there will be job growth, that we have that 
job growth occurring where we can manufacture, produce, 
assemble whatever it is we need for turbines, for wind energy, 
or whatever it might be here in the United States. That's going 
to be a challenge, because much of that steel and other 
equipment has been imported in the past.
    There may be ways of looking at other materials that may be 
more economical, and ecologically more safe. Of course, that's 
not my bailey wick, but I'm certain somebody is looking at that 
now, perhaps Department of Energy and some other folks.
    I'm certain that there will be some good opportunities for 
that.
    Senator Merkley. Thank you very much, Madam Secretary.
    Secretary Solis. Thank you.
    Senator Murray. Madam Secretary, thank you so much for your 
testimony. Senator Enzi has indicated that he will have some 
questions to submit. I will, as well, and we would ask for your 
expediency in responding to those.
    Thank you very much for your testimony and for coming 
before our committee this morning, and you made it through your 
first hearing.
    Secretary Solis. Thank you.
    [Laughter.]
    I look forward to working with you and Senator Enzi on the 
reauthorization of WIA, and how we can strengthen as we move 
forward, the green jobs.
    Senator Murray. All right. Thank you very much.
    We will now turn to our second panel, if they will come 
forward, and we will get your nametags placed in front of you.
    As they are coming forward, I'm going to go ahead and 
introduce them so that we can move forward in an expeditious 
manner. I will be introducing four of our panelists, and 
Senator Enzi will be introducing someone from his home State.
    I will begin with Lee Lambert, he serves as President of 
Shoreline Community College. He is a member of the Education 
Council of the Manufacturing Institute, which is the research, 
education, and workforce arm of the National Association of 
Manufacturers. He is also a member of the Washington Campus 
Compacts Executive Board, and we welcome him here.
    Phil Lou is an apprentice with Artisan Electric, Inc., a 
small, family-owned, union business in Vashon Island in 
Washington State. He's co-founder of Greenworks Technologies, 
Inc., which is a company that specializes in renewable energy 
technologies, such as photovoltaics, solar hot water, energy 
audits, weatherization and rain catchment. Phil completed the 
Zero Energy program at Shoreline Community College, welcome 
here.
    Dean Allen is CEO of McKinstry Company, a full-service 
design, build, operate and maintain form with over 1,600 
employees. He currently serves on the boards of the Seattle 
Biomedical Research Institute, Global Partnerships, the Program 
for Appropriate Technology and Health, and Seattle Children's 
Hospital. He also serves on the Washington Roundtable and the 
Partnership for Learning.
    Mark Ayers currently serves as President of the Building 
and Constructions Trades Department, AFL-CIO. Following his 
services as a Vietnam-era Naval aviator, Mark began his career 
as an apprentice inside electrician with IBEW Local 34 in 
Peoria, WA.
    Mark also serves as Chair of the Center for Construction 
Education and Research, CPWR, co-chair of the Construction 
User's Roundtable Tripartite Initiative, and labor co-chair of 
Helmets to Hardhats, a veterans' employment program.
    Senator Enzi.
    Senator Enzi. Thank you, Madam Chairman.
    Joan Evans is the Director of the Wyoming Department of 
Workforce Services. She was appointed by the Governor in 
December 2006. The Department is the State's newest agency 
dedicated to developing a demand-driven workforce. The 
Department provides employment and training, business and 
vocational rehabilitation services throughout Wyoming.
    She came to the Department from the Carbon County Higher 
Education Center in Rawlings, where she's served for 15 years. 
The Center is community funded, providing adult basic education 
and vocational programs, and is an outreach center for Western 
Wyoming Community College.
    She's spent much of her career working with adult students 
who were seeking training for career advancement and developing 
training programs to meet Wyoming's economy. She served on the 
Wyoming Workforce Development Council. She has a Bachelor's 
Degree in Finance, and a Master's Degree in Adult Education, 
and I'm very pleased that Director Evans was able to join us 
today, and I look forward to her testimony.
    Thank you.
    Senator Murray. Again, thank you to all of our panelists. 
You've all submitted written statements. We would ask you to 
give a five-minute opening statement, and then we will turn to 
rounds of questions from our colleagues.
    Lee Lambert, we are going to begin with you.

  STATEMENT OF LEE D. LAMBERT, PRESIDENT, SHORELINE COMMUNITY 
                     COLLEGE, SHORELINE, WA

    Mr. Lambert. Madam Chairman, members of the committee, I am 
Lee Lambert, for the record, I am President of Shoreline 
Community College, we are located 10 miles north of downtown 
Seattle, WA. I am pleased to be here today to speak on behalf 
of the Washington State Board for Community and Technical 
Colleges, and the 34 colleges that comprise our system.
    It's a new technology, but it's the same, old mission and 
community and technical colleges across this country, to 1,200-
plus, we are delivering on green job training.
    In the State of Washington, through our Centers of 
Excellence, and through our individual campus locations and 
programs, we are also delivering on green job training.
    At Shoreline Community College, we have put an emphasis in 
one of the areas around renewable energies, automotive program. 
We are currently training students and incumbent workers to 
work on the latest advanced vehicle technologies, whether it be 
hybrid, soon-to-be plug-ins, and all electric cars.
    Also, in our solar panel design and installation program, 
we're training students to understand how to conduct energy 
audits, how to assess consumer consumption levels in the home, 
as well as designing solar electric systems, and then--and this 
is very important--working with licensed electricians to 
complete the installation process of those solar panels.
    How are we doing this? We're doing this through our 
partnerships, and we're very good at partnerships--we partner 
with the manufacturers, with business and industry, with labor, 
with our local workforce development councils and Boards, with 
our K-12 systems, with local governments, with Federal and 
State governments, with other colleges and universities. In 
other words, we know partnerships, we know how to cultivate 
them, we know how to grow them, and we know how to maximize 
them in order to train workers for the green economy.
    Access--as you all are aware, community and technical 
colleges are about open access. It's not enough to bring people 
into our training programs, we need to be successful in 
training those students through those training programs. In the 
State of Washington, we have developed an innovative approach 
to access, and it's called Integrated Basic Education Skills 
Training, in short, I-BEST.
    I-BEST brings together content instructor, along with the 
basic skills instructor, working together to ensure that our 
students--from all of our backgrounds, whether they're 
disadvantaged, low-income, minority populations, women--will be 
successful. When they see that ladder, they can climb that 
ladder along the pathway to success in a high wage, high-demand 
field.
    Also, faculty--we cannot deliver these programs without a 
well-trained, qualified faculty. Our ability to recruit, 
retain, and develop them is essential to us moving forward.
    Let me use an example that really brings all of this 
together, in terms of partnerships, access, and faculty. A few 
years ago, Shoreline Community College received a community-
based job training grant through the Department of Labor. We 
focused it with a partnership--in partnership with Toyota, we 
pursued this grant to create an entry-level, general service 
technician program.
    In creating that program, we also worked with our 
community-based partners, with our Workforce Development 
Councils, etc, to identify low-income, disadvantaged students 
to participate in the program. Because the program was focused 
on reaching out to those who have historically been left out of 
the educational process.
    Through that, and bringing together our content faculty 
with a basic skills faculty member, we demonstrated success in 
a very short period of time, that we can move students from 
where they are, to where they want to be in their future.
    In short, community and technical colleges are getting the 
job in green job training. We're developing the programs, we're 
continuing to develop the programs and just like Shoreline 
Community College, many of the other colleges are doing this, 
and your investment now, and your investment in the future will 
continue to yield positive results.
    Thank you very much.
    [The prepared statement of Mr. Lambert follows:]

                   Prepared Statement of Lee Lambert

    Mr. Chairman, members of the committee, my name is Lee Lambert, 
President of Shoreline Community College, located a few miles north of 
downtown Seattle, WA, and thank you for the opportunity to address this 
topic that is of such importance in these challenging economic times.
    Community colleges are the closest thing this country has to a 
National network of ubiquitous, low cost and high quality training 
providers. At the national level, the American Association of Community 
Colleges (AACC) represents the Nation's more than 1,200 community 
colleges. We support the AACC positions in the following areas that 
will allow us to revamp, renew and implement the kinds of programs 
we're here to talk about today: Training Capacity, Trainer Eligibility, 
Workforce Boards, Infrastructure, Adult Basic Education, 
Entrepreneurship, and Labor Exchange Information.
    As it is across the country, Washington State's comprehensive 
community and technical colleges are charged with being all things to 
all people. It is a difficult task, but one that community and 
technical colleges embrace because we know the role has impacts on such 
a broad scale, from the lives of our students to the health of the 
Nation's economy.
    The one quality that allows community and technical colleges to 
meet that spectrum of need is flexibility. At Shoreline Community 
College, we both respond to and anticipate the needs of the community. 
Just as Shoreline has done for the past 45 years, we are addressing the 
needs of the emerging green economy by focusing on four areas: 
programs, partnerships, performance and points of consideration.
    While today I'll highlight two green-jobs programs at Shoreline, 
one new and one existing, please note that many of our other existing 
programs are moving toward becoming green-related by virtue of new 
technologies and our changing personal behaviors.

                         ZERO ENERGY TECHNOLOGY

    Shoreline was one of the first schools in the country to launch a 
``photovoltaic system design'' program. That means students learn how 
to assess a building's power needs, design an appropriate solar-panel 
system and the installation to not only meet the owner's needs, but 
also actually feed power back to the electric utility grid. That may 
sound way ahead of the curve, but remember our program started just a 
year ago and this curve is headed nowhere but up.
    Solar in damp, cloudy Seattle? Well, if it works there it will work 
anywhere and one need only look at the numbers to see this is more than 
wishful thinking. Currently, Germany leads in photovoltaics with more 
than 50 percent of all the system installations in the world. When the 
sun shines in Bavaria, 20 percent of that region's electricity needs 
are met by photovoltaics. Surprisingly Washington State has more sunny 
weather than Germany.
    Shoreline Community College is now home to a demonstration project 
called the Zero Energy House designed and built by students enrolled at 
Washington State University, one of our major partners. Earlier this 
month, on April 1, it snowed on campus, but the solar panels on the 
Zero Energy House kept the heat pump going and still had the power 
meter running backward, feeding the grid. Before I address our 
programs, Senator Murray, you will be proud to know that the Shore-
North Cooperative Preschool just received a 2-year endorsement as an 
eco-healthy child-care program for their efforts in reducing the 
Preschool's carbon footprint.
    Shoreline's solar design class is the first piece of our growing 
Zero Energy Technology Program. The name refers to a ``net-zero'' 
energy use goal and the program also includes classes in:

    <bullet> Energy auditing, which helps determine a building's 
overall energy use and identify cost-saving efficiencies;
    <bullet> Building design, to educate and train energy efficient 
design concepts;
    <bullet> Blueprint reading;
    <bullet> Solar space and water heating system design; and
    <bullet> Renewable energy.

    All the classes Shoreline offers are in direct response to 
expressed needs of business and the labor market. Indeed the program is 
vibrant and growing because of the strength of its partnerships, which 
include:

    <bullet> Education--Washington State University;
    <bullet> Labor--International Brotherhood of Electrical Workers;
    <bullet> Local businesses--Silicon Energy, Outback Energy;
    <bullet> International business--REC Silicon;
    <bullet> Local government--Cities of Seattle and Shoreline;
    <bullet> State government--Incentive legislation;
    <bullet> Federal Government--Dept. of Labor grants;
    <bullet> Utilities--Seattle City Light; and
    <bullet> Advocacy groups--NW Solar Center, Shoreline Solar Project.

    The result is nearly 300 students with State-certified green job 
skills have been trained since the inception of the program. Some 
students who enrolled in the Zero Energy Technology program were 
currently employed and wanted to upgrade their skills, some students 
found employment with various Washington State businesses after their 
training and some became entrepreneurs starting their own new 
businesses.
    Shoreline continually evaluates the quality and responsiveness of 
its professional and technical training programs to meet the needs of 
employers and businesses. When the Photovoltaic System Design class 
launched, there were approximately 200 applications for solar-panel 
system installations statewide, just 2 years later, there are more than 
1,000. Of course not all of that is due to our program, but it does 
help outline the need. In January, the Zero Energy Technology program 
was honored with a national Bellwether Award as one of the top 10 
workforce development programs in the country.
    I spoke of the ancillary impacts: the spinoffs, of green 
technologies and green-jobs training and here are just two:

    <bullet> Shoreline offers a highly acclaimed respected 
manufacturing and computer-
controlled machining program. As the photovoltaic-system design 
students work through installation problems, they are generating 
design-change ideas for the solar-panel mounting brackets. These 
aluminum parts are exactly the kind of item our students are learning 
to design and manufacture in the computer-controlled machining program. 
As the market grows, these industrial cross-pollinations will also 
grow, integrating new and existing technologies, creating new jobs for 
our economy.
    <bullet> A number of Washington State's community and technical 
college programs, including Shoreline's, train students in energy 
auditing, or how to assess a building's energy efficiency. The auditing 
skills learned in these programs open the door to an array of energy 
conservation/efficiency employment opportunities, including 
weatherization, insulation, heating, ventilation and air conditioning 
technology and others.

                         AUTOMOTIVE TECHNOLOGY

    Just a decade ago, one might not have immediately thought of an 
automotive technologies program as a green-job opportunity. Today, it 
is one of the most rapidly changing manufacturing technology areas and 
Shoreline Community College is responding to meet the needs of 
manufacturers and society.
    Shoreline's automotive program stands out as an excellent model of 
what partnerships and collaboration can achieve in these difficult 
economic times. Our program is built around the needs of the 
manufacturers, suppliers, Puget Sound Auto Dealers Association and 
students. Shoreline provides certified and sponsored training from: 
General Motors, Chrysler, Honda, and Toyota.
    All of those manufacturers are moving rapidly into hybrid, plug-in 
hybrids, and all-electric technologies. The program partnerships are 
key to assuring that cutting-edge quality is maintained. Students are 
guaranteed jobs when they begin the program because they are sponsored 
by individual new car dealers representing the four vehicle 
manufacturers. Students receive training in the very latest in 
automotive technology advancements.
    Toyota recently recognized Shoreline as one of their top training 
programs in the country, honoring it with the T-Ten Award for the third 
year in a row. Looking at just the training programs involving direct 
hybrid technology training, nearly 400 students have entered the 
workforce since we began this level of training a few years ago with 
new green-jobs skills. The dealer/manufacturer relationship completes 
the circle as each manufacturer certifies the students.
    The program is expanding in large part due to those partnerships. 
Groundbreaking is imminent on a 26,000-square-foot addition to the automotive 
facility at Shoreline Community College. The capital costs of about $4 
million will be shared by the State of Washington, the Puget Sound Auto 
Dealers Association, local new car dealers and manufacturers, most 
notably $1 million is being provided by Toyota.
    In addition, the college has a General Service Technician program, 
initially developed through funding received by the U.S. Department of 
Labor. The program is an entry-level automotive technician curriculum 
and allows outreach to underserved communities such as students with 
limited English proficiency, out-of-school youth and dislocated 
workers. English as a Second Language and Adult Basic Education 
instructors work side-by-side with the automotive instructors to ensure 
student success. Students who complete this industry-certified 
curriculum earn a Certificate of Proficiency and move easily into 
entry-level positions as general service technicians, making good 
salaries now while putting them on a career and education pathway for 
further advancement.
    In November 2008, the Automotive Training and Career Opportunities 
Partnership (ATCOP) at Shoreline Community College received the 
Governor's Award for Best Practices in workforce development. The 
College's General Service Technician (GST) training program received 
this honor awarded by the Workforce Training and Education Coordinating 
Board (WTECB). WTECB recognizes local and regional agencies, 
organizations, and community and technical colleges for their 
leadership and excellence in developing programs and achieving results 
to advance best practices in workforce development. There were 21 
projects nominated for this award, six of which were selected to 
receive the Governor's Award.
    In making the award, the WTECB said it was looking for programs 
that are innovative, replicable, and transferable--the key elements of 
a best practice.
    In addition to educating and training for new employees, the 
Shoreline automotive program provides skills updating and training for 
thousands of incumbent workers. These short-term training programs 
bring existing workers to state-of-the-art facilities to learn the 
latest programs and techniques. Indeed, with the recent closure of the 
General Motors Training Center based in Portland, OR, Shoreline 
Community College will become a hub for incumbent worker automotive 
technologies training in the West.
    While hybrid, plug-in hybrid, and all-electric automotive 
technology is still new, think about the lifecycle of an automobile and 
you'll see the next step for Shoreline's automotive technologies 
program. While much of the technology is currently proprietary, 
eventually owners of those now cutting-edge hybrids are going to start 
taking them to the thousands and thousands of independent vehicle 
repair shops. Extending the training and skills to those employers will 
be critical in the not-so-distant future.
    Through existing and coming programs, Shoreline expects to educate 
and train 2,500 incumbent manufacturer-sponsored workers and another 
5,000 at independent repair shops over the course of the next few 
years. In partnership with the Workforce Development Councils and 
community-based organizations, Shoreline is working to track the 
success of these students with a program called Career Navigator.
    I've told you of the successes, now, let me tell you how our 
flexibility is allowing us to address some of the challenges that 
accompany innovative and cutting-edge training programs.
    Many of those who seek employable, green-jobs training lack basic 
literacy skills. To get those students to the point where they have the 
math, reading, language and even the so-called ``soft'' or performance 
skills to participate in the training, we develop programs that address 
those needs.
    Through the work of the State Board for Community and Technical 
Colleges, Washington State has developed an Integrated Basic Education 
and Skills Training program, better known as I-BEST, and a student 
financial assistance program called Opportunity grants to help meet the 
needs of under-prepared workers.
    I-BEST provides educational access and support for Adult Basic 
Education (ABE)/English as a Second Language (ESL) so students can 
progress further and faster along career pathways. I-BEST pairs ABE/ESL 
instructors with professional-
technical instructors in the classroom, working together to advance 
students in both basic academic and professional-technical skills. 
Washington State currently has 128 different I-BEST programs, many 
aimed at green jobs.
    Shoreline has already had success in pairing I-BEST with the 
Automotive Technology Program and we're now looking to replicate that 
success with the Zero Energy Technology program.
    Shoreline has utilized the opportunity grant program to support the 
financial needs of under-prepared workers where traditional financial 
aid programs leave off. This allows our students to not have to make 
the difficult choices of whether to participate in a job training 
program versus taking a second job to meet their basic needs.

                       OTHER GREEN JOBS PROGRAMS

    While I'm understandably proud of Shoreline's programs, many 
Washington State community and technical colleges offer green-jobs 
programs, including:
Green Construction and Remodeling--Bates Technical College
    Five-course certificate (10 credits) in ``built green'' and LEED 
methods, appropriate building materials, air and water quality, and 
marketing and sales. Bates is an approved education provider for the 
U.S. Green Building Council's (USGBC) online green construction and 
remodeling series.
Green/Sustainable Design--Bellevue College
    Certificate (15 credits) in the design of ``green'' interior 
environments or specialist in healthy interiors.
Solar/Photovoltaic Design--Columbia Basin College
    Short certificate (5 credits) to select and/or certify solar panel 
systems for residences and commercial buildings and prepare students 
for the Silicon Energy Manufacturing Solar Installation Certificate and 
the National Photovoltaic (PV) Installer Certification through the 
North American Board for Certified Energy Practitioners (NABCEP).
Associate of Applied Science--Transfer degree in Environmental 
        Technologies and Sustainable Practices--Cascadia Community 
        College
    Two, 2-year degree tracks with two related certificates:

    <bullet> Business track: Graduates address savings and spending 
using applicable terms and tools.
    <bullet> Technical track: Graduates perform in a hands-on 
environment.
    <bullet> Certificate 1: Solar PV System Specialist (51-57 credits) 
covers commercial and residential systems.
    <bullet> Certificate 2: Energy Management Specialist (64-68 
credits) covers conservation and efficiency in new and existing 
buildings.

Interior Design/Green Design--Clover Park Technical College
    Certificate (19 credits) in historic preservation, sustainable 
environments and independent study courses.
Green Real Estate--North Seattle Community College
    Two-quarter, seven-course certificate (16.5 credits) that includes 
some continuing education fulfillment and qualification as a Built 
Green Certified Professional. Other topics include: green building 
materials, energy efficient design and development, healthy buildings, 
indoor air quality and marketing.
Zero Energy Technology--Shoreline Community College
    Three certificates and a pre-apprenticeship program:

    <bullet> Certificates: Prepare students for the Silicon Energy 
Manufacturing Solar Installation Certification and the national PV 
Installer Certification through the North American Board of Certified 
Energy Practitioners (NABCEP)

        <bullet> Solar/Photovoltaic Energy Designer (5 credits)
        <bullet> Zero Energy Building Practices (15 credits)
        <bullet> Zero Energy Building Practices (59-63 credits)

    <bullet> Pre-Apprenticeship: Training for Green Careers in the 
Trades (12 credits) developed with City of Seattle and Seattle City 
Light
Energy Auditor--South Seattle Community College
    Certificate (12 credits) for residential buildings.
Sustainable Plant Production--South Puget Sound Community College
    Certificate (41-44 credits) in plant propagation, production and 
marketing of native and nonnative horticultural crops.
Associate of Technical Sciences in Sustainable/Organic Fruit 
        Production--Wenatchee Valley College
    Two-year degree developed cooperatively with Washington State 
University in horticulture, integrated pest management production, 
processing and marketing of perennial fruit crops.
    In short, I would like to thank the committee for giving me an 
opportunity to share some of the exciting opportunities the State of 
Washington is providing its residents in the area of green jobs. As you 
have heard, the Washington State Board for Community and Technical 
Colleges and our 34 community and technical colleges are moving 
Washington State forward in training and educating the green workforce 
through its innovative programs and strong partnerships with business 
and industry, community-based partners, the local workforce development 
councils and myriad of other State and local organizations.
    Thank you.

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Murray. Thank you.
    Phil Lou.

STATEMENT OF PHILLIP C.L. LOU, FORMER STUDENT IN THE SHORELINE 
   COMMUNITY COLLEGE SOLAR DESIGN AND INSTALLATION PROGRAM, 
                           VASHON, WA

    Mr. Lou. Madam Chairman, and members of the committee, my 
name is Phil Lou, and I am from Vashon Island, WA. I am honored 
and humbled to be here today, thank you for the opportunity to 
share my story.
    I am a college graduate, and have worked as a fisheries 
biologist, foreign fisheries observer, and commercial 
fisherman. For the past 15 years, I've been working with wood. 
I've built homes, fine cabinetry and furniture, and installed 
custom yacht interiors. The work was interesting, challenging 
and financially rewarding, but I did not find it fulfilling. I 
wanted to work in a field that benefited the community and the 
environment.
    As a teenager in Honolulu, HI, I joined the Sierra Club 
High School Hikers Program. We spent weekends and school 
holidays hiking, backpacking and working on conservation 
projects. I developed a deep appreciation and respect for 
nature and conservation.
    After college, I served in the Peace Corps as an inland 
fisheries volunteer. For 2 years I lived in a small village in 
the West African Nation of Cameroon. The village had no 
electricity or running water. It was a stark contrast between 
my life in the United States and the lives of the villagers. My 
first practical application of solar energy was when I heated 
water in a black jug in the sun for my evening baths.
    These are some of the experiences that formed the values 
that led to my interest in renewable energy. In searching for 
formal education, I found Shoreline Community College's Zero 
Energy Technology Program. Classes are offered in photovoltaic 
design and installation, solar-thermal water heating, 
residential and commercial energy audits and green building 
practices.
    I enrolled in the photovoltaic class, and once a week I 
took two ferries and made the 2.5 hour commute up the shoreline 
from Vashon Island. The class taught me theory, design and safe 
installation practices of solar-electric generating systems.
    We benefited from our instructor, Mike Nelson, and his 33 
years of experience with renewable energy systems. In addition 
to classroom instruction, we had hands-on experience by 
installing a solar ray on campus.
    In Washington State, an electrician's license is required, 
by law, to install solar rays that are connected to the 
electrical grid. I obtained an electrician's trainee card, and 
I am now serving my apprenticeship with Artisan Electric 
Incorporated, a small, family-owned, union business, on Vashon 
Island.
    The skills and education I gained from Shoreline Community 
College are an asset to this company. My current 
responsibilities include photovoltaic design and installation. 
Our company has completed three installations, and there are 
four more scheduled for May. We have seven additional 
installation proposals.
    With what I've learned from Shoreline Community College, 
and with help from my employer, Jason Williams, I was able to 
install a solar array in my home, and it works. My family and I 
watch with satisfaction as our utility meter spins backwards on 
most days, which means our array is generating more electricity 
than we're using, and the balance is flowing back into the 
local electrical grid.
    In addition to work I'm doing with Artisan Electric, I am a 
co-founder of Greenworks Technologies, formed by students I met 
in the Zero Energy Program. This company will specialize in 
renewable energy technologies, and we recently presented our 
first solar-thermal installation proposal.
    There's a perception that community colleges are an 
educational steppingstone to universities. It may be true in 
some cases, but in my case, it was the reverse. Twenty-four 
years after graduating from the University of Oregon, I 
attended Shoreline Community College to gain the specialized 
skills necessary to participate in the emerging green energy 
industry.
    This new work has been challenging, satisfying, and 
inspiring. I think often of the children--including my 15-year-
old son, Jeffrey Lou--and what kind of world we will leave 
them. My hope is that this will be my contribution to a 
responsible solution for our future energy needs.
    Thank you, mahalo, and melohau.
    [The prepared statement of Phillip C.L. Lou follows:]

                 Prepared Statement of Phillip C.L. Lou

    Mr. Chairman and members of the committee, my name is Phil Lou and 
I am from Vashon Island, WA. Thank you for the opportunity to share my 
story.
    I am a college graduate and have worked in various fields as a 
fisheries biologist, foreign fisheries observer and commercial 
fisherman.
    However, for the past 15 years, I've been working with wood. I've 
built homes, fine cabinetry and installed custom yacht interiors. The 
work was interesting, challenging, and financially rewarding, but I did 
not find it fulfilling. I wanted to work in a field that benefited the 
community and the environment.
    As a teenager in Honolulu, I joined the Sierra Club High School 
Hikers. We spent time hiking, backpacking and working on conservation 
projects. I developed a strong appreciation for nature and 
conservation.
    After graduating from college, I joined the Peace Corps as an 
inland fisheries volunteer. I lived in a small village in the West 
African nation of Cameroon for 2 years. The village had no electricity 
or running water. There was a stark contrast between my life in the 
United States and the lives of the villagers. My first practical 
application of solar energy was when I heated water in a black jug in 
the sun for my evening bath.
    These experiences formed my values that led me to an interest in 
renewable energy technologies. In searching for formal education, I 
found Shoreline Community College's ``Zero Energy Program'' which 
offers classes in photovoltaic design and installation, solar thermal 
water heating and residential energy audits. I enrolled in the 
photovoltaic class and made the 2\1/2\ hour, twice weekly, two ferry 
boat commute to Shoreline from Vashon Island.
    The photovoltaic class taught me theory, design and safe 
installation practices of solar electric generating systems. We 
benefited from the 33 years of experience in renewable energy systems 
of our instructor, Mike Nelson. In addition to classroom instruction, 
we had hands-on experience by installing a solar array on campus.
    In Washington State, an electrician's license is required by law to 
install solar arrays that are connected to the electrical grid. I 
obtained an electrician's trainee card and am currently an apprentice 
with Artisan Electric, Inc., a small, family-owned union business on 
Vashon Island. The skills and education I have gained from Shoreline 
Community College are assets to this company. My current 
responsibilities include photovoltaic design and installation. Our 
company has done three installations and there are two installs 
scheduled for the first week of May. We have eight additional 
installation proposals.
    With what I've learned from Shoreline Community College and with 
help from my employer, Jason Williams, I was able to install a solar 
array on my home. My family and I watch with satisfaction as our 
utility meter spins backward on most days; meaning our array is 
generating more electricity than we are using and the balance is 
flowing back into the local electrical grid.
    In addition to the work I'm doing with Artisan Electric, I'm a co-
founder of Greenworks Technologies, Inc., formed by students I met in 
the Zero Energy Program at Shoreline Community College. This company 
will specialize in renewable energy technologies such as photovoltaic, 
solar hot water, energy audits, weatherization and rain catchment.
    There is a perception that community colleges are educational 
stepping-stones to universities. It may be true in some cases, but in 
my case it was the reverse. Twenty four years after graduating from the 
University of Oregon, I attended Shoreline Community College to gain 
the specialized skills necessary to participate in the emerging Green 
Energy industry.
    This new work has been challenging, satisfying and inspiring. I 
think often of the children, including our 15-year-old son, Jeffrey 
Lou, and what kind of world we will leave them. My hope is that this 
will be my contribution to part of the solution for our future energy 
needs.

    Senator Murray. Dean Allen.

  STATEMENT OF DEAN ALLEN, CHIEF EXECUTIVE OFFICER, McKINSTRY 
                      COMPANY, SEATTLE, WA


    Mr. Allen. I thank you, Senator Murray. I'm happy to be 
here, representing McKinstry. We have, for the last 49 years, 
focused on growing our company around helping our employees 
achieve their goals, as well. As mentioned in our submitted 
brief, we've been--for the last five decades--working in the 
design, build, operate, and maintain arena, performing 
electrical, and mechanical and energy conservation work.
    We have about 1,400 staff, we've started in the Pacific 
Northwest, but now have offices in 13 cities around the 
country, including a brand-new, 50,000-square-foot space we 
opened yesterday for our staff in Portland, OR.
    First, I'd like to say what we do in the area of energy 
efficiency. We partner with customers, and look for ways to 
lower their energy costs, their energy consumption. They end up 
with new infrastructure, lowers their carbon footprint. The 
projects are paid for by the cost avoidance of the utility 
that's saved, and we create green jobs along the way.
    It's a revenue-neutral strategy, it doesn't require a lot 
of stimulus, although we're hopeful that some of it will find 
its way in that direction. For your interest, there's about a 
trillion dollars worth of revenue-neutral projects available, 
by our estimation, in America here in the next 10 years. These 
are projects that we can create green jobs on.
    In terms of why we do what we do, for the last 49 years, 
and in particular, for the last 10 or 15, we have been focusing 
on energy efficiency. We find that when we work with customers, 
we lower their utility bills and their utility use by somewhere 
between 30 and 50 percent. If half of the energy in America is 
wasted, there's a gold mine available for us, in terms of 
getting out and working on energy efficiency.
    It's especially important to prioritize energy efficiency 
first, because it provides the runway that we need for new 
technologies and for renewable energy solutions to find their 
way into the marketplace. In our opinion, the first wave of 
jobs is about energy efficiency, the second wave that we ought 
to be training for, is about renewables, and a smart grid.
    The next point I'd like to make is about how we do it. I 
think we are, in some ways, unique to other folks. 
Approximately, half of our staff are professional engineers, 
office folks, that are innovating systems, providing 
professional design and 3-D modeling and fabrication and 
monitoring the systems that we put in place. The other half are 
union craftsman that are working out in the field, putting 
these installations in place. I think this gives us a unique 
perspective on the intersection between the technology and the 
innovation, and sort of the higher ed aspects of green jobs, 
but also the green color side of our crafts folks.
    Four points I'd like to make today. First, individual 
companies like mine need to take responsibility to train their 
employees, both train, retrain, and manage their pipeline. We 
spend a tremendous amount of time in our community working with 
community colleges, voc techs and our union partners in their 
apprenticeship programs, and we need to take responsibility to 
grow our company, and we do.
    We have our own functioning McKinstry University inside of 
our company, we're just finishing our--building a second 
training center for our staff--and working with our partners. 
Individual private companies like ours need to take 
responsibility and not wait around for solutions to come from 
afar.
    Second, as many of the Senators have said, it's really 
important that we leverage the tremendous assets we have in 
training in America today. You know, we have agreements with 40 
different union crafts organizations in different geographies 
that we work in, in different crafts--plumbers, pipe fitters, 
sheet metal workers, electricians, and such. These folks are 
experts at training, they're done in joint apprenticeship 
training programs, where management is also providing help and 
support to these programs.
    And likewise, in our voc tech programs--we need to work 
with community colleges and voc techs to add curriculum, to add 
focus, to provide instruction, to provide work opportunities 
for these folks, and internship programs, and leverage the 
existing system we have, and not build a parallel system.
    I would re-emphasize that we want to be careful also not to 
do all of our training on renewable energy systems that will be 
coming further in the future, as we have 5 or 6 million people 
that need to get put back to work, and energy efficiency can 
happen now.
    Third, it's really important that industry identify the 
skills that they need, and then we have a way to coordinate 
that back to our educational partners. In our work, it's about 
multidisciplinary engineering work, it's about doing the math 
on renewable energy projects, and energy efficient projects, 
it's about slight modifications to the skill set of our 
electrical and mechanical and other trades folks, so that they 
can have curriculum instituted into their work.
    It's about energy auditing and facility managers, so that 
we can make sure that we are managing these systems when we're 
done, so they actually do produce the savings that we get when 
we first do the retrofits. Certainly, you know, the maintenance 
thereof.
    Fourth, and last, I would like to say that, we think that 
the real focus on this also needs to be on the K-12 system. I 
think we do a tremendous disservice to our kids in America when 
we underemphasize math and science. We are, in the past, have 
thought about math and science in our K-12 systems being about 
kids going on to higher ed. In our world with 1,000 union 
craftsman, I can tell you that if you graduate from high 
school, and you can't pass the math and science competency 
tests, you can not pass through the filter to become an 
apprentice, as a plumber or a pipefitter or a sheetmetal 
worker, or an electrician.
    While we're thinking about green jobs, we also need to be 
thinking about strengthening the underpinning of our K-12 
system, as well.
    Thank you for the opportunity.
    [The prepared statement of Mr. Allen follows:]

                    Prepared Statement of Dean Allen

``People are the foundation of our organization, and through their 
efforts the goals and values of the corporation are attained.''

    Mr. Chair, that one sentence summarizes our entire approach to 
business. We believe both our company's and our country's futures are 
directly tied to our ability to rise to the challenge of ensuring every 
worker has the skills they need to succeed and support the emerging 
green economy. I'd like to thank you, and the entire committee for 
spending time on what I consider to be one of the most critical 
challenges facing our country today.
    For five decades McKinstry has transformed the way in which we 
design, build, and optimize the built-environment. Our company 
originated in the Pacific Northwest as a high quality mechanical 
contractor employing union-affiliated construction trades. We now have 
13 offices located in Washington, Idaho, Oregon, Colorado, Kansas, 
Minnesota, Montana, Texas and Wisconsin. Our company operates using 
core values that include developing legacy relationships with our 
clients, financial stability that is exemplified in our diverse 
offerings, and a caring for both the communities we serve and the 
people that we have the privilege to employ. We have weathered many 
economic cycles while holding true to these core values. Each economic 
downturn has reinforced our long-term strategy to focus on services for 
the built environment that maintain employment or actually increase 
employment during economic struggles. Since the early 1990s we have 
positioned our company to be diversified and able to withstand economic 
downturns, such as the one we now face. While continuing to focus on 
quality craftsmanship, over the last decade we have focused on making 
the built environment more energy efficient. We have expanded beyond 
the Pacific Northwest to provide our energy and sustainability services 
across the country. We are uniquely qualified to help our Nation move 
quickly to put people to work making buildings more efficient, lowering 
energy consumption and reducing their associated carbon emissions. Our 
results have proven that a focus on green does create significant 
numbers of sustainable, family-wage and career track jobs while 
contributing directly to preserving or enhancing environmental quality.
    McKinstry has received national recognition for leadership in 
energy efficiency and green job growth. It is our commitment to 
sustainable, design/build practices and for promoting a new direction 
for an energy efficient America that has helped make us this industry 
leader. Our efforts have resulted in the significant reduction of 
operational costs over the life of buildings, paying for themselves 
many times over, and improving the physical and working environment for 
occupants. We have also been recognized as a model for other companies 
in the promotion of green jobs, application of sustainable business 
practices, and innovation in reducing the country's dependence on 
foreign energy sources. Our efforts in these areas have caught the 
attention of Federal, State and local policymakers as well as labor and 
environmental leaders. We are, therefore, well-suited to assist in 
creating green jobs that promote short- and long-term energy 
efficiency.
    Over the last 20 years McKinstry has expanded our maintenance, 
operations, energy efficiency, renewable energy, and sustainability 
teams to over 500 highly skilled green collar jobs. These jobs include 
union service and commissioning technicians, energy auditors, 
engineers, sustainability experts, project managers, and a variety of 
support staff. These teams stabilize building operations by developing 
energy efficiency projects that are performed by construction trades 
professionals such as electricians, sheet metal workers, plumbers, pipe 
fitters and carpenters. Wherever possible, these projects are supplied 
by vendors providing American-made energy efficiency products.
    Sustainable job creation has been an important, long-term strategy 
of McKinstry. This commitment to enduring employment opportunity has 
enabled us to provide a continuum of quality service to our customers 
and stable, diversified career prospects for our employees. Of note, 
McKinstry recently analyzed job creation resulting specifically from 
our energy efficiency projects. We have found that for every million 
dollars spent on making our built environment more energy efficient, 20 
jobs are created. This includes approximately nine direct McKinstry 
project hires, six employed indirectly through vendors and suppliers 
and another five support positions. Our experience shows a ratio of 
four to five trade and vendor positions for every one highly skilled 
green collar employee deployed on an energy project.
    To validate our results, we reviewed the findings of the September 
2008 Green Recovery Report created by the Center for American Progress 
(CAP) and the Political Economy Research Institute (PERI) and verified 
that their assessment aligns with ours. In 2008 alone, over 1,500 
people delivered energy efficiency and sustainable solutions to 
schools, universities, hospitals, city facilities, and private 
commercial buildings on a national basis as a direct result of 
McKinstry's energy retrofit projects.
    Construction projects focused on making existing buildings more 
energy efficient will create more durable, long lasting American jobs. 
With over 80 billion square feet of non-residential building stock and 
over 170 billion square feet of residential building stock it would 
take nearly a decade to deliver energy efficiency upgrades nationally. 
In the non-residential building stock, approximately 5 billion square 
feet of new buildings are constructed, approximately 5 billion square 
feet need major renovations, and about 1.75 billion square feet of 
existing buildings will be demolished on an annual basis. It is 
expected that over the next 30 years, three-quarters of this built-
environment will either be new or renovated. This indicates the long-
term opportunities for employment in this particular market segment.
    Energy efficiency will play a major role in carbon reduction in new 
buildings, as is the case in existing buildings The American Institute 
of Architects (AIA) 2030 Challenge calls for all new buildings and 
major renovations to reduce their fossil-fuel GHG-emitting consumption 
by 50 percent by 2010. Continued incremental progress by 2030 is 
expected reducing consumption for new buildings to carbon neutral. As 
new technologies are created and scaled, we will need to revisit 
existing and new building stock to perform additional upgrades 
featuring the latest energy efficiency innovations. This strategy will 
be the most successful path to low carbon or carbon-neutral buildings 
at the end of the first 10-year cycle and will create millions of 
sustainable employment opportunities or ``green jobs'' to accomplish 
this task.

                               OUR PEOPLE

    McKinstry directly employs over 1,400 staff and union employees 
nationwide. We are considered the largest construction industry union 
employer in the greater Seattle area. In addition, we routinely employ 
over 20 paid interns from various colleges, universities and vocational 
schools to help them learn about our business. Our employee base 
includes more than 100 engineers, 50+ LEED Accredited Professionals as 
well as Certified Energy Managers.
    McKinstry is proud to be a Union employer of the very best and 
highly trained trades people in our industry. At this time we employ 
members of the following Unions:

    <bullet> Plumber & pipe fitters/HVAC/Refrigeration;
    <bullet> Sheet Metal Workers;
    <bullet> Electrical Workers;
    <bullet> Sprinkler Fitters; and
    <bullet> Carpenters/Painters/Tapers/Laborers.

    During most of 2008 McKinstry experienced unprecedented growth in 
our field union labor crews, maintaining an average of 1,000+ during 
the year. Union workers from all regions of the United States sought 
work in Washington as their home States could not provide the union 
jobs they were trained to do. McKinstry became an employer to many of 
them during this period of time. While we are continuing to add 
professional engineering and sustainability staff, McKinstry has felt 
the downturn in the new construction economy with our current union 
field crew levels of 700. The increased focus on building energy 
efficiency and retrofits will not only create new green jobs that don't 
currently exist but enable redeployment of these skilled crews to those 
opportunities.
    Skills training is integral to sustainable job creation and to the 
technical requirements of building energy efficiency. Our union 
partners facilitate that skilled learning environment through a 
formalized apprenticeship training program typically lasting a period 
of 5 years. Training includes challenging classroom experience, hands-
on instruction in their state-of-the-art training facilities and on-
the-job education through employment at McKinstry or other signatory 
contractors. Instructors are industry-specific experts in their field 
and often are tenured McKinstry union employees interested in teaching 
others their craft. There is a rigorous entry process into these 
apprenticeship programs including testing in higher level math, 
reading, writing and critical thinking aptitude. Continuous education 
is a priority upon graduating from the apprenticeship and required to 
maintain many of their technical certifications.
    McKinstry is actively engaged in this training process through 
countless staff hours contributed to union educational boards, Jointly 
Administered Training Committee (JATC) involvement and in providing 
instructors for these training opportunities for the union members. 
Skilled workers are critical for the success of our organization and to 
successfully meet the demands of an energy efficient built environment.
    McKinstry is widely recognized within the industry as the preferred 
place to work for union employees due to this training commitment, the 
availability of the best tools and equipment in the industry, the 
opportunity for innovative jobs, our steadfast focus on employee safety 
and their welfare and our encouragement of every individual to perform 
at their best.

                          MCKINSTRY UNIVERSITY

    Continual training and a focus on innovation differentiates 
McKinstry and our employees. Energy efficiency and best practices in 
sustainability are central to the curriculum. McKinstry offers diverse 
training programs targeted at growing the capabilities of our people 
and, by extension, our company. Under the umbrella of McKinstry 
University, we offer learning opportunities in the following key areas:

    <bullet> Technical Training;
    <bullet> Company and Industry Knowledge;
    <bullet> Professional Development: Communication, Supervision & 
Leadership;
    <bullet> Software Skills and Computer Aided Design;
    <bullet> Personal Development/Wellness; and
    <bullet> Sustainability.

    Within the technical and industry curricula are a variety of 
options related to sustainability and/or green jobs. McKinstry 
University offers the ``McKinstry Green Certification,'' which includes 
becoming a LEED Accredited Professional in addition to mastering 
McKinstry-specific training in green best practices. Our commitment to 
our employees mastering this topic includes an 8-week intensive 
preparatory class for the LEED certification. Additionally, McKinstry 
employees are actively involved in affiliations associated with 
sustainability by attending their continuing education conferences and 
speaking as industry experts on their training panels.
    All of our union partners are actively adjusting and expanding 
their training curriculum to embrace new technologies and approaches 
required to support energy efficiency projects. The United Association 
of Plumbers & Pipefitters has launched a new Green Awareness 
Certification which covers topics such as energy efficiency, energy 
management, alternative energy, HVAC systems, solar systems and 
plumbing. Local 32 plans to submit to the State that this certification 
class be a Continuing Education Unit (CEU) requirement for the 
Washington State Plumbing License making this an industry priority. We 
are encouraging all of our employees to increase their energy 
efficiency skills and are actively supporting this training deployment 
effort.

         COMMUNITY IMPACT--WORKFORCE DEVELOPMENT AND EDUCATION

    Our commitment to training and building a sustainable pipeline of 
skilled workers does not end with our internal efforts and union 
partnerships. McKinstry employees actively serve on numerous workforce 
development committees and in various programs related to workforce 
development, green jobs training, continuing education, and classroom 
teaching and/or classroom curriculum planning. Committees we serve on 
in addition to the JATC's described above include STEM (Science, 
Technology, Engineering, and Mathematics), Partnership for Learning, 
Seattle Vocational Institute Board, SMACNA Education Committee, Green 
Building Council, Northwest Energy Alliance and the MCAWW Academic 
Relations and Education Committees to name a few. Through these 
committees and programs, McKinstry helps determine workforce needs, 
helps to promote industry awareness, facilitate recruitment of interns 
and employees, and build collaboration with local training facilities, 
vocational technical training schools, colleges and universities for 
future workforce placement. This enables us to proactively influence 
the direction of educational curriculum to support the diverse skills 
necessary for the green workforce of the future.
    McKinstry is also active in promoting careers in our industry in 
the public school system. An example of that involvement is The 
Architecture, Construction, and Engineering (ACE) Mentor Program of 
America, Inc. ACE is a unique partnership among industry 
professionals--architects, interior designers, engineers, construction 
managers, college and university representatives, and other 
professionals from related corporations and professional 
organizations--who work together to attract young people to their 
professions. The program's mission is to enlighten and increase the 
awareness of high school students to career opportunities in 
architecture, construction and engineering and related areas of the 
design and construction industry through mentoring; and to provide 
scholarship opportunities for students in an inclusive manner 
reflective of the diverse school population. McKinstry employees 
actively participate in these mentoring opportunities as yet another 
avenue to build a future pipeline of engaged, technical workers.
    A particularly illustrative example of McKinstry engagement with 
youth in the secondary school system is our partnering relationship 
with one of our customers, Northshore School District, in their 
alternative high school program, Secondary Academy for Success (SAS). 
The program includes endeavors with Career Speakers, Human Resources, 
K20 Running Start and Public Relations. This partnership exposes 11th 
and 12th graders to the variety of opportunities in our green economy. 
Our first encounter with students provided a ``blue,'' ``white'' and 
``green'' collar perspective on what it takes to start a career in that 
field. Our speakers included a ``blue collar'' HVAC Technician from our 
Service Department, a ``green collar'' Knowledge Response Center Remote 
Operation Center Manager and two ``white collar'' Computer Aided 
Drafting and Design Drafters. Students gained visibility into the 
variety of options that are available to them and insight into the 
basic skills needed to start down that career path. This program 
targets students that may or may not be on a typical college track and 
provides them understanding of the critical thinking skills and 
technical aptitude in math and science required to be successful. 
Students are exposed to ways in which their own school district has 
focused on energy efficiency and the environment. This innovative 
teaching method has created a functional learning lab for students in 
the midst of a fully functioning, energy efficient building model.
    McKinstry's Corporate Development team and SAS have also developed 
a program that will help students identify jobs they are interested in 
pursuing, resume writing guidelines and important interviewing skills. 
While the K-20 program is still in its infancy and evolving, the focus 
revolves around how to best prepare students coming out of high school, 
community colleges and 4-year institutions to enter into the workforce 
with a company like McKinstry. Members from our executive team have 
joined Cascadia Community College and University of Washington Bothell 
to pioneer this effort.
    As McKinstry continues to expand, we are exploring the creation of 
a combined engineering/operations hub and regional training center co-
located with one of our other offices. The intent of this concept would 
be to establish an engineering center and operations support unit at 
the location with 50-100 staff to support the design and execution of 
projects throughout our network of locations. Linked to this hub would 
be an onsite training center jointly operated with local universities 
or colleges, operating a combination of credit curricula, technical 
training, co-op positions and a paid internship program distributed 
through our various locations. Conceptually it is envisioned that the 
training center would serve 50-100 participants per year, with 20 
offered summer internships, 20 offered 6-month co-op positions for 
their junior/senior years, and ultimately 25-50 being offered full-time 
positions at McKinstry each year. This serves as another example of 
McKinstry building a pipeline for future green jobs for an energy 
efficient economy.

                                 SKILLS

    The design and construction industry is an economic driver in our 
region and, although the recent economic downturn has had a significant 
negative impact on growth, it is expected that the commercial sector 
will return to a pattern of slow growth in the fourth quarter of 2009. 
In addition, growth will be spurred through the investment of stimulus 
funds in retrofitting commercial and residential buildings for greater 
energy efficiency.
    As the buzz about ``green jobs'' is growing louder every day and 
fueled by new Federal funding, cities, States and the Federal 
Government need to invest in identifying the specific skills necessary 
and the strategies to help people develop those skills. New and 
evolving green materials and techniques create knowledge and skill gaps 
in the current workforce.
    The more technical the skill set an employee holds, the more 
sustainable their job is. For our workforce to succeed and maintain 
enduring jobs in the environment we are heading rapidly into, we 
believe the skill set necessary includes the following:

    <bullet> Multi-design engineering;
    <bullet> Value Engineering (function and use vs. true cost);
    <bullet> Adeptness in sustainable construction processes;
    <bullet> Familiarity on the value and principles of energy 
conservation;
    <bullet> General knowledge on alternative energy sources;
    <bullet> Technical knowledge and skills related to ``green 
management,'' which includes the implementation of conservation 
practice processes, assessment of facilities and review of energy 
consumption levels;
    <bullet> Technical skills (Math and Science);
    <bullet> Life cycle assessment (decisionmaking function);
    <bullet> Knowledge of ``green business methodologies'' including 
carbon modeling and environmental cost accounting; and
    <bullet> General environmental awareness.

    Demand for technically minded employees will exceed supply as the 
global green industry continues to grow. This disconnect will make it 
essential that we retool our work force to take on these emerging 
technologies. This will help lead the way in clean technology and the 
green economy while ensuring job sustainability. We need to continue to 
refresh the traditional trades with training in 21st century knowledge 
and skills.
    With the need to retool our workforce in mind, McKinstry and the 
Workforce Development Council of Seattle-King County are currently 
hosting a Green Design and Green Building Skill Panel which was formed 
first quarter of 2008 and includes 25 leaders from business, labor, 
education, economic development, government, and workforce development. 
The panel will have an important impact on identifying and addressing 
the sector's workforce challenges to prepare for both the greening of 
the sector and future growth.
    The panel's goal is to identify workforce demands in the sector and 
undertake initiatives that can effectively prepare the existing and 
future workforce to meet those needs. The panel has zeroed in on 
critical needs and initiatives in these three areas:

    <bullet> Preparing the workforce for emerging, new green jobs;
    <bullet> Up-skilling the existing workforce; and
    <bullet> Integrating green knowledge across industry sectors and 
the building trades.

    In summary, I would like to leave you with this thought as you 
continue to explore this issue as a committee.
    Our ability to succeed as McKinstry or as any company in the green 
economy is directly related to the number of skilled, competent 
individuals who are available to perform this groundbreaking work. 
Without these workers--and a constant upgrading of their training and 
skills--our efforts will fail. We believe that without this commitment 
to continuing education, workforce development, and understanding the 
technical needs of energy efficient built environment for our country 
that the goal of creating sustainable, family wage, green collar jobs 
will fail. McKinstry is committed to that belief and has shown that 
commitment through our historical and continuing activities in this 
arena. We think it is vitally important to capture the imaginations of 
those just entering the workforce about the tremendous opportunity in 
this new, energy efficient, green economy.
    We think that good policy at the Federal, State, and local level 
can support these goals, and that's why I'd like to thank the 
committee--and especially you--for your time, and I appreciate and 
applaud the attention and focus you've brought to this critical issue.

    Senator Murray. Thank you very much.
    Mr. Ayers.

        STATEMENT OF MARK H. AYERS, PRESIDENT, BUILDING

              AND CONSTRUCTION TRADES DEPARTMENT,

                    AFL-CIO, WASHINGTON, DC

    Mr. Ayers. Madam Chair, members of the committee, thank you 
for providing me this opportunity to address you today.
    Considerable attention is being directed toward green jobs 
and related training initiatives, jobs that will help American 
workers obtain secure career paths as our Nation embarks upon a 
transition to a more sustainable economy.
    I appreciate the opportunity to offer the views of the 
Building and Construction Trades Department, which is a 
coalition of 13 national and international unions representing 
2.5 million skills craftsmen and women in the United States and 
Canada.
    I am especially pleased to serve on a panel that follows 
Secretary of Labor, Hilda Solis, one of the architects of the 
Green Jobs Act of 2007, and a tremendous advocate for America's 
working families.
    We've all heard the projections that green jobs are 
expected to expand rapidly in the years ahead. The American 
Recovery and Reinvestment Act alone is expected to create 
hundreds of thousands of jobs in energy efficiency measures, 
smart grid development, home weatherization, building 
retrofits, and related areas.
    I'd like to address some of these themes today, starting 
with a perspective on how green jobs should be defined. First, 
it is important to define green jobs in broad and 
nonrestrictive terms. Simply stated, green jobs consist of work 
that increases environmental sustainability and contributes to 
an economy that reduces emissions of greenhouse gases.
    However, to assure the broadest possible economic benefits 
from green investments, it's critical that public policy 
connects green jobs with employment standards, standards that 
offer family-sustaining wages and benefits, and include 
upwardly mobile career pathways. Workers are desperate for jobs 
that not only provide immediate employment, but also jobs that 
place them on career paths, career paths that will enable them 
to earn better incomes as they develop higher skills and as 
they gain work experience.
    When it comes to training, the Building and Construction 
Trades Department, and our member unions are not only believers 
in forming partnerships, we are practitioners. A central 
feature of the construction industry's unionized training 
programs is the partnership that exists between us and our 
contractor employers.
    Finally, the Building Trades believe that new jobs created 
by the Greening of America should be linked to proven career 
pathways out of poverty and in to the middle class.
    We are committed to create high-road jobs around green 
building retrofit activities in targeted cities around the 
country. And further, we hope that these initiatives that 
connect the demands for a less carbon-centered economy, with 
the potential for significant job growth, will become the 
centerpiece of expanded labor and community alliances. These 
alliances can and do ensure the placement of local residents in 
pre-apprenticeship and apprenticeship programs that are 
designed to place them on a path to a secure career in the 
skilled trades.
    Rebuilding the American economy, the middle class, and 
restoring the American dream represents enormous challenges, 
challenges that we are prepared to embrace. Working in 
partnership with other progressive social forces in our 
society, we look forward to this challenge and we are committed 
to its success.
    Thank you, Madam Chairwoman.
    I'll be happy to answer any questions you have after 
everyone speaks.
    [The prepared statement of Mr. Ayers follows:]

                  Prepared Statement of Mark H. Ayers

    Senator Murray, members of the committee, thank you for providing 
me this opportunity to address the committee today on the important 
topic of green jobs and related training initiatives that will help 
American workers obtain a secure career path as our Nation embarks upon 
a transition to a more sustainable economy.
    We appreciate the opportunity to offer the views of the AFL-CIO and 
the Building & Construction Trades Department, which is an alliance of 
13 national and international unions that represent 2.5 million skilled 
craft men and women in the United States and Canada. I am especially 
pleased to serve on a panel that follows the presentation by Secretary 
of Labor Hilda Solis, one of the architects of the Green Jobs Act of 
2007 and a tremendous advocate for America's working families.
    I speak to you today not only as the President of the Building and 
Construction Trades Department, but also as a veteran electrician with 
over 25 years in the trade, and an acute interest in what our Nation 
needs to do to ensure stable career opportunities for young people, as 
well as American workers who have been displaced from other industries.
    The affiliated unions of the Building and Construction Trades 
Department have been at the forefront of the green jobs movement for 
many years. Most recently, we have joined with the AFL-CIO in launching 
the ``Center for Green Jobs,'' which is designed to partner with 
affiliated unions to help pave the way for good jobs in a variety of 
current industries and emerging ``green'' industries. As part of this 
initiative our unions are engaging our apprenticeship and training 
programs to create the skilled workforce needed for a clean energy 
future and provide new opportunities to join the middle class for 
citizens in underserved communities, non-traditional workers, and 
communities of color.
    Our unions have built an unsurpassed nationwide apprenticeship and 
training infrastructure that incorporates the latest technologies that 
are becoming an increasing part of everyday life on construction 
projects of every imaginable type. Whether it is the installation of 
new, high-efficiency plumbing, HVAC and electrical systems, or the use 
of new and improved building materials and construction techniques, 
America's Building Trades Unions are on the front lines of the effort 
to create, not just green ``jobs,'' but ``careers'' that will enable 
Americans from all walks of life to enjoy the peace of mind associated 
with a stable and prosperous career that offers family-sustaining wages 
and benefits.
    We have all heard the projections that the growth of green jobs is 
expected to rapidly accelerate in the years ahead. The American 
Recovery and Reinvestment Act alone is expected to create hundreds of 
thousands of jobs in energy efficiency measures, smart grid 
development, home weatherization, building retrofits, and related 
areas. The law also lays the groundwork for future investments in a 
lower-carbon economy that will require continued resources--both public 
and private--and a firm, national commitment to improving the skills 
and capabilities of many segments of our workforce. The potential 
creation of millions of green jobs represents a way to stimulate 
economic recovery while promoting environmental sustainability and 
reducing the Nation's dependence on foreign oil.
    I would like to address four themes today, starting with our 
perspective on how green jobs should be defined. I will then talk about 
the importance of job quality and our experience with building 
partnerships with employers, educational institutions, and other 
organizations. I will conclude with a discussion of some of the new 
initiatives in which our America's Building Trades Unions are involved.

                   A BROAD PERSPECTIVE ON GREEN JOBS

    It is important to define green jobs in broad and non-restrictive 
terms. Basically, green jobs consist of doing work that increases 
environmental sustainability and contributes to an economy that reduces 
the emissions of green house gasses and improves the environment. Much 
of the recent media attention lavished on green jobs creates the 
impression that green jobs are associated primarily with renewable 
energy production, such as the installation of solar photovoltaic 
panels and the construction of giant windmills. Although this work 
certainly falls into the category of projects that will help to reduce 
greenhouse gas emissions, we need to look more carefully, as a 
practical matter, at the presence of green jobs in many occupations and 
across multiple sectors of the economy.
    Many of these construction projects are likely to be union jobs 
conducted under some type of collective bargaining agreement. They will 
involve construction sites, private sector manufacturing companies, 
public agencies, non-profit organizations, schools, and other 
workplaces where our members have put their skills to use for many 
years. When steelworkers use their expertise to manufacture blades for 
windmills, for example, those are green jobs. When autoworkers build 
hybrid electric vehicles, those are green jobs. When highly skilled 
construction tradesmen and apprentices install energy efficient windows 
in a building, upgrade the insulation around pipes, or install and 
maintain high efficiency boilers, those are all green jobs. More than 
32,000 teamsters work in the sanitation and recycling industry across 
the country, working with environmentalists to reduce air and water 
pollutants, and conserve natural resources. Those are green jobs, too.
    The expansion of green jobs is a continuous, dynamic process that 
occurs not only across many industries, but also inside the jobs 
themselves as many are evolving to become more and more ``green'' as 
time goes on. Using this perspective, green jobs include transformed 
jobs that require new or upgraded skills as new processes are 
introduced, new technologies come on line, or government policies 
change to place a greater emphasis on electricity generation through 
zero- or low-carbon production sources.
    Jobs that use existing skill sets to remediate and redevelop 
environmentally distressed properties, for example, have been around 
for decades, and thousands of our union members in the building and 
construction trades have worked on them. Unions have long-standing 
partnerships with the National Institute of Environmental Health 
Sciences, the NIEHS, and 18 consortia that include universities and 
community-based organizations. These consortia involve unions such as 
the operating engineers, the auto workers, the laborers, the fire 
fighters and many others in operating training programs for minority 
workers and others. Between 1988 and 2006, more than 111,000 workers 
were trained in the clean-up of hazardous waste. These activities 
contribute significantly to our Nation's environmental quality and the 
expansion of green jobs.
    Today, all across the country, our building and construction trades 
State and local councils, and our affiliate local unions, are closely 
attuned to the demands and needs of our signatory contractors. Although 
the economic crisis has slowed down this process, what we are seeing is 
a gradually rising demand among investors for homes, commercial 
buildings and large projects that are more environmentally friendly and 
which are engineered to produce less greenhouse gas and use energy 
resources more efficiently. As our signatory contractors win bids for 
this sort of work, there will be an even greater need for apprentices 
and journey persons to fulfill the skilled craft manpower needs of 
these employers which will ultimately lead to our members gaining 
increased prospects for more work and additional avenues to improve 
their skills and capabilities. Our education and training programs are 
currently structured to respond accordingly by adding new curricula and 
other specialized components to our existing apprenticeship training 
programs, for the expressed purpose of having customized training 
classes for our journey-level workers that meet the skilled workforce 
needs of owners and contractors in our industry.
    In the electrical field, for example, locals of the International 
Brotherhood of Electrical workers, the IBEW, are involved in a wide 
array of work on renewable energy projects, from wind towers in Iowa to 
wiring solar panels in Colorado. In Oregon alone, more than 1,300 IBEW 
electrical workers have been training in the installation of 
photovoltaic panels. In San Diego, CA, where IBEW Local 569 represents 
more than 2,000 electrical workers, the union works with 24 contractors 
who install solar panels on a wide variety of buildings. The joint 
apprenticeship program associated with Local 569 is building toward the 
future, giving all apprentices some exposure to work in renewables 
during their 5-year program. The membership of that local is very 
diverse, with Hispanics comprising 40 to 50 percent.

                    GREEN JOBS AS GOOD QUALITY JOBS

    To assure the broadest possible economic benefits from green 
investments, it is critical that government policy associate green jobs 
with high quality jobs that pay family-sustaining wages and benefits, 
and include upwardly mobile career pathways. Workers need jobs that not 
only provide immediate employment, but also place them on a career path 
that will enable them to earn higher wages and salaries as they gather 
new skills and capabilities to adjust to new technologies and the 
emergence of new industries. Again, the American labor movement has 
been at the forefront of worker training and systematic skill upgrading 
for generations, stretching back to the early parts of the 20th century 
when our unions first began to advocate for local public school 
systems, and for the passage of Federal vocational education 
initiatives. America's Building Trades Unions, invest over $700 million 
each year to assure that our contractor employers have access to the 
safest, most highly trained and highly productive workforce known to 
man.
    Within the construction sector, joint apprenticeship programs can 
and should be the model upon which green jobs training is built. 
Registered apprenticeship programs allow workers to earn a wage while 
learning the skills necessary to move into not just jobs, but careers 
that pay family sustaining wages. The apprentice model of skill 
acquisition is distinctive because it integrates systematic on-the-job 
training, guided by an experienced master-level practitioner, with 
related classroom instruction. An estimated 490,000 apprentices were 
active in registered programs in 2003 (Glover and Bilginsoy 2005), an 
increase from the 283,000 enrolled in 1990 (Bilginsoy 2003).
    While the U.S. Government has identified more than 800 occupations 
as apprenticeable, the bulk of active apprentices were being trained in 
2003 as electricians, carpenters, pipe fitters and other occupations 
that comprise the building and construction trades. Though some 
programs are sponsored by non-unionized employers, the majority--70 
percent--of registered apprentices participated in labor-management 
programs that are governed by an infrastructure of local Joint 
Apprenticeship and Training committees (JATC) and funded through 
collectively bargained contributions to local tax-exempt trust funds.
    Unions and some firms have introduced innovations to maintain the 
relevance of apprenticeship to changing workforce and industry needs. 
National joint training trust funds have been established to 
standardize curricula, which has had the effect of increasing the 
uniformity of training nationwide, and encouraging local funds to offer 
skill upgrading for incumbent workers. Annual programs at universities 
are held to improve the skills of apprenticeship instructors, research 
industry trends, and launch apprenticeship programs for emerging 
occupations in, for example, energy conservation and environmental 
services. Dual enrollment systems have been created to enable 
apprentices to earn college credits and progress toward higher degrees, 
fostering career advancement and helping to attract more highly 
qualified applicants to selected fields.
    In other sectors of the economy, we firmly believe that green jobs 
training should build on existing training infrastructure, to the 
extent that it exists, in order to maximize efficiencies and keep down 
costs. Where there are gaps in the existing training infrastructure, 
other existing workforce development systems that have demonstrable 
success should be used as a model for the delivery of green jobs 
training.
    A number of Federal initiatives have been passed in recent years 
designed around green jobs and associated workforce development issues. 
I imagine that this will be a continuing trend in the years to come as 
the Nation grapples with an economy that is moving away from a 
traditional, high greenhouse gas emitting economy, toward a model that 
maintains vigorous economic growth while being more eco-friendly.
    In 2007, as a part of the Energy Independence and Security Act, the 
Congress enacted and President Bush signed into law the Green Jobs Act 
of 2007. More recently, the American Recovery and Reinvestment Act 
included $500 million to fund training activities research, labor 
exchange and job training projects that prepare workers for careers in 
the energy efficiency and renewable energy industries specified in the 
Green Jobs Act. This law lays a foundation upon which successful 
workforce development and green jobs training can be based. Such a 
foundation includes market research, partnerships, and workforce 
development programs that can place disadvantaged workers onto pathways 
out of poverty and into secure careers that can help build families and 
communities.

                         BUILDING PARTNERSHIPS

    When it comes to training, the Building and Construction Trades 
Department and our member unions are not only believers in forming 
partnerships. We are practitioners. One of the predominant features of 
most of our union's training structure is the partnerships that exist 
between the workers and our contractor employers. Even outside the 
construction sector, many unionized employers rely on labor/management 
committees to help develop and deliver needed training to workers.
    As permitted and encouraged by the Green Jobs Act, other outside 
partners are often included within our training structures. 
Partnerships with community colleges, community-based organizations, 
environmental groups, and others are commonplace. These existing 
relationships and the established training infrastructure allow for the 
efficient and cost effective delivery of training services. In 
Cleveland, OH, for example, the Painters and Allied Trades union has 
forged a partnership with Cuyahoga Community College to offer a number 
of courses to painters across the country, including ``Interpreting and 
Bidding Green Bid Specifications.''
    In many trades, our building and construction unions have enduring 
partnerships with their management counterparts. The United Association 
(UA), for example, our union in the plumbing and pipefitting industry, 
is a founding member of the Green Mechanical Council, an alliance of 
manufacturers, skilled professionals, universities, and other 
organizations dedicated to promoting environmentally friendly equipment 
and processes that maximize energy efficiency, conserves water, and 
uses renewable and sustainable fuel sources. The ``Green Mech'' Council 
specifies the most efficient systems available for home and commercial 
applications across the Nation.
    In March 2008, the UA unveiled a remarkable Green Training Trailer 
that is touring the country to introduce UA apprentices, journey-level 
workers, and green building expo participants to renewable energy 
technologies and sustainable building concepts. The 40-foot-long mobile 
classroom provides an overview of a number of power generating 
technologies, including fuel cells, wind power, and solar photovoltaic 
systems. Visitors to the trailer will be able to gain hands-on 
experience with these technologies, and take classes that lead towards 
a Green Awareness Certification. The UA Training Department alone 
spends $110 million annually on apprenticeship training, skill 
upgrading and other skill development activities.
    Members of the Bricklayers and Allied Craftworkers (BAC) union are 
skilled in the practice of ``sustainable masonry'' that uses a variety 
of building materials that meet environmental specifications. The 
Bricklayers have had a long-standing partnership with contractors 
through the International Masonry Institute (IMI), a joint labor 
management training and production organization that has increased its 
focus on sustainable practices such as proper waste disposal and 
material recycling. The BAC and IMI develop partnerships with specific 
companies that produce advanced building materials that promote 
sustainability and create jobs for highly skilled craft workers. One 
such company is SEALTECH Block, which manufactures--in two U.S. 
facilities--construction blocks that are inherently water resistant, 
have a smooth texture (which reduces the need for maintenance), and 
contain 10 percent recycled material. SEALTECH blocks exceed 
environmental standards and have been certified to earn LEED points 
when installed in facilities. Union bricklayers are certified to 
install products by SEALTECH through BAC/IMI training programs. Once 
installed by union craft workers, SEALTECH guarantees the integrity of 
their product. This labor-management alliance reveals how sustainable 
building creates jobs for American manufacturers, benefits construction 
clients--such as Target stores, which has used SEALTECH products in 
multiple locations--and expands employment opportunities for high 
skill, union craft workers making family-sustaining wages.
    In addition, these partnerships around green jobs are not limited 
to the building and construction trades. They stretch into 
manufacturing industries, the service and government sector, and high 
technology communication firms.
    The International Association of Machinists and Aerospace Workers 
(IAM), for example, are aggressively working to create government 
policies and implement business practices that promote investment in 
the modernization of the infrastructure and the creation of new green 
jobs. The IAM was instrumental in the development of the Connecticut 
Hydrogen-Fuel Cell Coalition, a business development organization 
composed of representatives of the State's fuel cell and hydrogen 
industry, labor, academia, State agencies, and other stakeholders. At 
UTC Power in South Windsor, CT, IAM members in Local 1746/District 26 
manufacture fuel cells for on-site power and transportation systems. At 
this facility, they work with scientists and engineers to build 
prototypes for the next generation of hydrogen fuel cells. Fuel cells 
from UTC Power that were built by IAM members are now being used on 
zero emission hybrid buses operated by Connecticut Transit and AC 
Transit of Oakland, CA. The 40-foot hybrid fuel cell buses have zero 
harmful tailpipe emissions and achieve twice the fuel economy of a 
regular bus.
    In Washington State, for example, the Machinists union is working 
with Edmonds Community College to develop composite materials training 
programs for workers in the aerospace manufacturing industry. The 
college has an extensive selection of courses in Materials Science 
Technology, leading to a 2-year degree and the opportunity to 4-year 
certification in industrial engineering or technical management. These 
new high-tech materials are critical for reducing aircraft weight, 
which in turn reduces fuel consumption.
    Partnerships such as these help American industries recognize new 
trends in technology development and deployment, along with innovative 
construction and production techniques which, in turn, necessitate 
upgrades in training programs so that workers have the appropriate 
skill sets that range from basic skills through advanced technical 
training in specific technologies.

              PATHWAYS OUT OF POVERTY AND NEW INITIATIVES

    The Green Jobs Act provides for grants to be made to eligible 
entities to carry out training that leads to economic self-sufficiency. 
The act directs the Secretary of Labor to give priority to entities 
that serve individuals in families with income of less than 200 percent 
of the sufficiency standard for the local areas where the training is 
conducted. Eligible entities for these grants include community-based 
nonprofit organizations, educational institutions with expertise in 
serving low-income adults or youth, public or private employers, and 
labor organizations.
    Providing workers from disadvantaged communities the opportunity to 
move into higher to wage occupations is perhaps one of the greatest 
potential benefits of creating an economy that lowers greenhouse gas 
emissions. Sound investments into workforce development and training 
can help to revitalize depressed communities, restore financial 
security to millions of workers, while helping to create a skilled and 
efficient workforce for American employers.
    We strongly believe that the creation of green jobs should address 
issues of social equity and should lead to new employment opportunities 
for individuals from economically distressed or disadvantaged 
communities. The expansion of green jobs should help those who have 
been disproportionately impacted by the economic crisis and have been 
historically excluded from the benefits of economic growth and 
development. Training should be provided by legitimate and established 
programs that lead to lifetime careers, require high levels of skills, 
and offer high levels of compensation to sustain families and 
communities. Union-based and certified apprenticeship programs, as well 
as new initiatives, should play a central role in meeting the workforce 
development demands of the economic recovery.
    One of the most promising new initiatives in which we are involved 
is called the ``Emerald Cities'' Project. For the past few months, 
America's Building Trades Unions have been collaborating intensively on 
a national basis with community and green organizations to create 
``high-road'' jobs around green building retrofit activities in 
targeted cities around the country.
    We hope the Emerald Cities initiative will provide models for how 
community and labor coalitions can help green our cities while 
providing family-sustaining career pathways for workers from 
disadvantaged communities.
    Further, we hope that the Emerald Cities project, as well as many 
other initiatives that seek to marry the demands for a less-carbon 
centric economy with the potential for significant job growth, will 
become centered upon the advantages that are inherent in Community 
Workforce Agreements, or as they are more commonly known--project labor 
agreements.
    Community Workforce Agreements (CWA) are pre-hire collective 
bargaining agreements that establish the terms and conditions of 
employment on one or more construction projects.
    The value of a CWA revolves around the fact that construction 
employers typically do not have a permanent workforce. This makes it 
difficult for them to predict labor costs when bidding on contracts and 
to ensure a steady supply of labor on contracts being performed. 
Challenges also arise due to the fact that construction projects 
typically involve multiple employers at a single location. A labor 
dispute, or skilled manpower shortage, involving one employer or craft 
can delay the entire project. A lack of coordination between and among 
contractors and sub-contractors, or the uncertainty about the terms and 
conditions of employment of various groups of workers can create 
frictions and disputes in the absence of an agreed-upon resolution 
mechanism.
    From the perspective of the growth and development of green jobs, 
CWAs offer significant social benefits as well. In many instances, 
project owners and community leaders and building trades unions 
frequently negotiate CWAs to address a wide range of local and social 
needs. CWAs can, and do, ensure the hiring of local residents. Many 
recent CWAs are instituting community outreach efforts designed to 
enroll young students in pre-apprenticeship and apprenticeship programs 
that are designed to place them on a path to a secure career in the 
skilled trades. And because local workers are utilized, the project's 
payroll stays in the community and contributes to its prosperity.
    Rebuilding the American economy and rebuilding the middle class 
represent enormous challenges tied to other vexing problems confronting 
the United States and the world, including urban poverty, growing 
unemployment and under-employment, environmental degradation, and the 
need for both energy independence and economic sustainability.
    These challenges cannot be met and these problems cannot be solved 
without the active and enthusiastic participation of America's Building 
Trades Unions, working in partnership with other progressive social 
forces in our society.
    We look forward to this challenge. We are committed to its success.

                               References

Bilginsoy, Cihan. 2003. The Hazards of Training: Attrition and 
    Retention in Construction Industry Apprenticeship Programs. 
    Industrial & Labor Relations Review 57, no. 1: 54-67.
Glover, Robert W., and Cihan Bilginsoy. 2005. Registered Apprenticeship 
    Training in the U.S. Construction Industry. Education + Training 
    47, no. 4/5: 337-49.

    Senator Murray. Thank you very much.
    Joan Evans.

   STATEMENT OF JOAN EVANS, DIRECTOR, WYOMING DEPARTMENT OF 
                WORKFORCE SERVICES, CHEYENNE, WY

    Ms. Evans. Madam Chairman, members of the committee, thank 
you for the opportunity to be with you today, I'm Joan Evans.
    The Wyoming Department of Workforce Services endeavors to 
enhance the skills of our job seekers, and match those 
individuals to employment throughout the State, relying heavily 
on the U.S. Department of Labor, Workforce Investment Act, and 
Wagner-Peyser funding to accomplish this objective. I'd like to 
thank Secretary Solis and the Employment Training 
Administration for their guidance.
    The Department interacts with a variety of industries, 
including green industries, although these do not yet 
constitute a large share of the Wyoming economy. While the 
definition of green jobs varies widely, this testimony assumes 
that green jobs are primarily ones that encompass renewable 
energy, conservation, and energy efficiency.
    The Department of Workforce Services is both proactive and 
reactive in determining the skills needed by industry. For 
example, the Department is actively pursuing a strategy that 
encourages creation of partnerships involving multiple 
businesses within the same industrial sector. Other key players 
in these partnerships are local and State public entities, 
economic development, education and training programs. 
Sometimes referred to as sector solutions, these types of 
partnerships bring together the key workforce development 
players in an atmosphere that encourages collaboration, 
communication, and trust. The goals of these partnerships are 
to assess needs across the entire industry sector and then 
develop solutions. The final step would be to identify training 
or other providers to secure revenue sources to tie to those 
identified issues.
    Through these partnerships, the Public Workforce and 
Education dollars are better focused to help multiple 
businesses within the industry sector, reducing duplication and 
focusing on more efficient use of our taxpayer dollars. The 
Department, in collaboration 
with our Workforce Investment Board, has determined that the 
healthcare and energy sector, including renewable energies, are 
to be the main focus of the Wyoming Industry Partnership 
Initiative.
    The Council has set aside $400,000 in Stimulus funding from 
the Workforce Investment Act--15 percent set aside--to focus 
and support the healthcare and industry partnerships in 
industry and healthcare. Approximately $100,000 of that will 
also be used to enhance worker skills in the renewable energy 
industry.
    The industry partnership concept drew considerable support 
during the 2009 legislative session and a measure was 
introduced that would have codified that initiative and 
provided State funding to support eligible partnerships. 
Although the measure ultimately failed, it achieved a great 
degree of success in educating law makers about the industry 
partnership concept and the potential for workforce 
development.
    Wind energy is emerging as a key green industry in Wyoming, 
and our educational providers are responding. The list is long, 
and in light of other programs being cut at their institutions, 
resources are being directed toward wind technician programs, 
wind-solar-biomass technology training, renewable energy, 
energy efficiency, green electricity, green plumbing, 
construction, and environmental technicians.
    As training providers respond, the Department's 20-plus-1 
stops are able to connect job seekers with training 
opportunities through the Workforce Investment Act and other 
funding sources.
    Wind energy is probably the most visible of the green 
industries in Wyoming, and through another tool, the Wyoming 
Workforce Development Training Fund, which is stocked with 
State dollars, we are able to help eligible businesses train 
new and incumbent workers. During the past year, that fund has 
allowed companies to access training in a variety of green 
practices and assist those employees in sharpening their 
skills.
    Another entity that will significantly impact Wyoming's 
ability to train workers--in renewable energy, specifically--is 
the planned Federal Wind River Job Corps Center, and I'd like 
to recognize Senator Enzi's efforts to support and secure 
funding for this Center.
    It will include a Renewable and Energy Training Center that 
will be a state-of-the-art facility, enabling students to 
acquire the skills they need to work safely in the energy 
industry, but also provide reclamation training, environmental 
studies, renewable energy training, geology exploration, and 
extraction resource training. This Center will open in February 
2011 and provide training to hundreds of youth while also 
creating over 100 permanent jobs in Wyoming.
    The full potential of Wyoming's green industry currently 
may not be known, yet we stand ready to assist our job seekers 
in gaining those skills for this new economy.
    Thank you.
    [The prepared statement of Ms. Evans follows:]

                  Prepared Statement of Joan K. Evans

                 THE WYOMING WORKFORCE SERVICES SYSTEM

    The Wyoming Department of Workforce Services (Department) endeavors 
to enhance the skills of job seekers and match those individuals to 
employment opportunities throughout the State, relying primarily on 
U.S. Department of Labor Workforce Investment Act (WIA) and Wagner-
Peyser funding to accomplish this objective. The Department consults 
with businesses regularly to determine workforce needs and aids job 
seekers in enhancing their skills to meet the needs of business.
    The Department interacts with a wide variety of industries, 
including green industries, although these do not yet constitute a 
significant share of the Wyoming economy. While the definition of green 
jobs varies widely, this testimony assumes that green jobs are 
primarily ones that encompass renewable energy, conservation, and 
energy efficiency.
    The Department of Workforce Services is both proactive and reactive 
in determining the skills needed by industry. For example, the 
Department is actively pursuing a strategy that encourages creation of 
partnerships involving multiple businesses within the same industrial 
sector. Other key players in these industry partnerships are local and 
State public entities encompassing workforce development, economic 
development and education/training programs. Sometimes referred to as 
``sector solutions,'' these types of partnerships bring together the 
key workforce development players in an atmosphere that encourages 
communication, trust and collaboration. The partnerships primary goals 
are to determine workforce needs across an entire industry sector, then 
develop solutions, such as focused recruitment and training for certain 
critical occupations. The final step is to identify training or other 
providers, and secure revenue sources to fund any identified solutions. 
Through these partnerships, public workforce development and education 
dollars are better focused to help multiple businesses within any 
industry sector--reducing duplicative or business-by-business efforts 
and increasing efficient use of taxpayer dollars.
    The Department, in collaboration with the State's Workforce 
Investment Board--the Wyoming Workforce Development Council--has 
determined that the healthcare and energy sectors, including renewable 
energy industries, are to be the main foci of the Wyoming Industry 
Partnership initiative because of their direct impact on Wyoming's 
citizens, both in terms of their ability to impact the broader economy 
and directly provide necessary services for the State's 522,000 
residents. The Council has set aside $400,000 in stimulus funding to 
support healthcare and energy industry partnerships and approximately 
$100,000 to encourage projects that will enhance worker skills needed 
in renewable energy industries.
    The industry partnership concept drew considerable support during 
the 2009 Wyoming legislative session. A measure was introduced that 
would have codified the initiative and provided State funding to 
support eligible partnerships. Although the measure ultimately failed, 
it achieved a degree of success in educating lawmakers about the 
industry partnership concept and its potential for workforce 
development. The stage is set for garnering further legislative support 
in the next lawmaking session.
    In an effort to respond more quickly to statewide workforce needs, 
the Department is requesting a U.S. Department of Labor waiver that 
would allow the University of Wyoming and the State's seven community 
colleges to be approved as Workforce Investment Act training providers 
as a whole. This request, if granted, will remove the case-by-case 
approval process for training programs. If the colleges implement new 
industry training programs, those programs will be automatically 
approved and eligible for WIA funding, allowing quicker reaction to 
business and market needs.
    Because business and industry are more acutely attuned to their own 
markets and workforce needs, the Department will always be reactive to 
a degree, and remains ready to respond quickly to requests by companies 
to aid them in training future and existing employees. The Workforce 
System remains the main broker between industry and training providers.

                     EMERGING GREEN JOBS IN WYOMING

    Wyoming has long been known not only for its pristine mountain 
scenery and wide-open landscapes but also for its seemingly never-
ending wind. Nature's alignment of Wyoming's mountain ranges has 
created what are essentially wind tunnels through many of the State's 
canyons and over its ridge tops. These wind-swept areas are now ground 
zero for an emerging green industry: wind power.
    The number of wind farms is growing rapidly, and Wyoming's 
educational institutions are trying to keep up with demand. Examples of 
the training programs being offered:

    <bullet> Wind Technician Program--offering a variety of training 
options including an Associate of Science degree with a concentration 
of wind energy. The program has 25 students but hopes to expand 
enrollment to 75 by January 2010. The program makes use of the 
Integrated Systems Training Center, of which the Wyoming Department of 
Workforce Services helped to launch through a USDOL grant. The Center 
offers training in electrical, hydraulics, pneumatics, mechanical 
systems, industrial piping, HVAC and other skills.
    <bullet> Wind, solar and biomass technology training that increases 
machinery capacity through preventative maintenance which improves the 
overall efficiencies of the equipment used in the oil, gas and mining 
fields.
    <bullet> Renewable Energy Program--producing well-trained 
technicians through a $295,000 appropriation from the U.S. Department 
of Energy to support construction of a small wind generator testing and 
training site.
    <bullet> Energy Rater Training Seminar--providing course work and 
test preparation for the Residential Energy Services Network Energy 
Rater Certification exam.
    <bullet> Energy Efficient Residential Contractor Training--
providing 2-day training for installation of windows, doors, and 
insulation for individuals interested in starting or expanding their 
own contracting business.
    <bullet> Green Landscaping--offering a workshop on landscaping to 
benefit the environment and save water and energy.
    <bullet> Green Electricity--providing a workshop on environmentally 
responsible and energy efficient electrical products.
    <bullet> Green Plumbing and HVAC--offering a workshop on 
environmentally responsible and energy efficient plumbing products.
    <bullet> Environmental Technician, Health and Safety Technician, 
and Construction Trades--including specific training in Energy Star 
Rating and Radon Testing and Mitigation.
    <bullet> Construction Technology--focusing on building energy 
efficient residential housing using renewable resources and building 
science. According to Sam Rashkin, National Director of Energy Star 
USDOE, this program is one of only two Energy Star programs in the 
country.

    Wind energy is probably the most visible of the green industries in 
Wyoming. A traveler along Interstate 80 through southern Wyoming cannot 
help but notice the vast arrays of wind turbines along notoriously 
windy stretches. Other industries are emerging as well, and are being 
aided by another Department program: the Workforce Development Training 
Fund. This fund, which is stocked with State dollars, offers grants to 
eligible businesses to train their workers. In the past year, the 
Workforce Development Training Fund has allowed companies to access 
training in green building practices, green certifications, energy 
audit training and energy efficiency training. In fact, since July 
2008, the fund has awarded 10 grants totaling $17,317 for green 
training. The fund also provides grants to train workers in skills that 
are transferrable to green industries. For example, a welder or 
electrician can work in traditional energy fields such as oil or coal, 
or help build a wind turbine or new transmission lines to move wind-
generated electricity.
    One particular training success is the Department's Employment 
Training for Self-Sufficiency Program, which enhances the skills of 
low-income parents and improves their wage-earning potential. This 
program has enrolled 60 individuals in the aforementioned Integrated 
Systems Training Center and produced 46 graduates and an average 
starting hourly wage of $12.00 per hour.
    Another entity that will significantly impact Wyoming's ability to 
train workers in renewable energy is the planned Federal Wind River Job 
Corps Center. After receiving roughly $3 million from the U.S. 
Department of Labor, the Renewable and Energy Training Center at the 
Job Corps Center will be a state-of-the-art facility enabling students 
to acquire the skills they need to safely work in the energy industry. 
The Energy Training Center will also provide reclamation training, 
environmental studies, renewable energy training, geology/exploration, 
and extraction resources training.
    The $40 million center will be completed in February 2011 and 
provide job training to hundreds of students aged 16 to 24 while 
creating roughly 120 jobs in the Riverton area. Not only will the 
center provide training in green industries, the facility itself will 
incorporate green features such as solar energy sources so students can 
learn first-hand the benefits that a green facility can provide and 
receive training on how to maintain an environmentally friendly 
facility.
    Wyoming's traditional energy industries, such as coal, oil and 
natural gas, will continue to be dominant players on the State's energy 
landscape; however, renewable energy sources, particularly from wind, 
are growing. (Attachments 1, 2, 3 and 4). The Power Co. of Wyoming is 
moving forward with plans to build 1,000 wind turbines near Rawlins, in 
the southern part of the State, which will create more than 1,000 jobs. 
In addition, the State Board of Land Commissioners recently approved a 
special-use lease for a $4 billion wind farm in Converse County. Added 
to these initiatives, the American Recovery and Reinvestment Act offers 
Wyoming $10 million for weatherization projects which are being 
coordinated by the Wyoming Department of Family Services and will 
greatly enhance the ability to increase energy efficiency for low-
income families. Funding is also being made available for energy 
efficiency work through the State Energy Office of the Wyoming Business 
Council.
    The full potential for Wyoming's green industries currently may not 
be known. Yet the Wyoming Department of Workforce Services is 
anticipating that green jobs will have a growing and significant impact 
on the State's economy and is taking steps to provide trained workers 
for these emerging industries. By efficiently using training and 
support dollars, keeping the pulse on available training and 
collaborating with business, economic developers and training entities, 
the Department is preparing today's workers for tomorrow's green 
workforce.

                              Attachemnt 1

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              Attachemnt 2
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              Attachemnt 3
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              Attachemnt 4
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Murray. Thank you very much to all of you for 
really excellent testimony.
    We will now turn to some questions.
    Mr. Lambert, you described how you really worked in 
partnership--and Joan Evans did, as well--with a lot of your 
communities to develop the curriculum that was relevant to the 
training that you're doing. How did you work to make sure that 
those jobs were going to be relevant inside your own community?
    Mr. Lambert. Madam Chair, what we do is, when we bring 
together the community partners, we bring that process through 
what we call a DACUM or Developing a Curriculum process. As 
part of that, we look at what are the needs out in the 
community for potential employment, so we're not developing a 
program where there isn't a place for students to land.
    It's through that process, and that process focuses on 
other things as well. But I just wanted you to know, that's how 
we figure that out, it's not just the college by itself, but 
with its partners.
    Senator Murray. OK, you really reach out into the 
community.
    Mr. Lambert. Absolutely, absolutely.
    Senator Murray. OK. OK.
    Mr. Lou, a great success story, and it was really 
interesting to hear how you got to where you are today and very 
exciting. How did you ever learn about the solar program at 
Shoreline?
    Mr. Lou. I was speaking with a friend about getting some 
training, and he mentioned that there's a link to the Shoreline 
Community College's photovoltaic training, and it was on a link 
on, I believe, solarenergy.org Web site. I tried to enroll, but 
I was No. 18 on the waiting list. So I waited for the next 
class.
    Senator Murray. You have a long waiting list, Mr. 
President?
    Mr. Lambert. Yes, we have. I mean, the enthusiasm for this 
program goes without saying and what Mike Nelson, our key 
instructor has done, he started to take more people into the 
class so that we wouldn't turn away the Phil Lou's of the 
world.
    Senator Murray. I'm glad you didn't, because he's now 
creating jobs.
    Mr. Lambert. We agree.
    Senator Murray. Mr. Lou, as a practitioner now in the 
field, how do you see the long-term viability and 
sustainability of the energy field and the jobs that are there?
    Mr. Lou. I think there's a great future for it. There's a 
lot of interest on Vashon Island, and because of the large 
number of subscribers to the Puget Sound Energy's Green Power 
Program, we got a grant, excuse me, Sustainable Vashon, an 
organization there, got a grant for two solar arrays to be 
installed. That is one of the three that will be installed next 
month.
    Senator Murray. OK.
    Mr. Lou. There's a good future and there's a lot of 
interest.
    Senator Murray. Mr. Allen, let me ask you that question. 
We've heard some concern that jobs in the green economy won't 
be sustainable or competitive, in other words, not good jobs. 
We've heard some of that criticism. During your time in the 
industry, what's been your impression of the sustainability of 
families supporting jobs in this green economy?
    Mr. Allen. Well, I would have a decidedly different 
viewpoint of that. Our professionals--our average salaries--are 
about the same inside the company on the professional side as 
they are on the installation and construction side. And, 
counting benefits, it's about $100,000 a year. Those would be 
pretty much at the top edge of what's available on the 
construction side and as well on the professional side.
    I think one of the things that's confusing folks--and it's 
not a direct answer to your question--is the difference between 
conservation and efficiency and renewables. Sometimes I think 
in the marketplace we use those together.
    Conservation is primarily about changing behaviors and 
having products available to us that help us do that. On the 
other side of the spectrum are renewables, which are coming to 
us and certainly exciting to see them moving in the direction 
that they are.
    I mean, we're primarily in the middle of that with energy 
efficiency. The energy efficiency jobs are primarily on design 
and engineering and the ideation side of it, and then craftsmen 
and craftswomen actually doing the work on the installation 
side, and then the maintenance and operations there after. They 
are all family-wage jobs or above.
    Senator Murray. All right.
    In your testimony, you talked a lot about your own 
investment in training your workforce. Can you talk a little 
bit about McKinstry's return on investment for providing 
training and education opportunities for your employees?
    Mr. Allen. Well, yes, we don't actually start with a notion 
of a return on investment, we start with the notion that that's 
what companies ought to be doing for the people that they have 
the pleasure of employing. For our 49 years in business, it's 
been a people-first kind of an organization. We have had this 
enterprise we call McKinstry University for all the 30 years 
that I have been at McKinstry.
    It continues to grow because the world changes faster and 
the economy changes faster. As we have gone from having a 
couple people working in energy efficiency 10 years ago to 
having 500 people working, we've needed to take folks that were 
either outside the marketplace and didn't have the skills we 
needed, or already working for us and moving from one part of 
our company to another and provide them the training they 
needed to take good care of our customers.
    We don't think of this as something that has an ROI 
relative to the profits of the company, this is sort of first 
and front and center for the job we have to do.
    With that said, we have been able to take advantage of the 
changes in the marketplace, and by having our staff ready and 
trained, it's helped us grow much faster than others.
    Senator Murray. OK.
    Senator Enzi.
    Senator Enzi. Thank you, Madam Chairman. This has been 
fascinating and helpful.
    I do remember when I went to graduate school--and that's 
been 40 years ago--that my most fascinating professor said, 
``The future is in stopping pollution.'' He's become more right 
all the time. It's interesting that we're discussing this now.
    When it comes to Wyoming, we've been trying to get people 
to come there to get jobs. We have a little different problem 
than some of the other States that have huge unemployment. We 
have some unemployment, but it's because of a lack of skills, 
people not having the training in the jobs that are available, 
but there's some real high-tech jobs and nontraditional jobs 
for women that helped close that pay gap if we could just get 
them trained for them.
    Director Evans, I appreciate all the work that you've done 
in that area. In light of that, I'd ask you how the Workforce 
Investment Funds have been used, if at all, in Wyoming for the 
green skills training? What models have been adopted in Wyoming 
that might be useful for other people in other States?
    Ms. Evans. Senator Enzi, thank you for the question. At 
this time we are focusing on skill development. Our 
unemployment is hovering just under 4 percent statewide and we 
do have employers that need skilled labor, and that need is 
still there.
    When trying to track data through our database systems, one 
thing that becomes clear is that we don't really have a way, 
yet, to separate training that we provide our job seekers with 
under the Workforce Investment Act, whether--to tie it directly 
to green skills or green jobs. That's something that, as we 
move forward, we may need to look at whether that will be a 
necessary component.
    If we are providing training to a job seeker under the 
Workforce Investment Act for welding, is it for a regular 
welding job? Will they be incorporating a different skill set, 
and how is that training different from training we may have 
provided them for a different occupation? Some of that may be 
good to know.
    We do have information, though, because of our connections 
with the community college system, to know that we are using 
their training programs to train folks that are going to work 
directly in wind energy, working on the wind turbines that are 
located in the State. Using some of those existing training 
programs, for one instance, at Laramie County Community College 
where they already had a training program for hydraulics and 
HVAC and those kinds of skills, they've done some adaptations 
that have been able to get our students and our job seekers 
some transferable skills into green industry, and then they're 
able to go out and serve those employers who are in need of 
those skills right now.
    I'm very proud of the way that our community college system 
has been able to respond.
    Senator Enzi. Thank you, and I'll have some more questions 
that I'll submit, too, so that we can build the record a little 
more extensively with respect to rural areas.
    Mr. Allen, you mentioned that your first area of attack has 
been on efficiency and the second one on renewables. Is there 
enough marketing in that area? I know that I just found out 
that my furnace in the home in Wyoming, which we've owned--it's 
the only home we've owned--is over 30 years old, and we figured 
that it needed to be replaced pretty soon. We were surprised to 
find out that the efficiencies would pay it off. What kind of 
things are being done on the marketing end to drive the demand 
for the green jobs?
    Mr. Allen. Well, I think we certainly are doing part in the 
marketing side, we're primarily on the commercial side. I know 
a lot of good work is being done in the Pacific Northwest by 
our utilities that are trying to use the direct connection they 
have with customers that are consuming utilities, either 
electrical or natural gas, with the options that are available 
to them.
    On the commercial side, what we're mostly doing is trying 
to publicize our successes. We are actually currently working 
in the State of Wyoming, so we're glad to be there doing energy 
efficiency projects, but I think one of the things that we've 
been successful doing is sort of showing rural communities how 
they can make a difference.
    An example project would be one where we actually worked 
with a sustainable forestry operation and helped them purchase 
a pelletizer that made wood chips from these beetle-kill 
projects where they are trying to harvest the timber out. They 
end up with a lot of scrap, they put those into pellets.
    We then worked with a rural school district and converted 
their oil heaters for the school district to biomass boilers, 
signed a 10-year contract between the sustainable forestry 
operation and the school district, and now we have a closed 
loop carbon cycle all paid for on cost avoidance.
    If we can get people to understand that there are solutions 
that are available today in the sustainable energy area, that 
we'll get more traction, and create more jobs.
    Senator Enzi. Thank you. Your response reminds me I have an 
inventors conference this weekend, and my youngest inventor was 
an 8-year-old who figured out to take tumbleweeds and make 
those into those pressed chips as well, and they can be 
recycled.
    I have questions for the rest of you, but my time has 
expired. I will be asking some questions about how much 
flexibility there is with green jobs so that when we 
reauthorize the Workforce Investment Act we can match up what 
we're trying to do with the larger workforce system.
    Thank you, Madam Chairman.
    Senator Murray. Senator Enzi, unless you have any 
additional questions to the panel, we have run out of time.
    I want to thank everyone who has testified today, excellent 
testimony. We will have some written questions from some of the 
Senators who were not able to make the hearing, and we would 
request that you respond back to those in a timely fashion.
    This has been especially helpful to our committee as we 
work toward reauthorizing the WIA Act and making sure that the 
Economic Recovery dollars are spent in a way that actually 
really provides great training for young people out there.
    Thank you very much to all of you.
    For any members who want to submit a statement for the 
record, the hearing record will be open for 7 days.
    And with that, this hearing is adjourned.
    Thank you very much.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

                 Prepared Statement of Senator Kennedy

    I join in welcoming Secretary Solis to today's hearing, and 
I wish I could be there in person. I look forward very much to 
her testimony on the Department of Labor's plan to create jobs 
and provide job training to those seeking employment in the 
rapidly developing green sectors of our economy, so that our 
workers can develop the education and employment skills they 
need to enter the green workforce, earn family-sustaining 
wages, and move up the career ladder.
    As Robert Pollin of the University of Massachusetts-Amherst 
said of the Recovery and Reinvestment Act's $70 billion funding 
of green initiatives, ``It's the first time the notion that 
investment in a clean-energy economy is connected officially in 
government policy with the idea of job creation.'' Let's work 
together to see that it is not the last time this important 
connection is made.
    We currently face large challenges on the economy and the 
environment--a severe recession with rising unemployment, 
unacceptable high school dropout rates, an increasingly 
competitive global economy, and an ever more pressing call to 
protect the environment. We also, however, have large 
opportunities, thanks to the leadership of President Obama and 
the enduring spirit of American workers. By wisely investing in 
green job training, we can prepare Americans for steady jobs, 
develop needed new technologies, reassert our pre-eminent 
position in the global economy, and significantly reduce the 
growing danger to the environment.
    Green jobs can improve our Nation's economy and environment 
and strengthen America's middle class.

    <bullet> The American Solar Energy Society reports that in 
2007, renewable energy and energy efficiency technologies 
``generated more than 9 million jobs, more than $1 trillion in 
revenues, and nearly $105 billion in Federal, State, and local 
tax revenues.'' Revenues in these industries surpassed the 
combined sales of Wal-Mart, Exxon-Mobil, and General Motors, 
which totaled $905 billion that year.
    <bullet> The work performed in green jobs reduces 
consumers' electric and water bills, and reduces our dependency 
on foreign oil.
    <bullet> Green jobs are less likely to be outsourced, and 
pay 10 to 20 percent more than other jobs.

    Green industry sectors have strong potential for future 
growth as well. Under the Energy Independence and Security Act 
of 2007, the United States must produce 36 billion gallons of 
renewable fuels, such as ethanol, by 2022. The development of 
solar photovoltaics, just one part of the solar energy 
industry, is estimated to grow from a $20 billion industry in 
2007 to $74 billion by 2017. Wind energy, the fastest-growing 
form of energy generation, is expanding by 30 percent to 40 
percent every year. We obviously now have a unique opportunity 
to empower many more workers, young and old, to protect the 
environment, boost the economy, and increase individual self-
sufficiency. It's an opportunity we can't afford to miss.
    We know that economic expansion cannot take place without a 
well-trained workforce. It's essential that we provide the 
necessary resources to give workers the access to the training 
they'll need for jobs in green industries. Such training is 
especially important for the many men and women who are 
suffering the most today from the economic crisis.
    Our witnesses on today's second panel will tell us much 
more about which skills should be cultivated, which programs 
should be encouraged, and how partnerships between government, 
business, organized labor, and education can benefit everyone 
involved. In particular, I look forward to hearing more from 
President Ayers of the Building Trades, who has been an 
important leader in developing partnerships to provide skill-
building opportunities and good middle-class jobs for employees 
in green industries. It's essential to identify the specific 
skills that can contribute most to success in green careers. 
Opportunities are increasingly available at all levels of such 
careers, from management and consulting to boots-on-the-ground 
green collar jobs.
    The timing has never been better for a new commitment to 
workforce development and the environment. I look forward to 
working with my colleagues and the Administration to use the 
talents and develop the skills of our workers to get our 
economy back on track now and ensure a prosperous, greener 
future for our children.

    Prepared Statement of Associated Builders and Contractors (ABC)

    Associated Builders and Contractors (ABC) appreciates the 
opportunity to submit the following statement for the official record.
    We would like to thank the Committee Chairman, Edward Kennedy and 
Ranking Member Michael Enzi, as well as the members of the Senate 
Committee on Health, Education, Labor, and Pensions for holding today's 
hearing entitled ``Empowering Workers to Rebuild America's Economy and 
Longer-Term Competitiveness: Green Skills Training for Workers.''
    ABC is a national construction industry trade association 
representing more than 25,000 merit shop contractors, subcontractors, 
materials suppliers and construction-related firms within a network of 
79 chapters throughout the United States and Guam. ABC member 
contractors employ more than 2.5 million skilled construction workers, 
whose training, skills, and experience span all of the 20-plus skilled 
trades that comprise the construction industry. Moreover, the vast 
majority of our contractor members are classified as small businesses. 
Our diverse membership is bound by a shared commitment to the merit 
shop philosophy in the construction industry. This philosophy is based 
on the principles of full and open competition unfettered by the 
Government, nondiscrimination based on labor affiliation, and the award 
of construction contracts to the lowest responsible bidder through open 
and competitive bidding. This process assures that taxpayers and 
consumers will receive the most for their construction dollar.
    ABC member companies have been at the forefront of green 
construction since before this terminology came into fashion. In fact, 
ABC has been at the forefront of the green building movement since its 
inception. ABC member SIGAL Construction was a founding member of the 
U.S. Green Building Council (USGBC) as well as one of the authors of 
the Leadership in Energy and Environmental Design (LEED) rating system. 
ABC members continue leading the construction industry by utilizing 
sustainable construction methods and practices. According to 
Engineering News-Record in 2008, 53 of the Top 100 Green Contractors 
were ABC members generating close to $15 billion in revenue with more 
than 2,800 LEED Accredited Professionals (APs) on staff. (Attachment)
    ABC chapters and member companies are actively engaged in training 
workers in a wide variety of skilled occupations and are constantly 
striving to keep pace with technology and innovation in order to make 
certain America has the skilled workforce it deserves, and that all 
American workers, regardless of union affiliation, enjoy equal 
opportunity of access to critical job training. However, the continued 
participation of open shop contractors, and the job opportunities for 
over 84 percent of the construction workforce they employ, in the 
booming green building market is threatened by the efforts of many in 
Washington, DC to exclude non-union companies and training providers 
from participating in new government-funded green jobs training 
programs.
    The Green Jobs Act, enacted as part of the ``Energy Independence 
and Security Act of 2007'' which was signed into law in December 2007, 
establishes National Energy Training Partnership Grants to fund 
training programs targeted at creating an efficient energy and 
renewable energy skilled workforce. Specifically, the Green Jobs Act 
would require any entity applying for these grants to partner with 
organized labor. The reality is that this language would bar the 
numerous open shop training programs from receiving this grant funding.
    Organized labor makes up just 15.6 percent of the private 
construction workforce and likely represents a similar amount of work 
in the green building market. Given the desire to see a continued 
increase in the use of green building and green technology, it seems 
that limiting the ability to participate in green training to such a 
small percentage of the construction industry would make this growth 
difficult. If the green building market is going to continue to expand 
in the coming years as some groups predict, the participation of the 
open shop will be a crucial factor in ensuring there are enough skilled 
workers to meet the demand.
    To that end, ABC, along with many other construction and business 
groups, strongly supports the ``Green Jobs Improvement Act'' soon to be 
introduced in the U.S. House of Representatives by Congressman John 
Kline which would amend the Workforce Investment Act to allow both 
union and open shop training providers access to the federally funded 
energy efficiency and renewable energy worker training programs. This 
bill would give all workers the opportunity to train in the ever 
increasing field of green construction and would not block certain 
training providers access simply because they choose not to be 
affiliated with organized labor.
    The advances in the technology and skill involved in green 
building, and the benefits of their use, is indeed a welcome trend for 
contractors, skilled workers and the end user. It is our view that the 
most efficient path to encouraging this continued growth of this sector 
is by giving all training providers, regardless of union affiliation, 
access to Federal training programs so that the greatest numbers of 
workers can be trained in green jobs. In today's tough economic times, 
especially in the construction industry, Members of Congress have a 
responsibility to provide all workers with training opportunities paid 
for by their tax dollars.
    Again, thank you for your work, and we look forward to your 
continued efforts to promote green building opportunities for all 
contractors.
                                 ______
                                 
                               Attachment

    According to Engineering News-Record in 2008, 53 of the Top 100 
Green Contractors were ABC members generating close to $15 billion in 
revenue with more than 2,800 LEED APs on staff. http://
enr.construction.com/people/topLists/GreenCont/topGreenCont_1-50.asp.


----------------------------------------------------------------------------------------------------------------
                  Rank                               Firm                APs              07 Green Rev
----------------------------------------------------------------------------------------------------------------
                  2008                      ABC members highlighted   On staff           $ MIL            % REV
----------------------------------------------------------------------------------------------------------------
1.......................................  The Turner Corp., New            429                 1,805.05       19
                                           York, NY.
2.......................................  Webcor Builders, San
                                           Mateo, CA.
3.......................................  Skanska USA Inc.,                164                 1,242.34       22
                                           Whitestone, NY.
4.......................................  Bovis Lend Lease, New            201                  1,075.5       20
                                           York, NY.
5.......................................  Swinerton Inc., San              195                    1,046       52
                                           Francisco, CA.
6.......................................  PCL Construction                  18                   936.71       19
                                           Enterprises Inc., Denver,
                                           CO.
7.......................................  Clark Group, Bethesda, MD.        85                   752.97       18
8.......................................  Hensel Phelps Construction        68                   747.68       30
                                           Co., Greeley, CO.
9.......................................  Gilbane Building Co.,            186                   651.87       22
                                           Providence, RI.
10......................................  The Haskell Co.,                  17                      562       79
                                           Jacksonville, FL.
11......................................  Hunt Construction Group           25                   527.32       26
                                           Inc., Scottsdale, AZ.
12......................................  L.F. Driscoll Co., Bala
                                           Cynwyd, PA.
13......................................  Hoffman Corp., Portland,
                                           OR.
14......................................  The Whiting-Turner
                                           Contracting Co.,
                                           Baltimore, MD.
15......................................  Sundt Construction Inc.,          74                    440.3       49
                                           Tempe, AZ.
16......................................  Clayco Inc., St. Louis, MO
17......................................  The Weitz Co. LLC, Des            58                   349.33       22
                                           Moines, IA.
18......................................  Austin Industries, Dallas,        47                    345.9        2
                                           TX.
19......................................  David E. Harvey Builders          13                      337       47
                                           Inc., Houston, TX.
20......................................  Holder Construction Co.,
                                           Atlanta, GA.
21......................................  Balfour Beatty                    50                   273.58       12
                                           Construction, Dallas, TX.
22......................................  The Facility Group,
                                           Smyrna, GA.
23......................................  B.L. Harbert International         5                    267.1       63
                                           LLC, Birmingham, AL.
24......................................  JE Dunn Construction             133                    266.5       10
                                           Group, Kansas City, MO.
25......................................  William A. Berry & Son
                                           Inc., Danvers, MA.
26......................................  Caddell Construction Co.           4                   256.54       74
                                           Inc., Montgomery, AL.
27......................................  Structure Tone, New York,        140                   248.43        7
                                           NY.
28......................................  Opus Group, Minnetonka, MN        92                    225.3       12
29......................................  FTR International Inc.,
                                           Irvine, CA.
30......................................  Stellar, Jacksonville, FL.        25                    199.9       36
31......................................  HITT Contracting Inc.,            17                   199.04       22
                                           Fairfax, VA.
32......................................  James G. Davis
                                           Construction Corp.,
                                           Rockville, MD.
33......................................  Pepper Construction Group,
                                           Chicago, IL.
34......................................  M.A. Mortenson Co.,
                                           Minneapolis, MN.
35......................................  Suffolk Construction Co.          56                   170.06       15
                                           Inc., Boston, MA.
36......................................  DPR Construction Inc.,           211                   167.22       11
                                           Redwood City, CA.
37......................................  Linbeck, Houston, TX......
38......................................  Hathaway Dinwiddie
                                           Construction, San
                                           Francisco, CA.
39......................................  Messer Construction,              11                    146.5       22
                                           Cincinnati, OH.
40......................................  TLT Construction Corp.,
                                           Wakefield, MA.
41......................................  The Walsh Group, Portland,        20                    136.5       52
                                           OR.
42......................................  The Walsh Group Ltd.,             44                   135.47        4
                                           Chicago, IL.
43......................................  Barton Malow Co.,                 40                   133.24        9
                                           Southfield, MI.
44......................................  Okland Construction Co.
                                           Inc., Salt Lake City, UT.
45......................................  McCarthy Holdings Inc.,
                                           St. Louis, MO.
46......................................  Power Construction Co.
                                           LLC, Schaumburg, IL.
47......................................  Andersen Construction Co.,
                                           Portland, OR.
48......................................  Duke Construction,
                                           Indianapolis, IN.
49......................................  Grunley Construction Co.           9                   109.06       41
                                           Inc., Rockville, MD.
50......................................  Lauth Construction Group
                                           LLC, Indianapolis, IN.
51......................................  Cox & Schepp Construction          8                      105       50
                                           Inc., Charlotte, NC.
52......................................  Barnhart Inc., San Diego,
                                           CA.
53......................................  Saunders Construction
                                           Inc., Centennial, CO.
54......................................  Ryan Cos. US Inc.,                47                   101.25       10
                                           Minneapolis, MN.
55......................................  Pioneer General
                                           Contractors, Grand
                                           Rapids, MI.
56......................................  Sellen Construction Co.
                                           Inc., Seattle, WA.
57......................................  Bernards, San Fernando, CA
58......................................  BE&K Inc., Birmingham, AL.        22                    79.48        5
59......................................  Kraus-Anderson
                                           Construction Co.,
                                           Minneapolis, MN.
60......................................  Lusardi Construction Co.,          0                       77       25
                                           San Marcos, CA.
61......................................  Consigli Construction Co.
                                           Inc., Milford, MA.
62......................................  The Yates Cos. Inc.,              25                     75.2        4
                                           Philadelphia, MS.
63......................................  C.W. Driver, Pasadena, CA.        18                    75.01       13
64......................................  Hall Building Corp.,
                                           Farmingdale, NJ.
65......................................  New South Construction             7                     73.8       47
                                           Co., Atlanta, GA.
66......................................  McGough Construction, St.
                                           Paul, MN.
67......................................  Mascaro Construction Co.
                                           LP, Pittsburgh, PA.
68......................................  Forrester Construction            40                       70       26
                                           Co., Rockville, MD.
69......................................  Lease Crutcher Lewis,
                                           Seattle, WA.
70......................................  Reno Contracting Inc., San        11                    66.16       30
                                           Diego, CA.
71......................................  Rockford Construction Co.,         6                    63.73       18
                                           Grand Rapids, MI.
72......................................  The Boldt Co., Appleton,
                                           WI.
73......................................  P.J. Dick-Trumbull-Lindy,
                                           West Miflin, PA.
74......................................  Shawmut Design and
                                           Construction, Boston, MA.
75......................................  The Korte Co., Highland,
                                           IL.
76......................................  Brasfield & Gorrie LLC,            7                    49.72        2
                                           Birmingham, AL.
77......................................  O & G Industries Inc.,
                                           Torrington, CT.
78......................................  INTECH Construction Inc.,
                                           Philadelphia, PA.
79......................................  CORE Construction Group,          20                     48.4        9
                                           Morton, IL.
80......................................  Manhattan Construction            15                     43.7        4
                                           Co., Tulsa, OK.
81......................................  Continental Building
                                           Systems, Columbus, OH.
82......................................  XL Construction Corp.,
                                           Milpitas, CA.
83......................................  Workstage, Grand Rapids,
                                           MI.
84......................................  Adolfson & Peterson               48                     40.4        5
                                           Constr., Minneapolis, MN.
85......................................  Butz Enterprises Inc.,
                                           Allentown, PA.
86......................................  JM Olson Corp., St. Clair
                                           Shores, MI.
87......................................  Davis Constructors &
                                           Engineers Inc.,
                                           Anchorage, AK.
88......................................  IMC Construction, Malvern,
                                           PA.
89......................................  Hoar Construction LLC,            15                     35.4        7
                                           Birmingham, AL.
90......................................  Nabholz Construction              10                     34.2        8
                                           Corp., Conway, AZ.
91......................................  Tarlton Corp., St. Louis,
                                           MO.
92......................................  Harper Construction Co.            5                     31.6       23
                                           Inc., San Diego, CA.
93......................................  Creative Contractors Inc.,         4                    31.12
                                           Clearwater, FL.
94......................................  F.A. Wilhelm Construction
                                           Co. Inc., Indianapolis,
                                           IN.
95......................................  Moss & Associates LLC,            26                     28.9        4
                                           Fort Lauderdale, FL.
96......................................  Coakley & Williams                 8                     24.5        9
                                           Construction,
                                           Gaithersburg, MD.
97......................................  Elkins Constructors Inc.,          6                    20.87        9
                                           Jacksonville, FL.
98......................................  Weis Builders Inc.,               15                    20.79        4
                                           Minneapolis, MN.
99......................................  Sahara Inc., West                  4                     20.6       23
                                           Bountiful, UT.
100.....................................  Gray Construction,                 5                    19.46        4
                                           Lexington, KY.
                                                                          2809          $14,990,700,000
----------------------------------------------------------------------------------------------------------------

   Prepared Statement of the Independent Electrical Contractors (IEC)
    The Independent Electrical Contractors (IEC) and its 2,700 
electrical contractor members would like to thank the committee for 
holding today's hearing on ``Empowering Workers to Rebuild America's 
Economy and Longer-Term Competitiveness: Green Training for Workers.''
    Through its Department of Labor-certified, chapter-based training 
programs, IEC trains thousands of apprentice electricians every year, 
along with providing continuing education for contractors and 
journeymen, while constantly striving to keep pace with technology and 
innovation in order to make certain America has the skilled workforce 
it deserves and that all American workers, regardless of union 
affiliation, enjoy equal opportunity of access to critical job 
training.
    IEC strongly supports the concept of green jobs training in order 
to meet the growing demand within the marketplace and have been 
adapting their training methods to prepare workers for this ever-
expanding segment of the construction industry.
    However, the continued participation of IEC members and all merit 
shop contractors, and the job opportunities for 84 percent of the 
construction workforce they employ, is threatened by the requirements 
contained within the Green Jobs Act (Title X of P.L. 110-140).
    The Green Jobs Act establishes training grants to fund training 
programs targeted at creating an efficient energy and renewable energy-
skilled workforce. Specifically, the Green Jobs Act would require any 
entity wanting to apply for these grants to partner with a labor 
organization in order to be eligible for funding. The reality is that 
this language would bar the numerous merit shop training programs from 
receiving this grant funding.
    The title of this hearing is ``Green Building Training for 
Workers''. It is important to note that no reference to the union 
affiliation of the workers being trained is part of the committee's 
hearing nor should it be. Open competition between all segments of the 
construction industry is the surest way to obtain both cost efficiency 
and high quality work product. Limiting the ability to participate in 
green training to the 16 percent of the workforce that belongs to a 
labor union would make the continued expansion of the green market, 
which some predict to double in coming years, extremely difficult.
    Also, by limiting the ability of a vast majority of the 
construction workforce to participate in green job training, the Green 
Jobs Act will increase the costs of constructing new green building by 
limiting the competition for the contracts.
    There is also a concern that the merit shop construction industry 
may be further deprived of an equal opportunity to participate in the 
green building market, should the Federal Government apply the 
requirements of the Green Jobs Act to ``green'' government contracts, 
thus limiting those contracts to companies that train their workers in 
programs aligned with organized labor.
    IEC encourages this committee to support passage of the Green Jobs 
Improvement Act (H.R. 2026), which would promote open competition for 
these Federal funds by removing the restrictive mandate that a training 
program partner with a labor order to be eligible for a taxpayer funded 
program.
    Again, I would like to thank the committee for accepting IEC's 
statement for the record as part of this hearing. IEC will continue to 
provide our members and their valued employees with the skill-set and 
education necessary to meet the demands of the green building market, 
and we remain hopeful that our federally recognized training programs 
will be given the opportunity to compete for these new grants.
                                 ______
                                 
     The Associated General Contractors of America 
                                             (AGC),
                                  Arlington, VA 22201-3308,
                                                    April 20, 2009.
Hon.  Edward M. Kennedy, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

Hon. Michael B. Enzi, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S . Senate,
Washington, DC 20510.

    Dear Chairman Kennedy and Ranking Member Enzi: The Associated 
General Contractors of America believes that ``green jobs'' will play 
an important role in the Nation's economic recovery because many green 
jobs, both in the energy-efficiency and renewable-energy sectors, are 
traditional construction jobs that pay well, offer opportunities for 
advancement, are accessible to minorities, and cannot be outsourced 
overseas. However, our nationwide association of 33,000 firms working 
in the commercial construction industry is concerned about the Federal 
Government's efforts to direct money to train workers for ``green 
jobs'' without a universally accepted definition of a ``green job.''
    If one defines a ``green job'' as: ``Jobs that have a direct, 
positive impact on the environment''--as did the Washington State 
Employment Security Department in a January 2009 report--then a 
laborer, electrician, mason, construction manager, heavy equipment 
operator, supervisor, carpenter, painter, or any other construction 
worker helping to retrofit an existing building, construct a new green 
building, or perform some other traditional construction task necessary 
to build and connect a renewable energy source to the Nation's power 
grid--such as erecting a windmill or installing solar panels--is a 
``green collar'' worker.
    The U.S. Office of Management and Budget (OMB), in its recent 
update of the standard occupational classification (SOC) system, 
``analyzed over 80 unique suggestions regarding `green' occupations,'' 
rejecting all but two--wind turbine service technician and solar 
photovoltaic installer. In explaining its final decision in the January 
21, 2009 Federal Register, OMB noted: ``In many cases, the work 
performed in the `green' job was identical or similar to work performed 
in existing SOC occupations.''
    The recent report: ``U.S. Metro Economies: Green Jobs in U.S. Metro 
Areas,'' prepared for the U.S. Conference of Mayors and the Mayors' 
Climate Protection Center, noted:

          ``We should not expect to see a new industry populated by a 
        new breed of `green construction workers.' As green building 
        technology becomes increasingly popular . . . traditional 
        contractors will develop their skill sets and expand their 
        knowledge bases in ways that will allow them to transform large 
        numbers of ordinary buildings into some of the most energy 
        efficient in the world.''

    The Washington state report added: ``Green jobs are not necessarily 
new jobs, but often traditional jobs in industries and companies that 
are adapting to new markets and opportunities.''
    Economic Modeling Specialists Inc.'s report issued December 2008 
weighed in with:

          ``The consensus among those economists who address these 
        issues is that the designation `green' turns not on the 
        specific task associated with an occupation, but rather on the 
        specific outcome of the occupational effort.''

    Given these definitions of ``green jobs,'' it is easy to see why 
AGC and its member companies are concerned that a disproportionate 
amount of the American Recovery and Reinvestment Act training funds 
will be spent on training workers for jobs in nascent ``green'' 
sectors, when a much larger proportion of ``green jobs'' are being held 
by workers in traditional construction jobs--workers who would benefit 
by, but do not need, training in green practices in order to work 
successfully on a green project.
    For instance, the transportation sector--defined as the movement of 
goods and people from one place to another--accounts for 27 percent of 
the Nation's total energy consumption and 31 percent of man-made carbon 
dioxide (CO2) emissions. Contractors (and the subcontractors who work 
with them) not only reduce transportation congestion--a major source of 
both wasted energy and CO2 emissions--through expansion and 
improvements to roadways, airports, railways, waterway systems, and the 
construction of mass transit options, they also are recycling at the 
highest levels in the Nation.
    According to a recent Environmental Protection Agency report, 
structural steel is recovered at 97.5 percent and reinforcement steel 
at 65 percent, together equaling 40 million tons of material recycled 
and 71.6 million metric tons CO2 emissions avoided. The recovery rate 
for asphalt is 80 percent, which equals 139 million tons recycled and 
4.17 million metric tons CO2 emissions avoided. Concrete is estimated 
at 1.4 million metric tons CO2 of annual emissions avoided through 
recycling. (Note: EPA did not calculate the percentage of concrete 
recovered.)
    Construction contractors also improve the environment through 
habitat restoration; wetlands mitigation; brownfields cleanup and 
redevelopment; the cleanup of Superfund sites; and construction of and 
upgrades to wastewater treatment plants and drinking water facilities.
    According to EPA, construction equipment and energy use contributed 
only an estimated 1.7 percent of total U.S. greenhouse gas emissions 
during 2002 (the latest year for which statistics are available). 
Meanwhile, according to the U.S. Bureau of Labor Statistics (BLS), 
construction is one of the Nation's largest industries, with 7.7 
million wage and salary jobs and 1.9 million self-employed workers, and 
approximately 883,000 construction establishments in the United States 
in 2006.
    Recycling, improving our Nation's infrastructure, rehabilitating 
toxic land sites--construction has been at the forefront of all of 
these efforts for years, without very much special ``green'' training. 
Nevertheless, AGC contends that the workers on all of these projects, 
and more, are ``green collar'' workers who deserve the very best 
training.
    AGC also is concerned that when the energy-efficiency sector is 
discussed, the construction of new, energy-efficient buildings is 
excluded. In recent reports and, indeed, in testimony before this 
subcommittee, the energy-efficiency sector is described as primarily 
concerned with the retrofitting of existing buildings, with no mention 
of all the jobs created, and savings incurred, from the construction of 
new buildings using green technology. The mayors' report, which focused 
on ``current and potential green jobs in the U.S. economy,'' failed 
entirely to address the jobs created as a result of new green 
buildings.
    ``Building green is one of the best strategies for meeting the 
challenge of climate change because technology to make substantial 
reductions in energy and CO2 emissions already exists. In comparison to 
the national building stock, the average LEED certified building uses 
24 percent less electricity and saves 13.86 million metric tons of CO2 
emissions annually,'' according to the New Buildings Institute. Since 
the commercial and residential building sector accounts for 39 percent 
of the CO2 emissions in the United States each year, more than any 
other sector according to the Environmental Information Administration, 
a new certified ``green building'' certainly qualifies as ``green,'' as 
do the workers building it.
    Green building rating systems--of which LEED is one of several--
take into account incorporation of efficient heating, ventilation, and 
air conditioning systems, use of state-of-the-art lighting and 
daylight, reduction of potable water, use of renewable energy, 
implementation of proper construction waste management, proximity to 
public transportation, and use of locally produced building products. 
Green buildings are designed to conserve raw materials, use less 
energy, and use renewable energy sources.
    According to a McGraw-Hill report, ``Green Outlook 2009: Trends 
Driving Change,'' the value of green building construction starts has 
risen from $10 billion in 2005 to an estimated range of $36 billion to 
$49 billion in 2008. Further, the report said the value could hit $140 
billion by 2013. While there is no hard data on the numbers of workers 
needed to build all those buildings, suffice to say it reaches into the 
tens, perhaps hundreds, of thousands.
    As an example, the Washington Nationals Park, the Nation's first 
major professional stadium to become LEED Silver Certified by the U.S. 
Green Building Council (USGBC), cost more than $600 million and 
employed more than 1,000 workers during the 26 months it took to build. 
Keep in mind: that one project constituted just over 1 percent of the 
total spent on new green building starts in 2008.
    When it comes to renewable energy, construction is at the forefront 
of these efforts. While it is true that there are some new types of 
installers and technicians needed to connect renewable energy sources 
to our Nation's power grid, it is also true that the bulk of the work 
is performed by traditional construction workers, such as the paving 
crews, cement masons, heavy equipment and crane operators, and others 
who prepare the site, roads and foundations needed before a windmill 
can be erected.
    Where needed, of course, AGC is in favor of green training and, to 
that end, has worked extensively to provide our members with basic and 
advanced curricula to further their understanding of their role in the 
green construction process. Among AGC of America's numerous green 
offerings:

    <bullet> The LEED Estimating for Green Building Course, introduced 
in 2007. To date, nearly 400 people have taken the class.
    <bullet> The Building to LEED for New Construction full-day 
course. Since its rollout in March 2008, 17 AGC chapters across the 
Nation have held the course, with nearly 750 people successfully 
completing it.
    <bullet> The Contractor's Guide to Green Building Construction 
LEED and Building to LEED--NC books.
    <bullet> AGC has offered numerous green construction sessions at 
our annual meetings, and we have teamed up with both the USGBC and the 
Green Building Initiative to offer training.
    <bullet> Our 90th Annual Convention, held in March 2009, offered 
eight green building sessions for attendees and a special green section 
in the exhibit hall.
    <bullet> Articles, fact sheets, webinars, an environmental network, 
and an extensive cache of online resources all geared toward 
contractors working in a green economy.

    Our craft training partner, the National Center for Construction 
Education and Research, introduced a green module in spring 2008 called 
``Your Role in the Green Environment.'' The module is designed for 
entry-level craft workers or for anyone wishing to learn more about 
green building. The module is currently being used by construction 
industry-sponsored training programs, community colleges, and high 
schools around the Nation. Additionally, for AGC members whose 
craftsworkers are unionized, there are joint labor-management training 
programs, including those offered through the International Brotherhood 
of Carpenters and Joiners, and the Laborers-AGC, among others, that 
provide green training.
    AGC provides tools, such as our Supervisory Training and Project 
Manager Development Programs, for our members to provide a pathway for 
their employees to advance to positions of greater responsibility. Both 
of these programs include information on the knowledge and practices of 
green construction.
    In 2003, AGC and the Federal Environmental Protection Agency formed 
the AGC-EPA Sector Strategies partnership, focused on: improving 
environmental regulations, expanding the use of environmental 
management systems, and exploring ways to assess environmental 
progress. We value our partnership with EPA and other Federal partners 
and have two staff members devoted to environmental concerns, including 
a Director of Green Construction, whose job is to work with the 
industry--both internally and externally--to promote best practices in 
green construction and environmental management.
    AGC recently began a new partnership with EPA and the Industrial 
Resources Council to facilitate the recycling and the environmentally 
safe reuse of non-hazardous industrial materials as part of EPA's 
national Resource Conservation Challenge. It is anticipated that the 
group's joint efforts to provide leadership, technical expertise, and 
assistance will increase the amount of materials recycled or reused 
each year--resulting in cost savings; beneficial impacts to the 
environment, including a reduction in greenhouse gas emissions; 
stimulation of local markets; and a reduction in the use of landfills.
    In addition, AGC has implemented an environmental agenda that 
includes:

    1. Encouraging environmental stewardship among AGC members through 
education, awareness, and outreach;
    2. Recognizing environmentally responsible construction practices;
    3. Strengthening government support for positive incentives for 
environmental excellence;
    4. Facilitating members' efforts to recycle or reduce construction 
and demolition debris;
    5. Identifying and maximizing the contractor's role in ``green'' 
construction; and
    6. Identifying ways to measure and report environmental trends and 
performance indicators of such trends.

    As you can see, AGC of America, our member firms, and their 
employees take our role in the green economy very seriously, both in 
educating our current workforce and in preparing the next generation to 
build green.
    While AGC understands the interest in tying green to the definition 
of ``green jobs'' to good-paying jobs that allow a worker to support a 
family, we would prefer a definition that does not advocate a 
particular labor posture.
    According to the BLS, ``Earnings in construction are higher than 
the average for all industries.'' A report prepared by FMI for AGC of 
America found that the non-residential construction craftworker earned 
$19.83 an hour in 2007, compared to $18.52/hour for a craft-level 
worker in natural resources, $17.17/hour in manufacturing, and $15.78/
hour in trade (transportation, distribution, retail, and logistics).
    Those good-paying craft jobs have the potential to turn into 
entrepreneurial ventures: ``Opportunities for workers to form their own 
firms are better in construction than in many other industries,'' 
according to the BLS.
    As noted above, AGC members work in both the open shop and union 
sectors and we are advocating investment in training programs for all 
construction industry workers. Since only 13.9 percent of the Nation's 
construction workforce is unionized, according to the BLS data on 2007 
employment, and since AGC believes that an increasing number of 
construction jobs are ``green jobs,'' there is no reason to tie ``green 
jobs'' to ``union jobs,'' which would leave out more than four-fifths 
of the eligible construction labor force from the ``green'' 
designation.
    With regard to how the Federal Government can support greener 
construction practices, AGC recommends changes to the Energy 
Independence and Security Act of 2007, which includes plans to 
establish an energy and renewable energy worker training program 
through a provision known as the Green Jobs Act. AGC is hoping to see 
some changes prior to any grant solicitations under this program. The 
Green Jobs Act, as currently written, would limit training grant 
funding to entities that coordinate with labor organizations. AGC is 
supportive of the grant program as part of an effort to create an 
efficient and renewable energy skilled workforce. However, it is our 
belief that the opportunity to apply for such grants should be open to 
all contractors, both union and open shop, that have accredited 
training programs.
    In the 110th Congress, a bill was introduced on the House side that 
would open up the Green Jobs Act to allow any accredited training 
program, regardless of labor posture, to compete for grants under the 
Green Jobs Act. AGC supported this bill and expects the same bill to be 
reintroduced soon in the 111th Congress.
    As for a definition of ``green jobs'' as those that are available 
to ``diverse workers from across the spectrum of race, gender, and 
ethnicity,'' as included in the U.N. Environmental Programme, Labour 
and the Environment Unit's definition, we would point to the growing 
number of Hispanics in the construction industry and the efforts of 
industry to reach out to non-traditional labor pools, including 
minorities, females, and veterans.
    Hispanics increasingly have found work in construction; accounting 
for 25 percent of the total employed in construction nationwide and the 
numbers are growing. The Pew Hispanic Center said two of every three 
new construction jobs in 2006 were filled by a Hispanic worker.
    Among the AGC's most recent initiatives to inform minorities and 
females about career opportunities in construction and to develop the 
workforce needed to rebuild the Nation's crumbling infrastructure, are 
partnerships with the Boys & Girls Clubs of America and the Girl Scouts 
of America. Our members and chapters have provided thousands of youths 
active in these two programs with donated Build Up! educational kits 
that introduce them to the importance of the construction industry to 
our Nation, as well as their future possible role in helping to build 
the Nation's infrastructure. Additionally, many AGC chapters and 
members have made substantial commitments to construction career 
academies and charter schools, such as AGC of St. Louis's success with 
the Construction Careers Center in St. Louis, MO., and AGC of 
Metropolitan Washington, DC's financial and intellectual support of the 
new Phelps Architecture, Construction and Engineering Academy in 
Washington, DC, both of which serve a largely African-American 
population. These are only a few outreach efforts among hundreds in 
which AGC members and chapters nationwide play a substantive, often 
leading, role.
    In summary, AGC of America believes that training funds spent on 
traditional construction industry apprenticeship and training 
programs--in both the union and open shop sectors--constitute one of 
the Nation's most cost-effective and beneficial routes to increasing 
the number of green collar workers in America and we look forward to 
helping the Nation's economy rebound, become greener, and regain its 
prominence in the world economy.
    By building energy efficiency into existing and future 
infrastructure, the construction industry is an essential partner in 
the Nation's efforts to nurture a green economy.
            Sincerely,
                                       Stephen E. Sandherr,
                                           Chief Executive Officer.
                                 ______
                                 
                            Office of the Governor,
                                        Cheyenne, WY 82002,
                                                      May 18, 2009.
Senator Jim Anderson,
Majority Floor Leader,
92 Running Dutchman,
Glenrock, WY 82637.

    Dear Senator Anderson: I write to offer the full support of my 
office as you and the legislative Task Force on Wind Energy engage the 
many topics that attend wind energy production and transmission in 
Wyoming. While we are only starting to understand the benefits and 
other implications of such development in our State, the ``gold rush'' 
pace that has attended both the general wind policy discussion--here 
and around the world--and many of the leasing and development projects 
in Wyoming necessitates that you have the very best information and 
data at your immediate disposal. I also write with specific concerns 
that I know are already part of your Task Force agenda, but that are of 
such importance that they bear repeating.
    Let me begin by noting your extraordinary efforts to distinguish 
yourself--nearly overnight--as a pre-eminent leader in our State on the 
issue at hand. It is a testament to your understanding of both your 
district and the State that you have crafted such a well-balanced and 
well-intentioned view of wind development and transmission in such a 
short span of time. You have my sincere thanks for stepping forward to 
lead in a time of such uncertainty.
    With some of the Nation's largest natural gas fields, massive 
amounts of coal and other minerals, hundreds of thousands of acres of 
grazing and other agricultural lands and approximately 54 percent of 
the sage grouse in the world living within our borders--not to mention 
other world-class wildlife habitats and populations--Wyoming seems to 
be at the confluence of the great natural resource issues of our time. 
Add about 50 percent of the best winds in the United States occur in 
southern Wyoming and, according to some, a Top 10 solar energy 
portfolio along with the transmission infrastructure that necessarily 
must attend these new industries, and Wyoming also stands at the 
headwaters of two entirely divergent courses: one that leads to promise 
and the other that threatens our way of life. While this may seem 
melodramatic to some--we in Wyoming know and respect the ``razor's 
edge'' on which we are precariously balanced relative to sage grouse 
and other sensitive wildlife species, our economic sustainability and 
private property rights.
    The people of our State most closely guard the seemingly 
incongruent principles of certainty and flexibility. We want certainty 
when we face risk and flexibility to take advantage of new 
opportunities. With specific regard to sage grouse and other sensitive 
wildlife populations, I am quite concerned that with changing times in 
our Nation, both politically and otherwise, the regulatory framework of 
the Endangered Species Act is far from settled. As the ship of 
conservation lists from side to side, any shift in the ballast of 
State-led conservation efforts risks a capsized boat. With little room 
for error, flexibility only exists in the mental contortions of those 
in Washington and elsewhere that want to inflict more controls on us in 
the form of great Federal designations like those contained in the 
Northern Rockies wilderness and wild horse legislation currently 
winding their way through Congress.
    Since the inception of our State's core area approach to manage and 
conserve not only sage grouse but also 79 of Wyoming's 279 Species of 
Greatest Conservation Need that also inhabit core areas, we have 
tendered a delicate balance between development and protection. Miners, 
farmers, ranchers and oil and gas operators have worked to contour 
their activities to maximize production while they minimize disturbance 
to core areas. Apart from a passing affinity for sage grouse, pygmy 
rabbits, pocket gophers and a host of other species, the driver for 
this balance has largely been enlightened self-interest. Knowing that 
of the 54 percent of the world's sage grouse that live in Wyoming, over 
82 percent reside in core areas, most of our traditional industries 
have been willing to forego new activities in this prime habitat until 
either populations are re-established elsewhere or technology advances 
to the point that industrial development and sage grouse are seen as 
wholly compatible. I cannot speak with the same certainty with regard 
to wind development.
    As the Nation moves to some sort of carbon reduction strategy, no 
matter our individual perspectives on the topic, the advance of wind 
and solar energy generation, under the broad label of ``green energy,'' 
has come to Wyoming with a ``gold rush'' pace--and almost more 
concerning--``gold rush'' mentality. Seemingly every acre--sage grouse 
core area, private, State and Federal lands, important viewsheds and 
otherwise--is up for grabs in the interest of ``green, carbon-neutral 
technologies'' no matter how truly ``brown'' the effects are on the 
land. Functionally, it is like taking a short cut to work through a 
playground full of school children and claiming ``green'' as a defense 
because you were driving a Toyota Prius.
    To the very sharp point--when we started with the core areas for 
sage grouse, we had over 82 percent of the population relatively 
secured. At that time, we proposed to the U.S. Fish and Wildlife 
Service that we would never drop below a population of 67 percent in 
core areas. With the advance of wind, with very preliminary and limited 
data on potential projects, we know that the footprint of the proposed 
towers alone would chew up at least 2.44 percent of Wyoming's core area 
populations. With a very conservative 2-mile impact buffer, the 
population impact increases to 10.08 percent. For a 3-mile buffer, we 
jump to 12.69 percent of core area numbers and at 4-miles, which recent 
research in Kansas suggests may be a reasonable assumption, it elevates 
to almost 15 percent of core area populations being affected. To the 
really troublesome news--these numbers are, as mentioned preliminary 
and, to the best of our understanding, represent about half of the 
projects that are currently in the works. Still then, this makes no 
account for the impacts of transmission lines on sage grouse. Even 
discounting these potential impacts, it doesn't take a rocket scientist 
to subtract 15 percent from 82 percent and arrive at only 67 percent of 
our population--which part-and-parcel represents the ``razor's edge'' I 
referenced earlier.
    Many with the wind industry have countered these figures by 
suggesting that even a 2-mile buffer is extreme. Unfortunately, they 
cite nothing in the way of literature or studies to back their 
assertions--just ``common sense.'' The problem, as we know all too well 
in the context of wolves, the Preble's mouse and grizzly bears, is that 
common sense does not play well in Washington--only cold, hard data. As 
you proceed, given the devastating impact an Endangered Species Act 
listing would have not only on wind, but all other industries in our 
State--I would ask that you treat core areas, and other crucial 
habitats, with added caution--ascribing a ``burden-shifting'' premise 
as I have in my sage grouse Executive Order. By burden-shifting, I mean 
to say that inside core areas and key habitat, the burden is on the 
developer to show that they will do no harm. Unless and until they have 
met this burden, with real data, no authorization should be granted--
either as a function of Industrial Siting and Development Act authority 
or otherwise. In contrast, outside of core areas and other crucial 
habitat, the burden is much relaxed--to the point of expediting 
permitting for not only wind--but other industrial and nonindustrial 
use.
    While sage grouse and other species are of primary concern--given 
the potential to cripple our economy--I would suggest that the other 
issue that serves to limit wind's acceptance in Wyoming is what I term 
the botched and ill-formed answer to the question: ``What's in it for 
me?'' With oil and gas and coal, the answer is clear--jobs, significant 
local revenue, membership in our communities, and the list goes on. 
Certainly, there are impacts that attend these industries, but for the 
most part, the benefits of their existence outweigh the localized 
impact. With wind, we hear of the tax revenues generated as though the 
industry is going to displace coal and oil and gas as the underpinning 
of our economy. Unfortunately, the numbers simply do not pencil out. 
Beyond sage grouse and other wildlife impacts, I ask that your 
committee ensure that our State and local governments get a clear 
answer to the question of ``What is in it for me?''
    In addition, I would hope that you could elicit honest answers to 
questions tied to exactly why additional revenue generation for the 
State and local government is not possible. In my view, absent some 
better understanding and an enhanced ability to generate not only 
public, but also private revenue, I cannot easily countenance giving up 
any more of our State's viewshed, wildlife or open space for so little 
in return.
    Finally, I would ask that you look at the impacts of wind 
generation--and more so transmission--on private property rights 
particularly for transmission lines with voltage below the current 
Industrial Siting and Development Act jurisdiction. I have every 
assurance, given your leadership, that this will be a centerpiece of 
the Task Force's effort. We must do all we can to avoid confrontation 
and attempt to meet everyone's needs--hopefully short of the courtroom. 
However, given the potential use of condemnation, especially when 
siting and permitting linear rights-of-way, we must do all we can to 
guard against abuse and ensure fairness.
    To close, we have abundant wind, coal, natural gas, forage, oil and 
other natural resources in our State. In the midst of this bounty, are 
some very finite and precious resources that could serve to derail our 
ability to take full advantage of these wealth-generating assets. As 
always, we must balance development with conservation. Fortunately, 
balance is something that we understand quite well.
    I wish you and your Task Force the best as you proceed to discuss 
other important issues that relate to wind energy development and 
transmission. Please do not hesitate to put my good offices to work for 
the committee.
            Best regards,
                                          Dave Freudenthal,
                                                          Governor.
                                 ______
                                 
        Response to Questions of Senator Kennedy, Senator Enzi, 
                   and Senator Isakson by Hilda Solis

                      QUESTIONS OF SENATOR KENNEDY

    Question 1a. I share your commitment to leveraging growth in green 
jobs to create real and lasting economic opportunity for workers and 
families across this country. I was pleased to read in your written 
testimony the speed with which the Department of Labor is putting green 
job training funds provided through the Recovery Act to work.
    How can these training initiatives be supported through the WIA 
system after the ARRA funds have been expended?
    Answer 1a. The Recovery Act provided additional funds for the 
Workforce Investment Act (WIA) formula programs, which have already 
been distributed to States and local areas. Prior to receiving the 
funds we issued guidance to the workforce system strongly encouraging 
linkages between WIA activities funded under the Recovery Act and other 
Recovery Act investments, including green jobs. As a part of the new 
WIA/Wagner-Peyser Act State plans we are requiring States to describe 
the new strategies for supporting emerging industries, including green 
jobs, through training and other means.

    Question 1b. What changes need to be made to the existing WIA 
structure to better support the sustained growth of green jobs?
    Answer 1b. Innovations in technologies, processes, and materials 
are expected to lead to the creation of entirely new green jobs, and 
driving the need for workers in many existing occupations to add to 
their skill sets.
    The workforce system can better support the sustained growth of 
green jobs through a number of strategies, such as supporting 
connections between States' labor market research capacities and 
service delivery that is provided through One-Stop Career Centers to 
ensure high-quality career guidance on green jobs is available to job 
seekers.
    In addition, State and local Workforce Investment Boards (WIBs) 
should build on their existing efforts to engage with businesses to 
better understand current and emerging skills requirements for green 
jobs. Further, as emerging industries begin to develop in a local area, 
local WIBs should be developing training strategies in partnership with 
training providers who can adjust their training to reflect the skills 
needs of those employers. One-Stop Career Centers should partner 
closely with educational entities, labor organizations, and community 
and faith-based organizations to provide high quality training and 
supportive services so that workers may successfully complete training, 
overcome barriers to employment, obtain family-supporting jobs, and 
advance along career pathways in green industries and occupations.

    Question 1c. How can WIA be used to ensure that the training 
necessary to fill these green jobs is available to the most 
disadvantaged members of our communities?
    Answer 1c. The public workforce system and its partners have a 
primary focus on serving disadvantaged populations. The Department is 
working hard to build on public resources, through Recovery Act 
funding, to ensure that those most in need have access to the training 
necessary to pursue pathways to sustainable employment and take 
advantage of green employment opportunities. WIA currently allows for 
supportive ``wraparound'' services such as childcare, transportation, 
housing, and need-related payments. These supportive services enable 
individuals to participate in training activities. Community and faith-
based organizations play an important role in providing these services 
to disadvantaged individuals. Additionally, the potential Pathways Out 
of Poverty grant solicitation for green jobs training competitive 
grants under the Recovery Act will develop and enhance such new 
partnerships to help disadvantaged populations.

    Question 2a. If green jobs are to be supported for the long-term, 
it will require investments in pathways for our youth.
    How will the Department use WIA Youth funds to train and place 
youth--particularly those from low-income and vulnerable communities--
in high growth industries so they, too, can meaningfully participate in 
the green economy?
    Answer 2a. The Employment and Training Administration's WIA/Wagner-
Peyser Act State Plan guidance encourages States to serve those most in 
need. It further asks that States describe in their plans how the State 
will connect youth to existing and emerging job opportunities in their 
communities, including requiring academic activities to prepare them 
for entry to continued education and training as adults. For example, 
in the Summer Youth Work Experience Program we encourage linkages to 
job opportunities that may lead to interest in future job 
possibilities.

    Question 2b. How does WIA Youth need to be changed in 
reauthorization to more effectively support this goal?
    Answer 2b. While the Administration is still in the process of 
developing a reauthorization proposal, the Department has concerns 
about certain aspects of the existing program. WIA resources should be 
focused on those most in need. There are a particularly troubling 
number of out-of-school youth who need some connection back to a 
learning environment that works for them. Our program should have a 
strong emphasis on those most in need, and identifying these youth and 
connecting them to programs to ensure high school credit and post-
secondary credentials linked with vocational skill training and real 
work experiences. The investment of Recovery Act funds in summer 
employment will be instructive about whether the reauthorized WIA 
should reinstitute an expanded subsidized summer employment program. 
The Department would be happy to work closely with you and your staff 
on this and other issues as we move forward to reauthorize WIA.

    Question 3. How will you work to strengthen collaboration and 
coordination between ED and DOL?
    Answer 3. We are partnering with many other Federal agencies, 
including the Department of Education. In order to improve the 
connection between workforce services and education services, we have 
pursued a variety of partnership approaches, such as: working with 
other agencies to provide coordinated technical assistance to our 
funding recipients; conducting pilots in partnership with other 
agencies; sharing information that is helpful in designing funding 
opportunities; and, entering into formal Memorandums of Understanding 
(MOUs). The Department of Labor signed an MOU between the Department of 
Energy and Department of Education (attached) to connect people to 
educational opportunities, training programs and green jobs at a Middle 
Class Task Force event in Denver, CO on May 26, 2009.
    Through the Administration's proposed Career Pathways Innovation 
Fund (fiscal year 2010 Budget), and working with the Department of 
Education to implement it, we will focus on career pathway programs at 
community colleges. These programs provide clear sequences of 
coursework and credentials, each leading to a better job in a 
particular field. In addition, we have begun discussions to increase 
data sharing in order to improve outcome analysis, and the fiscal year 
2010 budget requests $15 million for a workforce data quality 
initiative, in which the Department will partner with Education to help 
States incorporate workforce information into their longitudinal data 
systems.
    Once an ETA Assistant Secretary is confirmed, I will be tasking 
that individual with developing specific cooperative efforts to better 
link education with workers and workforce system partners. As you know, 
the nominee for ETA Assistant Secretary has extensive experience in 
both workforce and education programs.

                      QUESTIONS OF SENATOR MURRAY

    Question 1a. While the definition of a green job is still evolving, 
many believe that the majority of these jobs will be in the skilled 
trades. Some special populations among our workforce have expressed 
concern that they may be left out. For instance, advocates who 
represent the needs of women, individuals with disabilities, and older 
workers remind us not to ignore the needs of the workers they represent 
during the ``green'' revolution. I understand that you recently held a 
roundtable with women who represent a cross cut of stakeholder groups 
in the green economy.
    As Secretary, what will you do to ensure that the Department is 
working to include these populations and others with specific needs in 
the training opportunities for green jobs?
    Answer 1a. I am committed to working to make green jobs 
opportunities widely available. In the forthcoming Solicitation for 
Grant Applications (SGA) for green jobs training, we plan to encourage 
the publicly funded workforce system to more actively reach out to 
community and faith-based groups who can help connect underrepresented 
and economically disadvantaged populations to green jobs training 
opportunities. We also plan to target tribal communities.

    Question 1b. What were some of the themes you heard from your 
recent roundtable on women in the green economy?
    Answer 1b. The ``Women and Green Jobs'' roundtable was held on 
Earth Day 2009 and Nancy Sutley, Chair of the White House Council on 
Environment Quality, and nearly 40 leaders from across the country, 
representing unions, the private sector, the education community, and 
government participated. At the event, we discussed how the 
``greening'' of our economy will bring significant changes to the 
workplace that will require workers to have new and different skills.
    Many of the roundtable speakers highlighted how supportive 
services, such as improved childcare, transportation options, mentoring 
and educational opportunities, could help women move out of poverty and 
into higher-skilled, higher-paying jobs.

    Question 2. Many think the promise of a green economy holds a great 
deal of hope for workers who have lost their jobs due to the economic 
downturn or who need support in pulling themselves out of poverty. 
While I agree with those opportunities and hope the Department works to 
make them a reality, I wonder what your plan is to help current workers 
go green.
    How does the Department plan to help businesses that want to move 
to green practices train their incumbent workers as necessary?
    Answer 2. Employers will need to work closely with the public 
workforce system to communicate their workforce and skills needs 
related to green jobs to ensure that training is aligned to meet those 
needs. The Department encourages the workforce system to use WIA 
resources for on-the-job training and other ``learn while you earn'' 
strategies. The Department recently released a Training and Employment 
Notice (TEN) that previews plans for the American Recovery and 
Reinvestment Act of 2009 Competitive Grants for Green Jobs Training. 
The TEN describes five potential grant solicitations, including the 
``Energy Training Partnership Grants'' which would focus training 
resources on both incumbent and dislocated workers.

    Question 3. As you know, our Nation's workforce system, while not 
perfect, has existing capacity to help reach both workers and job 
seekers and employers in their local communities to help meet job 
training needs. While some adjustments will have to be made to adapt to 
the demands of a green economy, I want to ensure that the Department 
will maximize these resources that already exist instead of reinventing 
the wheel.
    How will the Department work to use the existing structure of our 
workforce system to provide training rather than creating a new 
program?
    Answer 3. We encourage strong connections between the public 
workforce system and employers who have emerging green jobs so that 
they can develop a shared understanding of the emerging skills and 
competencies of workers. The competitive series of Green Job Training 
grants will leverage the existing structure of the workforce system to 
develop partnerships, and implement programs that support green jobs. 
The Green Jobs Training investments will enhance the capacity of local 
Workforce Investment Boards and the One-Stop Career Centers to drive 
workforce training strategies in green sectors. The Department is 
especially interested in programs and projects that leverage existing 
best practices of the public workforce system. In addition, the Green 
Jobs Training grants will help support State labor market research in 
green, emerging industries.

    Question 4. As you know, I'm committed to modernizing and 
reauthorizing the Workforce Investment Act this year if possible--and 
this Congress at least.
    What policy ideas do you have for a modernized workforce system to 
enable it to be responding to the demands of green economy?
    Answer 4. The Department is engaged in an ongoing process to 
develop principles for WIA reauthorization with our partners in the 
workforce system and other Federal agencies. We will be happy to work 
with you and your staff as this process moves forward.
    In addition, current and relevant State and local Labor Market 
Information and Research will support the workforce system's efforts to 
identify green businesses and sectors of the economy that are in need 
of workers now or will begin to grow as the economy recovers. Such 
research will also identify transferable skills for workers who have 
lost their jobs and need to transition to new careers, and develop or 
enhance a labor exchange infrastructure. Understanding where green jobs 
are and the skills they require will directly impact the States' 
planning and implementation of comprehensive workforce development 
strategies.

    Question 5. Since green jobs cross all industry sectors and many 
cabinet agencies, I am interested in how you are reaching out to your 
colleagues and others to develop a coordinated approach to training 
workers for green jobs--ranging from weatherization jobs to jobs in 
renewable energy, biofuels, or environmentally sustainable processes 
and materials manufacturing.
    What coordination activities do you have underway with your 
Administration colleagues and others to help retool America's workers 
in the areas of energy efficiency and renewable energy industries?
    Answer 5. The Department of Labor signed an MOU between the 
Department of Energy and Department of Education (attached) to connect 
people to educational opportunities, training programs and green jobs 
at a Middle Class Task Force event in Denver, CO on May 26, 2009. 
Another important development at the Middle Class Task Force event was 
the announcement that the Council on Environmental Quality (CEQ) is 
convening an inter-agency meeting to discuss weatherization and 
retrofitting and their role in the expansion of green job 
opportunities. In addition, the Department of Labor is partnering with 
the Department of Housing and Urban Development (HUD) to help people 
living in public housing train for and get jobs working on public 
housing retrofitting projects. All of these partnerships are designed 
to maximize resources and expertise in workforce development and 
industry connections for a shared understanding of industry needs, 
skill requirements of workers, training opportunities available, and 
making this information available to the public to ensure equal 
opportunity for all workers, including disadvantaged populations. DOL 
is also encouraging other agencies to facilitate the listing of any 
jobs created using Recovery Act funding on the federally funded labor 
exchange system. In fact, the Federal partners even refer to themselves 
as the ``Federal family.''

    Question 6. I know that the Green Jobs Act places a significant 
focus on labor-management partnerships and connections to the workforce 
system.
    Do you anticipate that community-based organizations, which are a 
key partner in the current workforce system, also will play an 
important role in addressing the green job training needs of both works 
and employers?
    Answer 6. Community-based organizations will continue to play a key 
role in partnerships with local Workforce Investment Boards and their 
One-Stop delivery system. In the Department's recently released 
Training and Employment Notice (TEN) that previews plans for the 
American Recovery and Reinvestment Act of 2009 Competitive Grants for 
Green Jobs Training, the description for potential solicitation on 
Pathways Out of Poverty Grants specifically names community and faith-
based organizations as groups that will be eligible to compete for 
potential grants.

                       QUESTIONS OF SENATOR ENZI

    Question 1a. There are currently many unemployed individuals across 
the Nation. How does the Department plan to assist these workers to 
connect with these green jobs and acquire the skills needed to qualify 
for them?
    Answer 1a. One-Stop Career Centers are the local access point for 
many unemployed workers across the country and I know they are eager to 
connect workers to new opportunities and jobs. One-Stop Centers are a 
primary resource that unemployed workers utilize when seeking 
employment and training, and even retraining, for new careers and 
skills upgrades. The Department will continue to encourage workforce 
development approaches that provide an integrated system of education, 
training and support services for workers.

    Question 1b. Additionally, what are the Department's plans for 
implementing the American Recovery and Reinvestment Act (ARRA) job 
training program for green job careers?
    Answer 1b. I have attached the recently released Training and 
Employment Notice (TEN) that provides an overview of preliminary plans 
for a series of competitive grants for Green Jobs Training. The TEN 
describes five potential grant solicitations that we anticipate 
releasing in June.

    Question 2. As a former small business owner, I believe a workforce 
system should be locally driven and have meaningful roles for 
businesses. Other than your interest in working with business leaders 
to discuss the role of apprenticeships in the ``green economy'', what 
other ways do you intend to work with businesses as the Department of 
Labor distributes the general Recovery funds and the green jobs 
funding?
    Answer 2. We encourage labor-management partnerships so that the 
businesses spurring our economic recovery can help craft the training 
programs to fill their employment needs. The Department supports and 
encourages the implementation of sector strategies geared towards green 
industries. Sector strategies provide an integrated system of 
education, training, and supportive services that promote skill 
attainment and career advancement for workers. Industry involvement is 
at the heart of the programs and projects that will be funded with the 
competitive green jobs training grants because of their deep knowledge 
of the specific industry and the required workforce needs. Employers 
provide this critical expertise along with information about available 
green jobs.
    In a recent visit to the Queens, NY Workforce1 Career Center, I had 
the opportunity to meet with community business leaders who are 
actively utilizing the Department's employment and training programs. I 
look forward to continuing to meet with business owners to receive 
input on the work of the Department.

    Question 3a. When we talk about green jobs, are we talking about 
replacing traditional jobs or are we talking about adding green skills 
to existing jobs?
    Answer 3a. In short, yes to both questions. We are working to 
ensure that communities impacted by declining industries and 
experiencing deep job losses, such as the automotive industry, are 
targeted for green jobs training. The Training Employment Notice (TEN) 
on green jobs provides descriptions of potential solicitations for 
green jobs training that contain a set-aside of funding for auto 
communities. I recently announced that $50 million of the $500 million 
in competitive grants for green jobs training would be dedicated to 
auto communities.
    In addition, the Department is supporting occupational research 
that is beginning to define green jobs, review sectors impacted by 
green investments and understand how new, green technology and 
materials will affect occupational requirements. We will continue to 
keep you updated on our findings.

    Question 3b. How does the Department plan to work with communities 
that will experience loss of traditional jobs?
    Answer 3b. As cited in the answer to Question No. 3, the Training 
Employment Notice (TEN) on green jobs training details how we are 
working to ensure that communities impacted by significant job losses 
in declining industries, such as the automotive industry, are targeted 
for green jobs training. I recently announced that $50 million of the 
$500 million in competitive grants for green jobs training would be 
dedicated to auto communities. In addition, the TEN lists a potential 
solicitation entitled ``Energy Training Partnership Grants'' which 
would focus training resources on both incumbent and dislocated 
workers.

    Question 4. How does the Department plan to use the current 
workforce system in communities under the Workforce Investment Act to 
implement the recovery funds for the programs you describe in your 
testimony?
    Answer 4. We encourage strong connections between the public 
workforce system and employers who have emerging green jobs so that 
they can develop a shared understanding of the emerging skills and 
competencies of workers. The competitive series of Green Job Training 
grants will leverage the existing structure of the workforce investment 
system to implement the partnerships, programs, and projects related to 
green jobs and skills development. These investments will enhance the 
capacity for local Workforce Investment Boards and the One-Stop Career 
Centers to drive workforce training strategies in green sectors. The 
Department is especially interested in programs and projects that 
leverage existing best practices of the public workforce system and 
their partners and will encourage replication of these best practices 
as they emerge.

                      QUESTIONS OF SENATOR ISAKSON

    Question 1. Do you believe that some training providers are 
prohibited from accessing Federal green job training grants in the 
Workforce Investment Act?
    Answer 1. While the Solicitations for Grant Applications are still 
being drafted, it appears that there will be a wide variety of eligible 
organizations who can apply provided they meet the requirements 
outlined in each of the SGAs.

    Question 2. If the goal of the green movement is to put as many 
people to work as possible, do you support the statutory language that 
would potentially bar open shop training providers from accessing green 
jobs training grants? Do you intend to exclude over 84 percent of the 
private construction industry when creating jobs and improving the 
sustainability of our country's buildings?
    Answer 2. As outlined in the answer to Question No. 1, the Green 
Jobs Training Solicitations for Grant Applications are still being 
drafted. It appears that there will be a wide variety of eligible 
organizations who can apply provided they meet the requirements 
outlined in each of the SGAs.

    Question 3. Would you be supportive of a bill that would help end 
the discrimination of open shop training providers by amending the 
Workforce Investment Act to allow all training providers, regardless of 
union affiliation, access to these important funds?
    Answer 3. Unfortunately, I am unable to take a position on 
legislative proposals without reviewing the bill text. I would be happy 
to make my staff available to provide technical assistance for any such 
legislation.

    Question 4. Please describe the difference between a carpenter and 
a ``green-collar'' carpenter?
    Answer 4. We are still working with our partners in the Federal 
Government and private sector to develop a broad definition of green 
jobs, and the fiscal year 2010 budget requests $8 million for the 
Bureau of Labor Statistics to begin research to define and quantify 
green jobs.

    Question 5. Do you think that the electricians that installed solar 
panels 30 years ago should be called ``green-collar'' electricians?
    Answer 5. Our definition will likely focus on green jobs today, not 
30 years ago. Our immediate focus is on achieving our common goals of 
spurring economic recovery and providing a skilled workforce for 
emerging and growing U.S. industries today.

    Question 6. The city of Washington, DC has more green, Leadership 
in Energy and Environmental Design (LEED) certified buildings than 
almost anywhere else in the United States. Would you consider the 
workers that built these buildings ``green-collar'' workers?
    Answer 6. As stated in the answer to question No. 4, we are still 
working with our partners in the Federal Government and private sector 
to develop a broad definition of green jobs, but in your particular 
example, I think that workers who directly contributed to the LEED-
certification for such buildings should be considered ``green-collar'' 
workers. Not all job categories in the process of constructing a LEED-
certified building are necessarily green collar jobs, so I would want 
to examine the different job categories before making a broad 
determination. Again, I would reiterate that we are working diligently 
to define green jobs and skills.
                                 ______
                                 
                      MEMORANDUM OF UNDERSTANDING

   Among the United States Departments of Education, Energy and Labor

    This Memorandum of Understanding (MOU) is a non-binding expression 
of intent between the United States Departments of Education 
(Education), Energy (Energy) and Labor (Labor) to collaborate on 
linking the United States workforce to jobs, training and education 
opportunities funded by the American Recovery and Reinvestment Act 
(Recovery Act) and annual appropriations. The Departments of Education, 
Energy and Labor may be referred to individually as a `Department' and 
together as `Departments'.
    WHEREAS, Education, through its formula-based State grant program, 
discretionary funded activities, and technical assistance efforts with 
State and local educational agencies, and community colleges, promotes 
and supports the development of career pathways and program of study 
models that provide seamless transitions for students from high school 
to post-secondary education and careers;
    WHEREAS, Labor, through formula-based and discretionary programs, 
supports activities at the regional, State and local levels to link 
job-seekers to employment and training opportunities and prepare 
workers for opportunities in high-growth and emerging industries;
    WHEREAS, Energy supports research, development, demonstration, and 
other activities to help the U.S. transform into a nation that relies 
much more heavily on renewable energy; implements state-of-the-art 
energy efficiency technologies and processes in homes, businesses, 
transportation industry, and utilities; and develops and maintains a 
smart grid to ensure clean and reliable power across the Nation;
    WHEREAS, Energy focuses on the development of basic science 
knowledge and industry-supported technology, and develops related 
curricula, certifications and standards; provides technical assistance 
to ensure state-of-the-art training and education programs; and 
facilitates coordination with industry to enhance opportunities for 
hands-on training;
    WHEREAS, the Departments seek to efficiently and effectively 
advance existing and future training and education programs; avoid 
duplication of effort; fill skill deficiencies; optimize matching of 
training programs with employment needs; provide career ladders, 
lattices and pathways for American workers; and provide for a skilled 
workforce in the clean energy and energy efficiency sectors;
    WHEREAS, the Departments seek to collaborate on efforts that will 
benefit the U.S. economy and workforce today and over the long-term, 
and help ensure the development of a significantly expanded and 
qualified workforce to install and operate new and advanced clean 
energy and energy efficiency technologies and processes in order to 
reach U.S. climate change, national security and other goals;
    NOW, THEREFORE, the Departments have reached the following 
understanding:
                               ARTICLE 1
                               OBJECTIVE
    1. The objective of this MOU is to establish a framework to assist 
the Departments in collaborating for mutual and public benefit and 
through open and reciprocal exchange of information on all aspects 
necessary to ensure a successful partnership.

                               ARTICLE 2
                               ACTIVITIES
    Subject to the availability of funds and applicable laws 
Departments will exchange a variety of information and participate in 
joint activities including but not limited to the following:

    1. Each Department agrees to notify the other two Departments of 
relevant awards made with Recovery Act as well as appropriated funds, 
and include in its contracts, as appropriate, provisions that encourage 
awardees to coordinate to the extent possible with each Department's 
appropriate regional, State and local offices for related activities;
    2. In accordance with its statutory authority. Energy agrees to 
conduct outreach to employers and industry-related organizations, such 
as industry associations, labor-management organizations, and labor 
organizations, and to other organizations that represent the interests 
of workers, employers, and the education and training community, and to 
other relevant groups including community or faith-based organizations, 
to support Education and Labor in the identification of industry-
validated standards, assessments, best practice regimes, 
accreditations, and certifications; and in the development of career 
ladders, lattices, pathways and programs of study that can prepare 
students for rewarding careers in the energy sector;
    3. Where appropriate each Department agrees to disseminate 
information about relevant programs and activities carried out by the 
other two Departments by jointly run webinars conferences, and outreach 
materials using the web and/or other means;
    4. The Departments will work together to develop mutually 
supportive and reinforcing projects with aligned goals to ensure the 
development of career ladders, lattices and pathways for jobs in energy 
efficiency and renewable energy fields.

                               ARTICLE 3
                         MANAGEMENT AND FUNDING

    1. To ensure effective implementation and oversight of this MOU, 
the Departments intend to establish an Oversight Committee consisting 
of up to six members, with each Participant nominating up to two 
Federal employees to serve on this body. Each Department will engage in 
activities related to its statutory authorities and will be responsible 
for its own costs associated with attending and participating in 
Oversight Committee meetings.
    2. The Oversight Committee should provide periodic reports to the 
Departments on collaborative efforts described in Article 2: 
Activities.
    3. This Agreement in no way restricts any of the Departments from 
participating in any activity with other public or private agencies, 
organizations or individuals.
    4. This Agreement is neither a fiscal nor a funds obligation 
document. Nothing in this Agreement authorizes or is intended to 
obligate the Departments to expend, exchange, or reimburse funds, 
services, or supplies, or transfer or receive anything of value.
    5. This Agreement is strictly for internal management purposes for 
each of the Parties. It is not legally enforceable and shall not be 
construed to create any legal obligation on the part of any Department. 
This Agreement shall not be construed to provide a private right or 
cause of action for or by any person or entity.
    6. All agreements herein are subject to, and will be carried out in 
compliance with, all applicable laws, regulations and other legal 
requirements.

                               ARTICLE 4
              COMMENCEMENT, MODIFICATION, AND TERMINATION

    Cooperation under this MOU may commence upon signature and continue 
for 5 years. The MOU may be modified at any time by mutual 
determination of the Participants in writing. If any Department desires 
to terminate this agreement, it should endeavor to provide 120 days 
advance written notice to the other Departments.
    Energy enters into this Agreement under the authority of section 
646 of the Department of Energy Organization Act (Pub. L. 95-91, as 
amended; 42 U.S.C.  7256).
    Education enters into this Agreement under the authority to enter 
into agreements in section 415 of the Department of Education 
Organization Act (DEOA) (20 U.S.C.  3475), and consistent with the 
purposes set forth in section 102(4)(5) and (6) of the DEOA (20 U.S.C. 
 3402(4), (5) and (6)).
    Labor enters into this Agreement under the authority of 29 U.S.C. 
551, which established the Department for the purpose of fostering, 
promoting, and developing the welfare of the wage earners of the United 
States, to improve their working conditions, and to advance their 
opportunities for profitable employment.
            Signed in triplicate,

                                               Arne Duncan,
                                            Secretary of Education.

                                                Steven Chu,
                                               Secretary of Energy.

                                               Hilda Solis,
                                                Secretary of Labor.
                     Training and Employment Notice
To:  State Workforce Agencies; State Workforce Administrators; State 
Workforce Liaisons; State and Local Workforce Board Chairs and 
Directors; State Labor Commissioners; State UI Directors; State 
Apprenticeship Directors; Comprehensive and Affiliate One-Stop Career 
Center Directors; Senior Community Service Employment Program Grantees; 
and Indian and Native American Program Grantees; and Migrant Seasonal 
Farmworker Grantees

From: Douglas F. Small, Deputy Assistant Secretary

Subject:  American Recovery and Reinvestment Act of 2009 Competitive 
Grants for Green Job Training

                               1. PURPOSE

    The American Recovery and Reinvestment Act of 2009 (Recovery Act) 
was signed into law by President Obama on February 17, 2009. The 
Recovery Act is intended to preserve and create jobs, promote the 
Nation's economic recovery, and assist those most impacted by the 
recession. Among other funding directed toward the Department of Labor 
(DOL), the Recovery Act provides $750 million for a program of 
competitive grants for worker training and placement in high growth and 
emerging industries. Of the $750 million allotted for competitive 
grants, the Recovery Act designates $500 million for projects that 
prepare workers for careers in the energy efficiency and renewable 
energy sectors described in Section 171(e)(1)(B) of the Workforce 
Investment Act of 1998 (WIA), as amended to incorporate the Green Jobs 
Act of 2007. This notice describes the Employment and Training 
Administration's (ETA) initial plans for awarding these ``green job 
training'' funds under the Recovery Act so that interested 
organizations can begin to plan for the application process and can 
strengthen or build partnerships to be successful applicants.

                             2. REFERENCES

    <bullet> The American Recovery and Reinvestment Act of 2009, Pub. 
L. No. 111-5, 123 Stat. 115, Division A, Title VIII (February 17, 
2009).
    <bullet> Green Jobs Act of 2007, Pub. L. No. 110-140, 121 Stat. 
1748 (codified at 29 U.S.C.  2916).
    <bullet> Workforce Investment Act of 1998, Pub. L. No. 105-220, 112 
Stat. 939 (codified as amended at 29 U.S.C.  2801 et seq.).
    <bullet> Training and Employment Notice (TEN) 30-08, ``Overview of 
the Employment and Training Administration's implementation strategy 
for Workforce Investment Act and Wagner-Peyser funding under the 
American Recovery and Reinvestment Act of 2009.''
    <bullet> Training and Employment Guidance Letter (TEGL) 17-08, 
``American Recovery and Reinvestment Act (Recovery Act) Funds Financial 
Reporting Requirements.''

       3. BACKGROUND AND STRATEGIC VISION FOR COMPETITIVE GRANTS 
                         UNDER THE RECOVERY ACT

    ETA is currently formulating a series of grant competitions for 
these funds as authorized under the Recovery Act. Through these grants, 
ETA seeks to assist individuals impacted by the recession by providing 
training and placement into employment, including the transition of 
auto and auto-related workers to jobs in the green energy sector. ETA 
will promote economic recovery by supporting the training needs of 
workers and employers in high growth and emerging industries. These 
grants also offer an opportunity to demonstrate how partnerships 
between the public workforce system and other public and private 
systems, including labor-management partnerships, education 
institutions, community and faith-based organizations, and research 
institutions can meet the workforce needs of the energy efficiency and 
renewable energy sectors and other industry sectors.
    Across the series of grant competitions, these partnerships will 
undertake collaborative activities designed to define emerging energy 
efficiency and renewable energy jobs and train qualified workers to 
fill them. States will play a key role, working with public and private 
sector partners, to coordinate and gather information on skill 
qualifications for existing, new and emerging careers, and will 
publicize this information. State Workforce Investment Boards (SWIBs) 
will also play a key role in developing plans and leading renewable 
energy and energy efficiency employment efforts across a partnership, 
and implementing training programs in local and regional workforce 
areas. One-Stop Career Centers and a wide variety of community and 
labor organizations eligible for these grants will also benefit from 
these State research and planning efforts to meet the training needs of 
workers and employers in emerging energy efficiency and renewable 
energy industries. Successful organizations and partnerships will 
ensure that supportive services are integrated with education and 
training programs so that individuals can have access to a 
comprehensive array of supportive options. Further, these organizations 
and partnerships will assist individuals in entering career pathways 
leading to economic self-sufficiency.
    Finally, it is the Department's vision for these competitive grants 
to serve the purpose of training and teaching workers the skills being 
created in these emerging energy efficiency and renewable energy 
sectors. These efforts will lead program participants to job placement 
while leveraging other Recovery Act investments intended to create jobs 
and promote economic growth.

             4. OVERVIEW OF POTENTIAL FUNDING OPPORTUNITIES

    In order to implement this strategic vision, ETA is tentatively 
planning to issue a series of Solicitations for Grant Applications 
(SGAs). An overview of the potential solicitations anticipated for 
funding is provided below. Please be advised that the final funding 
opportunities may vary from those currently anticipated.
A. State Labor Market Information Improvement Grants
    This will be a competition among State Workforce Agencies (SWAs) or 
consortia of the SWAs of multiple States to collect, analyze, and 
disseminate labor market information, as well as develop a labor 
exchange infrastructure to direct individuals to careers in the energy 
efficiency and renewable energy sectors described in Section 
171(e)(1)(B)(ii) of WIA. The activities conducted by successful 
applicants will be coordinated with and complement work conducted by 
the Bureau of Labor Statistics. ETA strongly encourages States to form 
consortia and jointly apply for these grants, and the SGA will reflect 
a preference for such approaches. Grantees will track workforce trends 
resulting directly or indirectly from Recovery Act investments, as well 
as related State, local, or private sector investments that create jobs 
in energy efficiency and renewable energy sectors. In addition, 
grantees will improve labor exchange infrastructure to populate 
occupational listings in job banks. Activities should be focused on 
ensuring that workers trained for green jobs will be able to find 
employment in energy efficiency and renewal energy sectors after they 
finish training.
    This means identifying the existing and emerging needs of employers 
in these emerging industries, in terms of both skills and job openings, 
and making available employee placement tools to help match workers 
with those jobs.
B. Energy Training Partnership Grants
    Two separate applicant pools will compete for grants under this 
solicitation: (1) eligible national labor-management organizations with 
local networks; and (2) statewide or local strategic nonprofit 
partnerships consisting of labor-management organizations, labor, 
business, Workforce Investment Boards (WIBs), and other organizations. 
These grantees will deliver training that leads to employment in 
careers in energy efficiency and renewable energy sectors described in 
Section 171(e)(1)(B)(ii) of WIA. Grantees will utilize partnerships to 
design and distribute training approaches that lead to portable 
industry credentials and employment, including registered 
apprenticeship. These grants will focus on dislocated and incumbent 
workers. A portion of the funds under this SGA will be reserved for 
communities or regions undergoing auto industry-related restructuring 
as discussed below.
C. Pathways Out of Poverty Grants
    Two separate applicant pools will compete for grants under this 
solicitation: (1) eligible national community-based and faith-based 
organizations with local networks; and (2) local partnerships that 
include community-based organizations, education and training 
institutions, business, and labor organizations. Successful applicants 
will provide training and placement services to individuals seeking 
pathways out of poverty and into employment within the energy 
efficiency and renewable energy sectors described in Section 171 
(e)(1)(B)(ii) of WIA. Targeted populations include low-income and 
under-skilled workers, unemployed youth and adults, high school 
dropouts, or other underserved populations, with priority given to 
areas of high poverty. Successful training programs for these 
populations will: (1) include sound recruitment and referral strategies 
for targeted populations; (2) integrate basic skills and work-readiness 
training with occupational skills training; (3) combine supportive 
services with training services to help participants overcome barriers 
to employment; and, (4) provide services at times and locations that 
are easily accessible.
D. State Sector Training Grants
    This will be a competition among SWIBs in partnership with their 
SWA, local WIBs and One-Stop Career Center Systems, or regional 
consortia of Boards. Grant funds awarded under this SGA will be used to 
provide training and job placement activities aligned with a workforce 
sector strategy that will target energy efficiency and renewable energy 
sectors. The strategy will reflect State energy policies and how they 
impact the work of the local Workforce Investment system and One-Stop 
Career Centers to prepare workers for the energy efficiency and 
renewable energy sectors described in Section 171(e)(1)(B) of WIA. 
Successful applicants will demonstrate: (1) strong partnerships to 
develop the energy efficiency and renewable energy workforce; (2) 
relationships with other State agencies receiving Recovery Act funding 
to support strategic planning and implementation efforts; and (3) 
ability to implement a workforce development approach that targets the 
needs of a specific industry sector and provides an integrated system 
of education, training, and supportive services. A portion of the funds 
under this SGA will be reserved for communities or regions undergoing 
auto industry-related restructuring as discussed below.
E. Green Capacity Building Grants
    This will be a competition to build the capacity of current DOL 
grantees to prepare targeted populations for employment in the energy 
efficiency and renewable energy sectors described in Section 
171(e)(1)(B) of WIA. These awards will support organizations as they 
update existing training and job placement programs for the emerging 
green economy in order to facilitate the success of other projects 
under the Green Jobs Initiative. Key activities will include the 
purchase of equipment, staff professional development, curriculum 
development and/or adaptation, partnership development, and where 
necessary, the hiring of additional staff.
    Competitive Grant Focus for Areas Undergoing Significant Automotive 
Related Industrial Restructuring: A portion of the funding under the 
Energy Training Partnership Grants and the State Sector Training Grants 
will be reserved to facilitate the transition of auto and auto-related 
workers to the green/energy efficient workforce. Grants will provide 
job training, counseling, and placement services to residents from auto 
communities or incumbent and dislocated workers affected by significant 
automotive-related restructuring. To qualify for these grants, the 
geographic area proposed to be served by the project must have within 
it at least one motor vehicle manufacturer or automotive part supplier 
and have experienced significant dislocation. Prospective grantees may 
also propose to serve workers from area facilities who reside outside 
the defined area. For purposes of these SGAs, the industry is defined 
to include original equipment manufacturers and Tier 1, 2 and 3 part 
suppliers.

                    5. ESTIMATED SCHEDULE OF FUNDING

    We anticipate that Solicitations for Grant Applications will be 
published in June 2009, with application closing dates starting late 
summer. It is DOL's intention to implement the Recovery Act 
expeditiously and effectively, with full transparency and 
accountability of our expenditures.

                          6. ACTION REQUESTED

    States are encouraged to share broadly this notice with local WIBs 
and other stakeholders.

                              7. INQUIRIES

    Notice of all Federal solicitations is posted in the Federal 
Register and at www.grants.gov and DOL-specific information is also 
available on our Web site at www.doleta.gov/grants. Additional 
information on funding available through the Recovery Act is on the Web 
at www.doleta.gov/recovery.
    Please note that the Department's staff, including the Office of 
Grants and Contracts Management, is unable to answer inquiries related 
to any of the potential competitive opportunities outlined above. Each 
future SGA will contain detailed instructions about times and dates for 
prospective applicant conferences and for submitting a complete 
application.
       Response to Questions of Senator Murray and Senator Enzi 
                             by Lee Lambert

                      QUESTIONS OF SENATOR MURRAY

    Question 1a. Community colleges are often the most tangible 
connection between workforce needs and education for current and future 
workers. To stay on top of those needs, colleges have to have strong 
relationships with industry leaders, workforce professionals, and 
others who understand both the labor market and the education field.
    What have been the most beneficial relationships for Shoreline with 
key stakeholders in the industry and education community in helping you 
provide new, green programs of study?
    Answer 1a. The concept of partnerships is integral to the community 
college mission. At Shoreline Community College, there are five general 
stakeholder categories and all of them are participants in our green-
jobs programs, including:

    <bullet> Industry--These connections are keys to keeping college 
programs in tune with market needs.

        <bullet>  The automotive program at SCC is a national model for 
        involving industry partners. Not only are major manufacturers 
        such as Toyota, Honda, GM and Chrysler involved, the program 
        has direct ties to dealerships through the Puget Sound Auto 
        Dealers Association (PSADA), which is co-located on campus. 
        This manufacturer connections ensure that students are learning 
        to use workplace-specific equipment. The PSADA connection 
        ensures that every student is guaranteed a job upon graduation.
        <bullet>  SCC's renewable energy program has strong ties to 
        both manufacturing and retail businesses, such as Silicon 
        Energy, LLC, an emergent, Washington-based solar module maker, 
        and local electrical firms like NW Mechanical, based in 
        Shoreline. The renewable energy program staff is looking at the 
        SCC automotive program as a model to further integrate job-
        related learning with market needs.

    <bullet> Education--Community colleges provide educational pathways 
students can choose to follow as far as they wish to go.

        <bullet>  At SCC for example, a student can choose to complete 
        a quarter-long class on photovoltaic system design and take 
        that State-approved certificate right back to the marketplace. 
        Or, a student can enroll in that same class as part of a 2-year 
        Associate of Science degree program that articulates to a 
        Bachelor's of Science, Engineering degree with our university 
        partner, Washington State University.
        <bullet>  SCC's automotive program makes sure the pathway is 
        open, too. For example, each summer the program hosts annual 
        skills update trainings for high school automotive instructors. 
        This summer, the program will be free to high school 
        instructors because SCC program staff-solicited donations from 
        auto dealers across the Pacific Northwest. This outreach 
        program not only ensures high school instructors keep their 
        knowledge current, it establishes a personal connection that is 
        useful for student recruiting and recommendations.

    <bullet> Labor--While labor traditionally maintains its own 
training pathways, officials are recognizing that community colleges 
can support those efforts, whether through hosting skills-training 
centers or providing the basic academic foundation needed for so many 
of today's and tomorrow's jobs.

        <bullet>  Shoreline Community College has established 
        partnerships with local public utilities for a pre-
        apprenticeship basic education program designed to provide 
        basic math, literacy and personal skills needed for the 
        workplace.
        <bullet>  SCC's renewable energy program works closely with the 
        officials from the local International Brotherhood of 
        Electrical Workers. IBEW officials assist in reviewing 
        curriculum and students are able to enroll in IBEW programs.

    <bullet> Government--Working with other governmental agencies is 
critical to the success of community college programs for funding and 
articulation with other training opportunities.

        <bullet>  SCC works closely with a variety of governmental 
        agencies, including King County, King County Workforce 
        Development Council, Washington State Department of Community, 
        Trade and Economic Development and the State Energy Extension 
        Office/Washington State University. These connections bring 
        critical funding and program articulation.

    <bullet> Community--Maintaining close communication with 
communities--the geographically surrounding area as well as interest-
based groups--is necessary to understand the needs of the students who 
live in these communities.

        <bullet>  Community involvement is a core value for many SCC 
        employees, resulting in top-to-bottom community involvement, 
        from a chief academic officer who barbecues salmon at a chamber 
        of commerce community event and serves on an inner-city high-
        school foundation board to an information technology technician 
        who organizes a campus ``closet swap'' to help defray clothing 
        expenses for employees, students and community members.
        <bullet>  At the program level, partnerships with community-
        based organizations allow the college to forge deep community 
        connections. For example, this past summer a partnership 
        between the renewable energy program and the Seattle-based 
        Moontown Foundation allowed hundreds of inner-city and 
        economically disadvantaged youth to learn about green-jobs 
        training programs and discover the educational pathways that 
        lead to green-jobs careers.

    Question 1b. In your opinion, how are community colleges uniquely 
positioned to provide training to a wide array of workers?
    Answer 1b. Community colleges focus on three main mission areas: 
workforce training, academic transfer, and basic skills. This focus 
positions community colleges to serve all types of people, from the 
least-skilled workers who want to learn English and/or gain marketable 
skills, to those who need a few courses or a degree to move up in their 
career. Our close relationships with business and industry are also 
keys to providing the right type of training in the right places at the 
right time. In addition, the recent and swift economic changes have 
revealed an emergent role for community colleges as post-baccalaureate 
institutions. For example, every one of the students enrolled in one 
biotechnology program at SCC, already had a 4-year degree. Shoreline 
continues to see growth in the number of returning 4-year degree 
students who are looking for employable skills.

    Question 1c. How are these partnerships important to the 
sustainability of Shoreline's efforts to provide green programs of 
study?
    Answer 1c. Perhaps the two most important benefits of SCC's 
partnership efforts are the connectors to funding and student 
recruitment.

    <bullet> As traditional government funding sources are strained, 
SCC must look to partners in the private sector for help. This value-
for-value approach is well-understood and appreciated by business-
sector partners.
    <bullet> Markets and job-seekers may see opportunities, but not 
always understand how to connect. Putting those two groups together is 
a role Shoreline Community College facilitates through its varied 
partnerships.

    Question 2. Many individuals who face significant challenges in 
accessing and staying in education or employment have the hardest time 
entering college and succeeding.
    How does Shoreline work to help individuals who face these 
challenges gain access to and succeed in their green programs of study?
    Answer 2. SCC uses a number of State, Federal and donor-funded 
programs to address access and achievement issues, including:

    <bullet> Integrated Basic Education and Skills Training (I-BEST) is 
a statewide program that targets those interested in job training but 
lack needed English language or basic reading and math skills. I-BEST 
program classes have two instructors in the same classroom to teach 
both technical and basic skills. Students who need to improve their 
English language or brush up on math can get the help they need while 
studying in the career field of their choice. Shoreline offers five I-
BEST programs, including Automotive General Service Technician, 
Manufacturing / CNC Machinist, Bilingual Office Assistant, Nursing 
Assistant Certified and Security Guard Training.
    <bullet> Opportunity Grants: State-funded at $11.5 million a year 
for all community colleges, this program supports students 
participating in training for high-wage, high-demand career pathways. A 
goal of the Opportunity Grant program is to help low-income adults 
reach the educational ``tipping point'' (completion of 45 college 
credits and a credential) and beyond.
    <bullet> Career Navigator: Unique to Shoreline's General Service 
Technician (automotive) program, the Career Navigator is funded through 
the Aspen Institute, King County Workforce Development Council, 
Workforce Investment Act and other funders. The program provides 
additional guidance and support for qualifying students in the program.

    Question 3. Staying connected to the State or the community's 
larger strategic plan for economic growth is important to providing 
relevant programs of study for students' career success and for the 
well-being of local businesses.
    How has Shoreline worked to ensure that its ``green'' programs of 
study are relevant to the economic needs of the community it serves--
including workers and businesses?
    Answer 3. The beauty of community colleges is that while their 
mission requires community and mark responsiveness, the public funding 
aspect also requires them to fully justify programs based on need and 
effectiveness.

    <bullet> SCC uses a process known as a DACUM, which stands for 
``developing a curriculum,'' to establish a relevant, up-to-date and 
localized research base for curriculum and instructional development. 
SCC's renewable energy program was launched after a DACUM process that 
included representatives from all five partner categories. The result 
was a detailed look at the curriculum and skill sets that would be 
taught, as well as a list of employment areas and average annual 
salaries available in the Puget Sound region.

    Question 4a. What recommendations do you have for the Department of 
Labor to improve their service to workforce leaders helping workers 
access training for green jobs?
    Answer 4a. The Department of Labor should serve as the standard 
bearer for ``green'' workforce training. All occupations have the 
capacity to be ``greened''--green refers to methods of doing the work. 
The Department of Labor should prioritize funding for innovative 
occupational training programs that teach trainees the skills necessary 
to minimize environmental impact, energy consumption, carbon gas 
emissions, and energy efficiency in their industry.
    The Department of Labor should facilitate a shift in the focus of 
State and local workforce investment boards from the provision of 
short-term pre-vocational skills training to high quality occupational 
skills training based upon nationally-recognized, industry skill 
standard and training necessary to secure family wage employment. Many 
of the currently funded short-term pre-vocational skills programs lead 
to credentials not recognized by industry and do not result in high- or 
family-wage jobs. While this recommendation cuts across all employment 
sectors, particular emphasis should be placed on occupational skill 
development in identified green jobs/industries in order to facilitate 
Federal policy objectives around clean/green, innovation and ``post 
internal combustion engine (post-ICE)'' technologies.
    In addition, the Department of Labor should serve as a hub for 
resources and best practices for States and local areas as they relate 
to green jobs. The Department should facilitate the sharing and 
replication of best practices throughout the Nation through technical 
assistance, targeted grant funding, convening of State/local 
policymakers around topics related to greet jobs, disseminate 
nationally recognized green job skill standards, and facilitate the 
development of national policy and a standard platform of basic skills 
for all American workers.

    Question 4b. For Congress as they work to reauthorize the Workforce 
Investment Act?
    Answer 4b. One example is the area of ``post internal combustion 
engine'' technologies, where the economy and employment will require 
the retraining and re-skilling of American workers in green 
methodologies. The Workforce Investment Act should be modified to 
incentivize State and local boards to provide high quality training, at 
the occupational skills training level, and should allow all Americans, 
preparing for employment, to achieve a basic platform of education. The 
current Workforce Investment Act performance/accountability system 
creates disincentives for local areas to enroll Americans in 
occupational skills training activities. The reauthorized Act should 
focus funding on efforts designed to make our industries more 
competitive globally while improving the quality of education for all 
Americans, thereby making our citizens more competitive for high-skill, 
high-wage employment opportunities.
    Most importantly, there is a need to streamline the administrative 
requirements of the Workforce Investment Act to ensure that, to the 
maximum extent possible, funding is directed toward improving the 
occupational skills of Americans. Unfortunately, much of the current 
national investment is ``lost'' in multiple bureaucratic layers, a 
complicated State and local board structure and other administrative 
functions.

    Question 4c. For businesses and educators engaging in the green 
economy?
    Answer 4c. Strong collaboration between business/industry and 
higher education will help move American workers into the green 
economy. Business/industry should take an active role in shaping the 
development of training programs that are designed to ensure the 
development of a pipeline of skilled and ready workers necessary for 
the support of the industry into the future. Educators must continue to 
engage with business/industry to ensure that curricula and training 
programs meet the current and future needs of industry. The educational 
and training system must modify its operational model to meet the needs 
of business/industry and working adults. This includes the development 
of a calendar based upon the business cycle and not the historical 
agrarian economy, offering flexible course schedules to meet the needs 
of working adults, maximizing the use of online/distance delivery 
technologies and ensuring course offerings/content are relevant to the 
current and future work environment.

    Question 4d. For State workforce development directors?
    Answer 4d. State workforce policy should be reviewed and revised, 
where necessary, to ensure full strategic alignment with the newly 
authorized act and to emphasize the provision of occupational skills 
training. State policies should ensure that resources are directed 
toward workforce investment system customers to the fullest extent 
possible while minimizing or eliminating bureaucratic processes that 
result in fewer resources reaching American workers.

                       QUESTIONS OF SENATOR ENZI

    Question 1a. The growth in green jobs will require an increase in 
the capacity to deliver education and training to large numbers of 
individuals seeking to fill these green jobs. In your opinion, what is 
the capacity of community colleges across the country to accommodate 
the demand for skilled workers to fill green jobs?
    Answer 1a. There are two components that make up capacity. One is 
instructional support and the other is tuition support for students. 
Colleges are facing serious fiscal constraints due to the current 
economic situation and students are facing rising tuition costs. Both 
of these will have a negative impact on capacity. The other challenge 
with many of these types of programs is the high equipment costs 
associated with developing a new technical program. With this being 
said, community colleges are eager to meet the demands of employers and 
have been historically responsive in doing so. Healthcare is an 
excellent example of colleges' ability to rapidly shift to programs to 
meet the needs of employer demand.

    Question 1b. What effective models and education resources are 
there for community colleges to use as they adapt their programs to 
meet this demand?
    Answer 1b. In addition to Integrated Basic Education and Skills 
Training (I-BEST), Opportunity Grants, and Career Navigator, Washington 
State has developed Centers of Excellence to help deliver education and 
training.
    The Centers of Excellence are designed to serve as industry-
specific hubs for all Washington community and technical colleges. Each 
Center serves as a statewide liaison to business, industry and the 
State's educational systems for the purpose of creating a highly 
skilled and readily available workforce critical to the success of the 
industries driving the State's economy and supporting Washington's 
families. Centers assist all colleges in the Washington system through 
the sharing of model curricula, educational pathways, degree/
certificate programs and industry specific skill standards and best 
practices. Centers foster strong relationships with business and 
industry. These relationships are critical for ensuring that our 
education and training resources are relevant to the current work 
environment and meet industry's needs in terms of skill development for 
future workers.

    Question 2. How will community colleges work with the workforce 
community and employers to develop the training programs necessary to 
prepare workers for green jobs? What professional development is there 
for faculty to prepare them to teach these skills?
    Answer 2. Colleges have been actively working with their advisory 
committees, which are comprised of employers and labor representatives 
to identify their needs. There are also industry skills panels in 
place. These groups are getting ready to begin identifying training 
components in the areas of green economy sector jobs. Industry skills 
panels are public/private partnerships of business, labor and 
education; alliances working together to improve the skills of workers 
in industries vital to the economy.
    These strong connections allow green-economy related programs to 
stay connected to the latest technical innovations in emerging areas of 
green-job training programs such as solar/photovoltaic. These close 
working partnerships with industry, as well as established 
relationships with university-level education programs, put community 
colleges in a unique position to leverage professional development 
opportunities. In addition, community colleges such as Shoreline budget 
professional development funding for faculty to keep skills fresh and 
relevant. To augment this dynamic process, the Washington State Board 
for Community and Technical Colleges (SBCTC) also recently conducted a 
survey to begin identifying capacity for peer training in emerging 
technologies. Additional faculty development is provided through a 
variety of conferences, workshops, institutes and training offered 
through the SBCTC and the Centers of Excellence, as well as through 
faculty learning communities.

    Question 3. What strategies are there for community colleges to 
work with individuals who lack strong literacy skills in order for them 
to participate in green jobs training?
    Answer 3. The 2-year colleges in Washington State recognize that 
individuals with low-literacy skills and other significant challenges 
to education and employment come from our fastest growing population 
groups and will make up much of the growth in our workforce for the 
next two generations. Because the success of these individuals will 
determine the economic viability of both their families and our State, 
Washington's community and technical colleges provide significant 
educational support all along education and career pathways that 
include:

    <bullet> Adult basic education, English as a second language and 
GED completion classes that have as a clear goal the successful 
transition of adult workers into post-secondary education and 
achievement of the Tipping Point (at least 1 year of college credit and 
credential that leads to a family-wage job);
    <bullet> Integrated Basic Education and Skills Training (I-BEST) 
programs that teach basic and job specific skills at the same time, 
leading to certification as an automotive service technician or a 
computer numerical control machinist. Both career paths are in the 
midst of rapid changes reflecting the commitment of these two 
industries to green practices;
    <bullet> Opportunity Grants that provide the flexible financial 
support that low-income workers need in order to sit out from the 
workforce for at least long enough to reach the Tipping Point. Many of 
these adults, especially adult basic education students, do not qualify 
for other forms of financial aid.

    All of these efforts demonstrate successful outcomes. Nonetheless, 
funding for training programs is inadequate to address current need and 
is further threatened by the economic crisis.

Response to Questions of Senator Murray and Senator Enzi by Phillip Lou

                      QUESTIONS OF SENATOR MURRAY

    Question 1a. Before entering the program, did you do any research 
of your own to determine the viability of solar panel installation as a 
career?
    Answer 1a. For many years, I have been informally educating myself 
through books and journals in the renewable energy field particularly 
Photovoltaic (PV) systems.

    Question 1b. Who did you talk to about the field?
    Answer 1b. I was in the process of changing careers from 
woodworking and carpentry to electrical. I inquired with electricians 
about PV installs and electrical work.

    Question 1c. How did you determine that you were a good match for 
this field?
    Answer 1c. More recently I used the Internet to search for specific 
training opportunities. The solarwashington.org Web site displayed only 
one link to training and that was Shoreline Community College. I was 
glad that there was a local community college that offered classes in 
renewable energy technologies. The course description matched my goals.
    One experience that was not included in the written or oral 
testimony was my involvement in the Exxon Valdez oil spill in Prince 
William Sound, AK, 1989. I was a crew member on a support vessel and 
witnessed the devastating result of our dependence on oil. This is one 
of the many experiences that formed the values and desire to 
participate in the field of renewable energy technologies.

    Question 2a. Since leaving the program, what has been your 
experience in the working world?
    Answer 2a. Since I've been in the program, Artisan Electric, Inc. 
has hired me as a PV systems designer and installer and electrical 
apprentice.

    Question 2b. Have you found that your career opportunities have 
been better (or broader) than before?
    Answer 2b. Three classmates and I started our own company, 
Greenworks Technologies, Inc., specializing in PV, solar water heating, 
energy audits and weatherization, and rain catchment systems. The 
program brought us together, focused us on the work to be done and 
trained us to do the work.

    Question 2c. How has your education been beneficial to starting 
your own business?
    Answer 2c. I realize the necessity for more classes and training.

    Question 3. As a practitioner in the field, how do you see the 
long-term viability and sustainability of the solar energy field?
    Answer 3. From my perspective, I believe there are 2 elements 
critical to the long-term viability and sustainability of the solar 
energy field. They are education and incentives.
    Education is key for a well-trained workforce and a well-informed 
populace. It is my hope that the community college system has a role in 
informing the general public about solar energy's potential as well as 
training a workforce to implement PV systems.
    The recent extension of the 30 percent Federal Income Tax Credit 
for renewable energy projects is very helpful.

    Question 4a. If you had it to do over again, would you choose the 
solar panel program at Shoreline again? Why?
    Answer 4a. Yes, I would choose this program again. From this 
program, I gained the education, critical skills, confidence, and 
professional contacts that I feel are necessary in furthering my 
career.

    Question 4b. What kind of support did you receive during your 
studies at Shoreline?
    Answer 4b. The support I needed was met by my instructor and 
mentor, Mike Nelson, who was available to me for questions and advice.

    Question 4c. What advice do you have for others interested in 
pursuing a ``green job'' and need additional training to get that job?
    Answer 4c. My advice to prospective students includes both support 
and caution. I recommend this program to those who seek continuing 
education and technical skills training. A caution is that a certain 
level of investment--time, energy, and money--is required.

    Question 5. What recommendations do you have for improving 
workforce development policies?
    Answer 5. From my experience, these are my recommendations:

    1. Training Center--Appropriate lab building, technical library, 
computer lab;
    2. Equipment--Solar modules, inverters, racking, and systems 
monitoring; and
    3. Student scholarships to conferences and training--The field is 
changing so fast, it is vital students connect with the people and 
organizations. For example: NW Solar Summit, American Solar Energy 
Society Conference, and NW Solar Expo.

                       QUESTIONS OF SENATOR ENZI

    Question. According to President Lambert's testimony, the Shoreline 
Community College has effectively partnered with employers to 
understand the skills training employees need to be successful in the 
workplace. As a graduate of Shoreline, to what extent has your 
education and skills training at the community college prepared you for 
your career? How could Shoreline have better prepared you for the green 
jobs in your community?
    Answer. From Shoreline Community College, I've gained the critical 
skills, confidence, and professional contacts that are an asset to both 
Artisan Electric, Inc. and Greenworks Technologies, Inc. I am confident 
that the education and skills gained from Shoreline was the deciding 
factor in my employment with Artisan Electric, Inc.
    The program at Shoreline was instrumental in launching my new 
career. The Photovoltaic Design & Install class was excellent and the 
only improvement that comes to mind would be more hands-on sessions but 
I recognize that the limitation is availability of faculty and 
resources.
    From my experience, these are my recommendations:

    1. Training Center--Appropriate lab building, technical library, 
computer lab;
    2. Equipment--Solar modules, inverters, racking, and systems 
monitoring; and
    3. Student scholarships to conferences and training--The field is 
changing so fast, it is vital students connect with the people and 
organizations. For example: NW Solar Summit, American Solar Energy 
Society Conference, and NW Solar Expo.

 Response to Questions of Senator Murray and Senator Enzi by Joan Evans

                      QUESTIONS OF SENATOR MURRAY

    Question 1. Wyoming's workforce system seems to strive for a strong 
connection between statewide plans for economic growth and education 
and job training.
    How has the shift to the green economy been reflected in the 
State's strategic efforts to connect economic and workforce 
development?
    Answer 1. It was an honor and a privilege to speak before the U.S. 
Senate Committee on Health, Education, Labor, and Pensions Committee on 
April 21, 2009. As the country moves forward with a green workforce, I 
am dedicated to addressing those opportunities and believe that 
Wyoming's workforce will be prepared to meet these challenges.
    The Wyoming Workforce Development Council, which is the State's 
Workforce Investment Board, is planning to issue a Request for Proposal 
(RFP) utilizing up to $290,000 of the State's 15-percent set-aside 
funding under the ARRA to encourage training for alternative and 
renewable energy jobs and to train individuals for employment that 
leads to self-sufficiency.
    Additionally, the Wyoming Department of Workforce Services is 
partnering with the State's Labor Market Information agency (the 
Research and Planning Section of the Wyoming Department of Employment) 
to develop future projections of labor needs across all industry 
sectors. Current projections are largely based on historical trends, 
which may not be highly reliable indicators of future growth. The 
Research and Planning Section is also working to more fully understand 
the impact of green jobs among the LMI community, education, and 
economic and workforce development partners. In addition, the 
Department of Workforce Services and Workforce Development Council are 
working closely with the Wyoming Business Council (the State's economic 
development agency) to address challenges of all businesses within key 
industry sectors.
    Further, the Department is collaborating with the Wyoming 
Department of Family Services and the Wyoming State Energy Office in 
seeking enhanced training options for weatherization and energy 
efficiency providers, since more weatherization dollars are flowing to 
Wyoming as a result of ARRA.

    Question 2a. The workforce system helps workers and employers 
connect the dots between education and training, career choice, and the 
value of skilled workers to businesses and economic development.
    How has the existing system in Wyoming served as the foundation for 
your efforts to provide training for green jobs in the State?
    Answer 2a. The Department in 2008 began pursuing a strategy called 
Industry Partnerships Solutions which encourages the creation of 
partnerships involving multiple businesses within the same industrial 
sectors. Other key players in these industry partnerships are 
education/training entities and economic development. These types of 
partnerships bring together key workforce development players whose 
primary goals are to determine workforce needs across an industry such 
as recruitment, retention, marketing for the industry, and management 
training. Through these partnerships, public workforce development and 
education dollars are better focused to help multiple businesses within 
any industry sector, including emerging green industries.
    The Department actively supports programs such as CLIMB Wyoming and 
Dads Making a Difference--programs that help move people out of poverty 
and into good-paying jobs. A variety of job training and life skills 
counseling is offered to clients, and these programs are poised to 
integrate green job skill attainment into their training programs.
    In addition, the Department is aggressively promoting the Wyoming 
Career Readiness Certificate--a document that verifies a job seeker's 
skill levels based on the WorkKeysTM assessment. WorkKeysTM, which is 
already a qualifying component of our State student college scholarship 
program, was devised by ACT Inc. to gauge ``real world'' work skills in 
math, reading and locating information. Similar initiatives in other 
States have proven effective in helping provide a better match between 
job seekers and employers, and in reducing turnover, recruitment and 
hiring costs for businesses. ACT has matched WorkKeysTM scores to the 
skill needs of thousands of occupations, and using such job 
``profiles'' for green jobs can further help provide workers for these 
new industries.
    The Industry Partnerships Solution, combined with the self-
sufficiency training programs, Career Readiness Certificate initiative 
and ongoing WIA and Wagner-Peyser funding activities at our Workforce 
Centers will keep Wyoming responsive to not only green industry needs 
but workforce needs in all industries.

    Question 2b. Have you found that workers and industry leaders are 
somewhat confused about how to approach training for green jobs?
    Answer 2b. While the Department of Workforce Services is generally 
taking the same worker training approach to all types of industry 
workforce training needs--green or otherwise--some confusion exists 
among the general public over the difference between green jobs and 
green skills. For example, if a person has welding skills and takes a 
job building electric transmission line towers that will transmit power 
generated by wind turbines, does that person have green skills? If not, 
is he at least working at a green job?
    At the education level, Wyoming has seven community colleges and 
each has recently focused on different aspects of what it considers 
``green training.'' Most of these green training programs have been 
developed with industry help, focusing primarily on renewable energy 
and wind power. For example, the Wind Technician Program at Laramie 
County Community College in Cheyenne is expanding enrollment to 75 
students per year. This program was launched through a USDOL grant. The 
Department of Workforce Services, through WIA funding, has sent many 
students into the program.
    Other green programs offered by our colleges include an Energy 
Rater Training Seminar, which provides course work and test preparation 
for the Residential Energy Services Network Energy Rater Certification 
exam; Energy Efficient Residential Contractor Training, which provides 
two-day training for installation of windows, doors, and insulation for 
individuals interested in starting or expanding their own contracting 
business; and Green Landscaping, which offers a workshop on landscaping 
to benefit the environment and save water and energy. Another program 
focuses on land reclamation after traditional mining operations have 
ceased.

    Question 2c. What do you think the Department of Labor could do to 
help your system better meet the needs of workers and employers for the 
green economy in Wyoming?
    Answer 2c. The Department of Workforce Services would like 
clarification on what truly could be considered a ``green industry'' 
and ``green training.'' To offer another example: If an electrician 
receives training to work on a wind farm, and only works at the wind 
farm 20 percent of the time, does that qualify that electrician and the 
required training as a green job? There is too much left unknown on 
what can be considered ``green training'' and ``green skills'' which 
could be better defined by the Department of Labor.

    Question 3a. Many workforce leaders across the country have 
expressed some concern about their ability to understand the changing 
science and policy world surrounding green jobs. While they clearly 
understand the best way to help workers access training and job 
counseling, they're concerned that those two worlds--energy and 
environmental policy, and workforce development--are going to be tough 
to align.
    As a leader in the field, have you experienced this disconnect or 
heard concerns from experts in your State about meeting the 
expectations of a green economy?
    Answer 3a. The responses provided to question 2b above also apply 
here, but I would like to elaborate. Some leaders from traditional 
(fossil-fuel based) energy industries have shown reluctance to ``buy 
in'' to training for green jobs because they are unsure of the 
definition of green jobs and the implications for their own industries. 
They are wondering why they should support green jobs if such support 
would threaten or undermine their own industries, such as coal mining 
or oil and gas extraction, which will remain an integral part of our 
Nation's energy mix for years to come.
    Also, the ability to provide workers for green industries is 
further complicated by many unknowns as the impacts of emerging 
industries, such as wind, become more evident. On May 19, Wyoming 
Governor Dave Freudenthal sent a letter (attached) to a new legislative 
task force outlining his concerns about the impact of wind turbines on 
crucial habitat for sage grouse and sensitive species, the benefit to 
local and State governments, and the effect on private property owners. 
How these concerns are addressed or resolved will largely determine the 
rate of wind farm development in our State, and subsequently, the 
numbers of trained workers that will be needed to sustain and grow the 
industry.

    Question 3b. What kind of partnerships are you building at the 
State level to ensure that leaders in the energy and environmental 
field and those of you in workforce development maintain open and 
constructive lines of communication to ensure success for workers and 
local businesses?
    Answer 3b. The Wyoming Workforce Development Council is a great 
example of a public-private partnership in that both businesses and 
governmental agencies are represented on the Council. Private sector 
individuals comprise more than 51 percent of membership of the Council 
and also chair four of the Council's five committees--Talent Pipeline, 
Sector Strategies, Communication and Evaluation.
    In addition to Council representation, the Industry Partnership 
Solutions, as discussed in my response to question 2a, is another 
proactive measure to maintain dialogue with the private sector.

    Question 4a. What recommendations do you have for the Department of 
Labor to improve their service to workforce leaders helping workers 
access training for green jobs?
    Answer 4a. As mentioned in the response to question 2c, we would 
prefer that DOL define green jobs, and clarify the difference between 
green jobs and green skills. It may even be beneficial not to use the 
term ``green'' but utilize terms as ``renewable'' or ``alternative'' 
energy jobs. ``Green'' has negative connotations in many circles, 
particularly in Wyoming where ``non-green'' job-holders feel uncertain 
about the future of their jobs in the current discussion. Many energy, 
policy and scientific experts believe it will not be possible to 
immediately and completely switch from coal-based electricity 
generation to renewable energy-based power, particularly in light of 
the fact that 50 percent of our Nation's power comes from coal, and 
that many power plants and the Nation's transmission infrastructure are 
still coal-
dependent.
    The Department also believes there is a need for a national 
branding program for all activities related to workforce development. 
The names of workforce development agencies vary from State to State, 
and a common brand would help educate industry and potential workers 
about services available at workforce centers, and help promote job 
opportunities in green industries.
    We urge stronger partnerships among the Departments of Labor, 
Energy and Education to streamline and remove duplication in workforce 
development efforts.

    Question 4b. For Congress as they work to reauthorize the Workforce 
Investment Act?
    Answer 4b. Make sure that DOL has discretionary grant funding to 
provide incentives for green training programs.
    Allow Federal workforce development dollars (Wagner-Peyser, WIA, 
etc.) to be appropriated in block grants to States which desire to 
combine those dollars. Eliminate staff reporting requirements for DOL-
funded programs that have the same general purpose. In rural States 
like Wyoming, the same person may be performing both Wagner-Peyser and 
WIA functions and is currently required to report time spent on each. 
Whether the local staff is providing assistance for potential green 
industry employees or for traditional career workers, this multiple 
reporting requirement is redundant and inefficient.
    Generally, we would ask that Congress be mindful that our agency 
will respond to any type of job creation--green or otherwise; if the 
green jobs are there, we will help individuals obtain training and we 
will work with businesses and our partners to build career ladders and 
career pathways for employees in green industries.

    Question 4c. For businesses and educators engaging in the green 
economy?
    Answer 4c. Again, clear definitions and informed projections of job 
creation and needed job skills would be immensely helpful for business 
people and educators. A database of green job training providers would 
also be helpful.
    There is also a need for the public to be better educated on the 
facts surrounding green jobs. How many jobs can realistically be 
expected? What data do we have on the number of green jobs that will be 
generated and sustained for the long term? What are the trades-offs? 
Which jobs are truly environmentally friendly and which ones are 
creating more environmental problems than they solve? What incentives, 
tax breaks or otherwise, exist that would encourage green job creation? 
What indicators give us relative comfort that the green training will 
result in an individual securing a good-paying, long-term job?

    Question 4d. For other State workforce development directors?
    Answer 4d. Put in place a mechanism for all stakeholders to be at 
the table. Encourage and incentivize States and regions to develop 
green industry partnerships that include private and public entities 
whose missions include development of a skilled workforce.
    Share best practices from States that have been able to develop 
talent pipelines within green industries--including successful efforts 
to recruit, train and retain skilled workforces.
    Create an informational database indicating demand for green jobs 
within geographic regions and specific industries, along with potential 
starting wages and training providers.

                       QUESTIONS OF SENATOR ENZI

    Question 1. As the head of a State agency for workforce 
development, how do you view green job skills training for workers in 
the larger context of workforce development in the State?
    Answer 1. We view green job training, however it is defined, as 
just one component in the larger realm of worker training. Our agency 
desires to find skilled workers for new and emerging industries--green 
or not--to help diversify our economy and reduce dependency on the 
traditional minerals sector as the main revenue source for State and 
local government, and to create a wider variety of higher paying jobs 
for our citizens. We continue to be both reactive and proactive--
reactive by responding to needs of businesses as they contact us; 
proactive in maintaining ongoing dialogue with businesses and working 
actively to promote industry partnerships. These types of partnerships 
are aimed at streamlining government services to industry and to 
workers, and to help arrive at common solutions within and across 
industry sectors.
    One concern is the ability for training/education entities to 
quickly develop curriculum needed by industry. The current education 
system requires any new credited program through the community colleges 
to receive approval from the Wyoming Community College Commission, 
which only meets quarterly. If a training program is requested by an 
industry and needs to be developed quickly in partnership with the 
community colleges, there are concerns on how quickly they will be able 
to respond to those needs. While this is mainly a State issue, it may 
be helpful to understand this possible bottleneck in the ability of 
colleges to quickly deliver training.

    Question 2. How have Workforce Investment Act funds been used, if 
at all, in Wyoming for green skills training? What models have been 
adopted in Wyoming that might be useful for others to use in their 
States?
    Answer 2. We plan to use WIA funds to connect individuals dependent 
on public assistance with training in green job and other work skills 
through RFPs in the summer of 2009. WIA funds are also used to help 
many individuals take the WorkKeysTM assessment and obtain a Wyoming 
Career Readiness Certificate--a valuable tool that informs employers of 
a job seeker's skill levels.
    A program which could serve as a model to other States is one that 
is State-funded--the Workforce Development Training Fund. It offers 
grants to businesses to train existing workers or train people for jobs 
that will be created by a company's expansion or re-location to 
Wyoming.

    Question 3. You heard Secretary Solis say that green jobs will 
provide economic security for our middle-class families. In your 
experience in Wyoming, what kinds of jobs are being created in light of 
the emphasis on green jobs? Are these the kinds of jobs that the 
Secretary was referring to?
    Answer 3. The Department of Workforce Services is supporting two 
community college programs that are developing wind energy technicians. 
The starting wage for many of these jobs is $20.00 per hour, so these 
positions definitely benefit middle-class families and are the types of 
jobs to which Secretary Solis was referring. Wyoming is among the top 
States for wind capacity, so our agency's support--through direct 
referrals of clients or by word-of-mouth--is fitting. Also, many wind 
farms have already come on line or are in the planning stages in our 
State, and wind energy will occupy an increasing share of the State's 
economic and energy portfolio.

    [Whereupon, at 12:27 p.m. the hearing was adjourned.]

                                   

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
